<html>
<title> - EXPLORING THE VALUE OF SPECTRUM TO THE U.S. ECONOMY</title>
<body><pre>[Senate Hearing 115-90]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 115-90
 
                    EXPLORING THE VALUE OF SPECTRUM 
                          TO THE U.S. ECONOMY

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
 
 
 
 
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-651 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001      
 
 
    
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

ROGER F. WICKER, Mississippi,        BRIAN SCHATZ, Hawaii, Ranking
    Chairman                         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
DEAN HELLER, Nevada                  GARY PETERS, Michigan
JAMES INHOFE, Oklahoma               TAMMY BALDWIN, Wisconsin
MIKE LEE, Utah                       TAMMY DUCKWORTH, Illinois
RON JOHNSON, Wisconsin               MAGGIE HASSAN, New Hampshire
SHELLEY CAPITO, West Virginia        CATHERINE CORTEZ MASTO, Nevada
CORY GARDNER, Colorado
TODD YOUNG, Indiana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 2, 2017....................................     1
Statement of Senator Wicker......................................     1
Statement of Senator Schatz......................................     2
Statement of Senator Nelson......................................    11
    Prepared statement...........................................    11
Statement of Senator Klobuchar...................................    31
Statement of Senator Cortez Masto................................    32
Statement of Senator Fischer.....................................    42
Statement of Senator Hassan......................................    42
Statement of Senator Thune.......................................    43
Statement of Senator Gardner.....................................    45
Statement of Senator Moran.......................................    46
Statement of Senator Udall.......................................    48
Statement of Senator Peters......................................    49
Statement of Senator Inhofe......................................    52

                               Witnesses

Scott Bergmann, Vice President, Regulatory Affairs, CTIA.........     4
    Prepared statement...........................................     5
Roger Entner, Founder, Recon Analytics LLC.......................    12
    Prepared statement...........................................    13
Dave Heiner, Vice President, Regulatory Affairs, Microsoft 
  Corporation....................................................    15
    Prepared statement...........................................    17
Pat LaPlatney, President and Chief Executive Officer, Raycom 
  Media on behalf of the National Association of Broadcasters....    22
    Prepared statement...........................................    23
Tom Stroup, President, Satellite Industry Association............    25
    Prepared statement...........................................    26

                                Appendix

ViaSat, prepared statement.......................................    55
Response to written questions submitted to Scott Bergmann by:
    Hon. Deb Fischer.............................................    60
    Hon. Maria Cantwell..........................................    61
    Hon. Catherine Cortez Masto..................................    62
Response to written questions submitted to Dave Heiner by:
    Hon. Deb Fischer.............................................    64
    Hon. Maria Cantwell..........................................    65
    Hon. Brian Schatz............................................    66
    Hon. Tom Udall...............................................    68
Response to written questions submitted by Hon. Tom Udall to:
    Pat LaPlatney................................................    69
    Tom Stroup...................................................    71
    
    

                    EXPLORING THE VALUE OF SPECTRUM 
                          TO THE U.S. ECONOMY

                              ----------                              


                        THURSDAY, MARCH 2, 2017

                               U.S. Senate,
       Subcommittee on Communications, Technology, 
                      Innovation, and the Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SD-G50, Dirksen Senate Office Building, Hon. Roger Wicker, 
Chairman of the Subcommittee, presiding.
    Present: Senators Wicker [presiding], Thune, Blunt, 
Fischer, Moran, Inhofe, Lee, Johnson, Capito, Gardner, Young, 
Schatz, Nelson, Cantwell, Klobuchar, Markey, Booker, Udall, 
Peters, Hassan, and Cortez Masto.

          OPENING STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Good morning. On behalf of my friend, 
Senator Schatz, I'm glad to convene the first hearing of the 
Subcommittee on Communications, Technology, Innovation, and the 
Internet for the 115th Congress. So welcome to you all.
    As we all know, in today's connected world, the demand for 
spectrum increases with every new technology. Spectrum is the 
lifeblood of this connectivity, improving the lives of people 
around the globe.
    Our discussion of spectrum policy today comes on the heels 
of this committee's approval of the MOBILE NOW Act. Under 
Chairman Thune's leadership, we have taken a significant, 
bipartisan step toward freeing up spectrum for the next 
generation----
    Senator Klobuchar. I thought it was in keeping with the 
Committee----
    Senator Wicker.--and people should silence their devices, 
by the way.
    [Laughter.]
    Senator Wicker. But right on key, for the next generation 
wireless services with the approval of this legislation. I hope 
to see Senate passage of the bill in the near future. Our 
discussion of spectrum policy should continue. With rapid 
growth in the use of mobile devices and the Internet of Things, 
demand for spectrum will only increase.
    Spectrum for mobile broadband is giving rural America the 
tools and resources it needs. Applications that utilize mobile 
broadband provide the means to deliver quality healthcare in 
the most remote corners of our states and transmit real-time 
data for improved crop production on our farms. Satellite 
services are providing television, broadband, and Earth 
observation for a variety of applications.
    Next Gen TV has the potential to deliver better emergency 
services and ultimately save lives. This is particularly 
important to states like Mississippi that can be situated in 
the paths of hurricanes, tornados, and other natural disasters. 
Unlicensed spectrum offers opportunities for businesses of all 
sizes to innovate and continue to fuel the vast expansion of 
the Internet of Things. Although innovation demands more 
efficient spectrum use, innovation will also be what solves the 
problem of limited spectrum.
    We are here today to talk about the value of spectrum to 
the economy. We are here to talk about what we have learned 
from the FCC's recent spectrum auctions and how unlicensed 
spectrum is a vital piece of the puzzle. I also hope our 
discussion will encourage a focus on the future of spectrum 
policy and set the stage for this committee to look at ways to 
address spectrum demand.
    I would like to welcome all of our witnesses, and I will 
introduce them in a moment after we have turned for an opening 
statement to our colleague, Mr. Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman, for convening this 
hearing and to the witnesses for being here today.
    Spectrum is the invisible infrastructure that has become 
the on-ramp to access the Internet. Thanks to mobile and 
wireless technologies, people can read the news, transfer 
money, watch shows, video chat with a doctor, all from their 
mobile device. In a very short time, these technologies have 
transformed our lives. With new 5G wireless networks and the 
Internet of Things, demand for spectrum will continue to grow.
    The value that that spectrum delivers to the economy is 
hard to overstate. As we will hear from the witnesses today, 
spectrum generates new investments, facilitates innovation, and 
supports job growth across a range of industries. Advancements 
in mobile and wireless clearly benefit consumers and most 
industry sectors, but have also revolutionized citizen 
engagement in politics, transformed news, and enhanced public 
safety.
    Although the focus of today's hearing is on the economic 
benefits of commercial spectrum, it is vital to point out that 
the Federal Government also has critical spectrum needs for 
national security, transportation, weather forecasting, and a 
wide range of other government services. So we must continue to 
work with the agencies to ensure that they have the spectrum 
resources they need now and in the future. But we should also 
build on the successes of the Spectrum Relocation Fund to make 
it more attractive for agencies to vacate or share bands with 
more commercial users where that is possible.
    Since we can't create more spectrum, we need to be more 
creative in how we manage competing spectrum needs. I'm 
confident that industry will find innovative ways to make 
better use of the bands that they have, but we also need to 
find a balance between the competing public and private sector 
needs for more terrestrial and satellite capacity and the need 
to have adequate spectrum available for both licensed and 
unlicensed uses.
    Spectrum policy has been a priority for this Congress and 
this committee, which has passed the MOBILE NOW Act which would 
make more licensed spectrum available and facilitate the 
deployment of supporting infrastructure for 5G. MOBILE NOW also 
includes a bill that Senator Moran and I introduced that will 
require the government to develop a national plan for 
unlicensed spectrum.
    While a lot of attention focuses on how to make new 
frequencies available for the licensed side, we also need a 
clear plan to support continued innovation in the unlicensed 
bands. These shared bands have become an affordable way for 
people to get online. Consumers benefit, technology companies 
benefit, and ISPs benefit from unlicensed spectrum. I trust 
that the Committee will continue to work with the agencies and 
stakeholders to make more bands available to commercial users 
over the coming weeks and months.
    While we do that, though, we also have a responsibility to 
ensure that people from all walks of life, especially in rural, 
isolated, or hard to reach areas across the country, have 
access to wireless broadband services. I know that the Chairman 
and many of our colleagues on the Committee share this point of 
view.
    To pursue new spectrum opportunities, every stakeholder 
must be an effective partner in this conversation. A fully 
staffed FCC led by a chairman and four commissioners is, 
therefore, critical to accomplishing these goals. I am appalled 
that the White House withdrew all pending nominations for 
Federal commissions. That is an unnecessarily provocative act. 
The administration should defer to congressional leaders on 
both sides of the aisle on nominees for these commissions, as 
has been the norm.
    Of specific relevance to this committee is Commissioner 
Rosenworcel's nomination. She has been a leader on spectrum 
policy and a strong advocate for consumers. I hope that the 
White House will re-nominate her and the Senate will keep its 
commitment to confirm her as we should have done a year ago.
    Thank you, Chairman Wicker, for initiating this important 
discussion, and I look forward to the witnesses' testimony.
    Senator Wicker. Thank you very much, Senator Schatz.
    We have a distinguished panel that we are looking forward 
to hearing from at this point. Our witnesses include, from left 
to right: Mr. Scott Bergmann, Vice President of Regulatory 
Affairs CTIA--The Wireless Association; Mr. Roger Entner, 
Founder and Lead Analyst, Recon Analytics; Mr. Dave Heiner, 
Vice President and Deputy General Counsel, Microsoft 
Corporation; Mr. Pat LaPlatney, President and CEO, Raycom 
Media; and Mr. Tom Stroup, President, Satellite Industry 
Association.
    Now, a lot of people have prepared, come long distances, 
and put a lot of thought into this hearing. We have votes at 
the top of the hour, but we want to be respectful of the time 
and preparation of our witnesses. It is the Chair's intention 
to proceed on with the testimony, and members will simply 
proceed in and out during the two votes, which will begin at 
the top of the hour, and we'll be able to proceed in that 
fashion without having to recess and take the valuable time of 
these participants.
    So we'll begin to my left, and, Mr. Bergmann, you're 
recognized for 5 minutes for an opening statement.

         STATEMENT OF SCOTT BERGMANN, VICE PRESIDENT, 
                    REGULATORY AFFAIRS, CTIA

    Mr. Bergmann. Good morning, Chairman Wicker, Ranking Member 
Schatz, and members of the Subcommittee. On behalf of CTIA, 
thank you for the opportunity to speak about the significant 
economic contributions of the U.S. wireless industry.
    The power of wireless is transforming how we live and work 
in every community across the country and in every sector of 
the economy, and we're about to have a breakthrough with 5G, 
the next generation of wireless. 5G will add trillions of 
dollars to our economy and 3 million new jobs, from 333 in 
Tupelo to nearly 3,500 in Honolulu. To deliver on this promise, 
the wireless industry needs this committee's continued 
leadership to deliver more spectrum and modernize 
infrastructure siting policies.
    The wireless industry today is a powerful contributor to 
the U.S. economy. Our members have invested over $300 billion 
over the last 10 years and are responsible for more than 4.6 
million jobs. Consumers and businesses continue to adopt mobile 
broadband, with data traffic increasing more than 25 times 
since 2010 and expected to increase another five times by 2021.
    America's wireless industry stands ready to invest another 
$275 billion to deliver 5G networks that will be faster, more 
responsive, and connect more devices. 5G will enable a new 
generation of smart communities and unlock the Internet of 
Things. It will unleash innovation and growth in industries 
across our economy, from energy, healthcare, public safety, and 
transportation. With mHealth, smart grids, and self-driving 
cars, 5G will unlock trillions of dollars of economic benefits 
and help save thousands of lives.
    The U.S. has been the global leader in 4G LTE deployment, 
and we're poised to lead in 5G. But the global competition is 
fierce. China, Japan, South Korea, and the EU are all in the 
chase, making spectrum available, streamlining siting, and 
investing. The keys to U.S. leadership are sound spectrum and 
infrastructure policies. Licensed spectrum, in particular, is a 
key input in mobile networks and a powerful creator of economic 
growth and jobs.
    Fortunately, Congress and the FCC have taken bipartisan 
steps to make spectrum available for wireless. Now, more work 
remains to enable 5G leadership. Let me highlight a few steps 
that the Committee can take.
    First, we must ensure timely access to new spectrum made 
available through the 600 megahertz incentive auction. The 
auction will deliver 70 megahertz of spectrum for mobile 
broadband and 14 for unlicensed use. It raised $19.6 billion, 
making it the second largest FCC auction ever. We support a 
seamless repacking process and are committed to working 
collaboratively to achieve the FCC's 39-month schedule so that 
5G is not delayed.
    Second, the FCC's decision to dedicate high-band spectrum 
to mobile services was also critical. The FCC can enhance those 
rules by making targeted reforms and by acting on the 
additional 18 gigahertz of spectrum identified in the MOBILE 
NOW Act.
    Third, we appreciate this committee's continued attention 
to the spectrum pipeline. It takes, on average, 13 years to 
reallocate spectrum for wireless use. This underscores the need 
to start today. Policymakers should continue to review Federal 
use of spectrum and consider ways to incentivize agencies to 
use spectrum more efficiently.
    Finally, we must modernize our Nation's infrastructure 
siting policies so that wireless networks can be deployed 
rapidly and efficiently. Current Federal, state, local, and 
tribal siting practices were designed to review large cell 
towers, not the small cells that will be essential for 5G. 
Small cells are far less intrusive, the size of a pizza box or 
a lunch box, and will be deployed by the hundreds of thousands.
    We can remove barriers to deployment by addressing 
burdensome local permitting, ensuring access to rights-of-way 
and poles with costs and fees that are reasonable and cost-
based, modernizing our historic preservation and environmental 
review processes, and directing agencies to speed deployment on 
Federal lands and properties. With a continued focus on 
spectrum and infrastructure, we'll be able to ensure that 
wireless providers can continue to invest, create jobs, and 
lead the world in 5G.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Bergmann follows:]

   Prepared Statement of Scott Bergmann, Vice President, Regulatory 
                             Affairs, CTIA
    Chairman Wicker, Ranking Member Schatz, and members of the 
Subcommittee, on behalf of CTIA, thank you for the opportunity to 
participate in today's panel on ``Exploring the Value of Spectrum to 
the U.S. Economy.''
    This is an important and timely hearing. The power of wireless is 
transforming how we live and work, in every community across the 
country and in every sector of the economy. The next generation of 
wireless, 5G, will add three million new jobs and half a trillion 
dollars to our economy. To deliver on this promise, the wireless 
industry needs more spectrum and streamlined siting rules to facilitate 
our deployment of that spectrum. 5G cannot happen without this 
Subcommittee's continued leadership and focus on spectrum.
    Recent studies highlight the wireless industry's significant impact 
on the U.S. economy today. By way of example:

  <bullet> We invest in America. U.S. wireless providers have invested 
        more than $300 billion in their networks over the last 10 
        years, including more than $32 billion in 2015.\1\ Indeed, a 
        2016 study of companies that invest substantially in the U.S. 
        listed wireless providers as the top two ``investment heroes.'' 
        \2\
---------------------------------------------------------------------------
    \1\ Annual Wireless Industry Survey, CTIA, http://www.ctia.org/
industry-data/ctia-annual-wireless-industry-survey (last visited Feb. 
22, 2017).
    \2\ Michelle Di Ionno and Michael Mandel, PPI, Investment Heroes 
2016: Ignoring Short-Termism (Oct. 2016) https://docs.google.com/
viewerng/viewer?url=http://www.progressivepoli
cy.org/wp-content/uploads/2016/10/InvestHeroes_2016.pdf&hl=en_US

  <bullet> We are a job multiplier. More than 4.6 million Americans 
        have jobs that depend directly or indirectly on the wireless 
        industry.\3\ And employing one person in the wireless industry 
        results in 6.5 more people finding employment, an employment 
        multiplier that outperforms scores of other sectors, including 
        manufacturing.\4\
---------------------------------------------------------------------------
    \3\ See Roger Entner, The Wireless Industry: Revisiting Spectrum, 
the Essential Engine of U.S. Economic Growth, Recon Analytics, at 18 
(Apr. 2016), http://www.ctia.org/docs/default-source/default-document-
library/entner-revisiting-spectrum-final.pdf.
    \4\ Coleman Bazelon & Giulia McHenry, Mobile Broadband Spectrum: A 
Vital Resource for the American Economy, The Brattle Group, at 2, 20 
(May 11, 2015), http://www.ctia.org-/docs/default-source/default-
document-library/brattle_spectrum_-051115.pdf (``Brattle Group 
Report'').

  <bullet> We grow the economy. The wireless industry as a whole 
        generates more than $400 billion in total U.S. spending,\5\ and 
        the wireless industry's value-add is larger than the 
        agriculture and petroleum and coal production industries.\6\
---------------------------------------------------------------------------
    \5\ Brattle Group Report at 19.
    \6\ Roger Entner, The Wireless Industry: Revisiting Spectrum, the 
Essential Engine of U.S. Economic Growth, Recon Analytics, at 18 (Apr. 
2016), http://www.ctia.org/docs/default-source/default-document-
library/entner-revisiting-spectrum-final.pdf.

  <bullet> We are only getting started. The mobile industry is expected 
        to make a value-added contribution of $1 trillion to the North 
        American economy by 2020, representing 4.5 percent of GDP by 
        the end of the decade.\7\
---------------------------------------------------------------------------
    \7\ GSMA Press Release, Mobile Industry to Add $1 Trillion in Value 
to North American Economy by 2020, Finds New GSMA Study (Nov. 1, 2016), 
http://www.gsma.com/newsroom/press-release/mobile-industry-add-1-
trillion-value-north-american-economy-2020-finds-new-gsma-study/.

    Spectrum is the key input in wireless, fueling our ``mobile-first'' 
life and future economic growth. We all know how wireless changes our 
daily lives; launching more licensed spectrum into the marketplace is 
also a powerful accelerant for economic growth and job creation.
    Fortunately, members of this Subcommittee and policymakers more 
generally have demonstrated a keen understanding of the critical role 
spectrum plays--and have worked together to free up more spectrum. The 
Federal Communications Commission (FCC) has taken several notable steps 
to help meet the need for more wireless broadband spectrum, including 
opening up more than 10 gigahertz of high-band spectrum to help realize 
the transition to 5G and launching the first-ever spectrum incentive 
auction, which will soon repurpose 84 megahertz of low-band spectrum to 
wireless broadband. Moreover, recognizing that we must continually 
focus on the spectrum pipeline, Congress required Federal agencies to 
relinquish 30 megahertz of spectrum over the next decade to support 
consumers' ever-increasing need for mobile broadband services.
    From the FCC to Capitol Hill, CTIA believes there is widespread and 
bipartisan agreement on the profound impact of wireless--and spectrum 
is the key. Despite this strong foundation, more spectrum will be 
needed to fuel consumers' continued demand for mobile broadband and the 
innovation that 5G will unlock for industries across our economy.
Growing Demand for Data and the Next Driver of Demand, 5G
    The demand for mobile has skyrocketed in recent years, driving home 
the need to free up more spectrum for mobile broadband. The amount of 
data flowing over U.S. wireless networks more than doubled in 2015 \8\ 
to a level 25 times greater than in 2010.\9\
---------------------------------------------------------------------------
    \8\ Press Release, Americans' Data Usage More than Doubled in 2015, 
CTIA (May 23, 2016), http://www.ctia.org/industry-data/press-releases-
details/press-releases/americans-data-usage-more-than-doubled-in-2015.
    \9\ Cisco Visual Networking Index: Global Mobile Data Traffic 
Forecast Update, 2016-2021 White Paper, Cisco (Feb. 7, 2017), http://
www.cisco.com/c/en/us/solutions/collateral/service-provider/visual-
networking-index-vni/mobile-white-paper-c11-520862.html (``Cisco VNI 
2017'').

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    This is due to the advent of smartphones and tablets, massive 
growth in mobile video (64 percent of all U.S. mobile data traffic 
\10\), and the nationwide deployment of 4G LTE networks.
---------------------------------------------------------------------------
    \10\ Cisco VNI Forecast Highlights, 2016-2021 (United States--
Mobile Applications), http://www.cisco.com/assets/sol/sp/vni/
forecast_highlights_mobile/#Country (last accessed Feb. 23, 2017).
---------------------------------------------------------------------------
    In just seven years, wireless providers have blanketed the country 
with $200 billion in network spending to deliver 4G LTE mobile 
broadband nationwide.\11\ Today, 99.7 percent of Americans have access 
to 4G LTE service, and 95.9 percent can choose from three or more 4G 
LTE providers.\12\
---------------------------------------------------------------------------
    \11\ See, e.g., Press Release, Americans' Data Usage More than 
Doubled in 2015, CTIA (May 23, 2016), http://www.ctia.org/industry-
data/press-releases-details/press-releases/americans-data-usage-more-
than-doubled-in-2015.
    \12\ Implementation of Section 6002(b) of the Omnibus 
Reconciliation Act of 1993, Nineteenth Report, 31 FCC Rcd 10534,  39, 
Chart III.A.2 (2016).
---------------------------------------------------------------------------
    Mobile broadband has unlocked opportunities for all Americans. 
Whether you are low-income, a person with disabilities, or live in a 
rural community, wireless has helped bring the United States closer to 
closing the digital divide.\13\ In fact, nearly half of all American 
homes are ``wireless-only.'' \14\
---------------------------------------------------------------------------
    \13\ See, e.g., Aaron Smith, Record Shares of Americans Now Own 
Smartphones, Have Home Broadband, Pew Research Center (Jan. 12, 2017), 
http://www.pewresearch.org/fact-tank/2017/01/12/evolution-of-
technology/ (noting that 77 percent of Americans now own a smartphone--
up from 35 percent in 2011--and nearly three quarters have broadband 
service at home).
    \14\ National Center for Health Statistics, Wireless Substitution: 
Early Release of Estimates from the National Health Interview Survey, 
January-June 2016 (December 2016) https://www.cdc.gov/nchs/data/nhis/
earlyrelease/wireless201612.pdf (last visited Feb. 23, 2017).
---------------------------------------------------------------------------
    And there is no end in sight when it comes to growth in mobile 
demand. Cisco projects that mobile data traffic in the U.S. will grow 
by a factor of five from 2016 to 2021, or roughly 125 times mobile data 
levels in a decade's time.\15\
---------------------------------------------------------------------------
    \15\ Cisco VNI Forecast Highlights, 2016-2021 (United States--2021 
Forecast Highlights), http://www.cisco.com/assets/sol/sp/vni/
forecast_highlights_mobile/#Country (last accessed Feb. 23, 2017).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Communities across the country, and industries including 
agriculture, automobiles, healthcare, appliance manufacturing, and 
energy, have already begun harnessing the power of wireless 
connectivity. For example, farmers have been using wireless technology 
to prevent the over- and under-watering of crops and to preserve 
resources during droughts, demonstrating the benefits of the Internet 
of Things (IoT) and next-generation technologies in rural areas.\16\ 
And medical researchers have been using wearables and movement sensors 
to monitor and improve the progression of diseases such as 
Parkinson's.\17\
---------------------------------------------------------------------------
    \16\ David L. Sunding, Martha Rogers & Coleman D. Bazelon, The 
Farmer And The Data: How Wireless Technology Is Transforming Water Use 
In Agriculture (Apr. 27, 2016), http://www.mondaq.com/unitedstates/x/
487024/Telecommunications+Mobile+Cable+Communications
/
The+Farmer+And+The+Data+How+Wireless+Technology+Is+Transforming+Water+Us
e+In+Ag
riculture.
    \17\ See Intel, Using Wearable Technology to Advance Parkinson's 
Research (2015), http://www.intel.com/content/dam/www/public/us/en/
documents/white-papers/using-wearable-technology-mjff.pdf.
---------------------------------------------------------------------------
    We are about to have a revolutionary breakthrough in the next 
generation of wireless--known as 5G. 5G networks will be 10 times 
faster and five times more responsive than today's networks. They will 
be able to support 100 times more wireless devices from beacons to 
wearables.
    The deployment of 5G networks and increased competitiveness will 
create jobs for communities of all sizes. From 333 new jobs in Tupelo, 
Mississippi to more than 1,500 in Sioux Falls to nearly 3,500 in 
Honolulu, and almost 8,000 in Jacksonville, cities and towns across the 
country will benefit from the rapid deployment of next-generation 5G 
services.
    America's wireless industry is ready to make significant new 
investments to bring these benefits to communities all over the 
country. One recent study estimates that wireless operators will invest 
$275 billion over the next decade to deploy 5G. That investment is 
projected to create a new 5G job for every 100 Americans: three million 
total jobs.
    5G will unlock the Internet of Things. Machine-to-machine devices 
make up about 23 percent of all wireless connections today but are 
expected to grow more than five times to reach 58 percent of all 
wireless device connections by the end of the decade.\18\
---------------------------------------------------------------------------
    \18\ Cisco VNI Forecast Highlights, 2016-2021 (United States--
Potential M2M Connections), http://www.cisco.com/assets/sol/sp/vni/
forecast_highlights_mobile/#Country (last accessed Feb. 23, 2017).
---------------------------------------------------------------------------
    5G will also enable a new generation of Smart communities. 5G and 
Smart Cities will have dramatic impact and savings for municipalities 
and consumers. With 5G, integrated technologies that assist in the 
management of vehicle traffic and electrical grids will produce $160 
billion in benefits and savings through reductions in energy usage, 
traffic congestion, and fuel costs.\19\
---------------------------------------------------------------------------
    \19\ See How 5G Can Help Municipalities Become Vibrant Smart 
Cities, Accenture Strategy, at 1 (Jan. 12, 2017), http://www.ctia.org/
docs/default-source/default-document-library/how-5g-can-help-
municipalities-become-vibrant-smart-cities-accenture.pdf (``CTIA Smart 
Cities Report'').
---------------------------------------------------------------------------
    5G will unleash innovation and growth for industries across our 
economy.\20\ Sectors that are expected to leverage 5G's speed, 
connectivity, and responsiveness, include:
---------------------------------------------------------------------------
    \20\ See Wireless Connectivity Fuels Industry Growth and Innovation 
in Energy, Health, Public Safety, and Transportation, Deloitte, http://
www.ctia.org/docs/default-source/default-document-library/
deloitte_20170119.pdf.

  <bullet> Energy. Wireless-enabled smart grids could create $1.8 
        trillion for the U.S. economy, saving consumers hundreds of 
---------------------------------------------------------------------------
        dollars per year.

  <bullet> Health. Wireless devices could create $305 billion in annual 
        health system savings from decreased costs and mortality due to 
        chronic illnesses.

  <bullet> Public Safety. Improvements made by wireless connectivity 
        can save lives and reduce crime. A one-minute improvement in 
        emergency response time translates to a reduction of eight 
        percent in mortality.

  <bullet> Transportation. Wireless-powered self-driving cars could 
        reduce emissions by 40-90 percent, travel times by nearly 40 
        percent, and delays by 20 percent. That translates to $447 
        billion per year in savings and, more importantly, 21,700 lives 
        saved.

    Each of these industry sectors is leveraging the wireless platform 
today and stands to benefit from the increased speeds, connectivity, 
and responsiveness that 5G is poised to deliver.
The Economic Benefits of Spectrum
    To unleash 5G and these substantial economic benefits, the wireless 
industry depends on policymakers to make additional spectrum available 
for mobile wireless services. Indeed, there are few other actions the 
government can take to jumpstart such dramatic private-led job creation 
and economic growth.
    CTIA favors a policy that supports both licensed and unlicensed 
spectrum, recognizing that licensed spectrum is the foundation for our 
world-leading 4G LTE networks. Licensed spectrum provides exclusive 
access and clear interference protection rights, delivering the 
certainty necessary for carriers to invest billions of dollars in 
network deployment. This exclusivity is also critical to delivering the 
high-quality, secure, and reliable service that consumers have come to 
demand.
    Licensed spectrum is a proven difference maker for the economy. One 
recent study found that the introduction of 20 megahertz of AWS-1 
spectrum increased U.S. GDP by $48.6 billion from 2011 to 2014.\21\ And 
the economic value of all licensed spectrum made available to date is 
estimated to be approximately $500 billion, with social benefits at 
least 20 to 30 times that amount.\22\ A 2017 Accenture report projected 
the future economic impact of 5G to be even more astounding: boosting 
the U.S. GDP by $500 billion.\23\
---------------------------------------------------------------------------
    \21\ The Impact of 10 MHz of Wireless Licensed Spectrum, Recon 
Analytics, at 1 (Dec. 2015).
    \22\ Brattle Group Report at 1.
    \23\ CTIA Smart Cities Report at 1.
---------------------------------------------------------------------------
    With the right policies in place, wireless will have a profound 
impact on U.S. economic growth. As one recent report concluded, 
``[m]obile broadband is, and will continue to be, an essential catalyst 
for the U.S. economy, spurring economic growth and innovation in 
existing industries while motivating entirely new industries.'' \24\
---------------------------------------------------------------------------
    \24\ Brattle Group Report at 1.
---------------------------------------------------------------------------
    The other economic benefit of licensed spectrum is to our Nation's 
debt. The U.S. wireless industry has now spent more than $100 billion 
at FCC spectrum auctions for licensed spectrum--with most of that money 
going straight to the U.S. Treasury, reducing the debt and funding 
other Congressional priorities.
Global Leadership in Wireless
    The United States has been the global leader in 4G LTE deployment 
and we have the ability to lead in 5G as well. The wireless industry is 
conducting a number of 5G trials across the country, building on years 
of research and development investment. And as I noted previously, the 
FCC opened up 10 gigahertz of high-band spectrum last year that serves 
as an important down payment on the spectrum needed to support 5G. We 
are well-positioned to lead, but this time around, global competition 
is fierce.
    Many nations are vying to seize the 5G leadership mantle. South 
Korea, for example, has committed $1.5 billion to its ``5G Creative 
Mobile Strategy,'' \25\ and expects to launch a 5G trial network for 
the Winter Olympic Games in 2018.\26\ Japan plans to follow suit with 
its own 5G trial network for the 2020 Summer Olympics.\27\ The European 
Commission has committed 700 million Euros ($759 million) of public 
funds to support 5G activities as part of its Horizon 2020 
Programme.\28\ And this past September, the European Union released 
``5G for Europe: An Action Plan'' that calls for making provisional 
spectrum bands available for 5G ahead of the 2019 World Radio 
Communication Conference.\29\ The EU and Brazil have an agreement to 
develop 5G, along with similar key cooperation initiatives with South 
Korea, Japan, and China.\30\ And the Chinese government has an ongoing 
5G technology trial in the 3400-3600 MHz band \31\ and it has set 
ambitious goals for domestic 5G as part of its Made in China 2025 
project.\32\
---------------------------------------------------------------------------
    \25\ Tammy Parker, China, South Korea Commit to 5G Leadership, 
While Japan and U.S. Rely On Private Efforts, Fierce Wireless (June 8, 
2014), http://www.fiercewireless.com/tech/china-south-korea-commit-to-
5g-leadership-while-japan-and-u-s-rely-private-efforts.
    \26\ Daniel Fuller, 2018 Winter Olympics To Have 5G Thanks To 
Samsung And KT, Android Headlines (Oct. 28, 2016), https://
www.androidheadlines.com/2016/10/2018-winter-olympics-to-have-5g-
thanks-to-samsung-and-kt.html.
    \27\ Joseph Waring, Docomo's 2020 5G launch `Not just for 
Olympics', Mobile World Live (Oct. 7, 2015), https://
www.mobileworldlive.com/featured-content/home-banner/docomos-2020-5g-
launch-not-just-for-olympics/.
    \28\ Jorge Valero, Europe Hopes to Make 5G Networks a Reality by 
2018, Euractiv (Feb. 19, 2016), https://www.euractiv.com/section/
digital/news/european-industry-to-bring-5g-network-by-2018/.
    \29\ Press Release, 5G for Europe Action Plan, European Commission, 
https://ec.europa.eu/digital-single-market/en/5g-europe-action-plan 
(Sept. 14, 2016).
    \30\ Press Release, EU and Brazil Work Together on 5G Mobile 
Technology, European Commission (Feb. 23, 2016), http://europa.eu/
rapid/press-release_IP-16-382_en.htm.
    \31\ 5G Spectrum in Europe, Global Mobile Suppliers Association 
(Dec. 23, 2016), http://www.slideshare.net/soksitha/5g-spectrum-in-
europe.
    \32\ Lilian Rogers, What's at Stake in China's 5G Push?, ApcoForum 
(Dec. 14, 2016), http://apcoworldwide.com/blog/detail/apcoforum/2016/
12/14/whats-at-stake-in-chinas-5g-push.
---------------------------------------------------------------------------
    The U.S. wireless industry will continue to invest, deploy, and 
innovate, but our continued global leadership depends on a committed 
and comprehensive spectrum and infrastructure policy.
Policies to Advance the Economic Impact of Spectrum
    CTIA encourages policymakers to take several actions to preserve 
continued U.S. leadership in wireless, ensure the availability of 4G 
LTE and 5G services for American consumers, and foster continued U.S. 
economic growth. Moreover, as policymakers consider proposals to devote 
hundreds of billions of, or even a trillion, government dollars to 
infrastructure investment, we note that the wireless industry stands 
ready to invest billions of its own dollars, if policymakers update 
national and local siting and zoning rules to reflect the wireless 
networks of today and tomorrow. These steps will expedite the wireless 
industry's investment of over $275 billion, and will not cost taxpayers 
a dime.
    Incentive Auction. The successful 600 MHz incentive auction will 
deliver 70 megahertz of new mobile broadband spectrum, and an 
additional 14 megahertz of spectrum for unlicensed uses like Wi-Fi and 
LTE-U/Licensed Assisted Access services. It has already raised $19.6 
billion, making it the second largest FCC auction ever--by spectrum 
allocated or by revenue. CTIA is keenly interested in ensuring timely 
access to this spectrum, which is critical to our leadership in 5G 
services. We support a seamless repacking process for remaining 
broadcasters, and we are committed to working collaboratively to 
achieve the 39-month transition. Three years and three months is 
significantly longer than the wireless industry has had to wait to 
begin deploying new services to consumers in recent auctions, and any 
delay would put at risk 5G development, rural buildout, and be 
inequitable to those companies investing nearly $20 billion in new 
spectrum.
    High-Band Spectrum. The FCC's decision last year to repurpose high-
band spectrum for mobile services was an important step for U.S. 
leadership in 5G. The FCC should enhance those rules with targeted 
reforms, and promptly move forward with the 18 gigahertz of high-band 
spectrum previously identified by the FCC and this Committee through 
the MOBILE NOW Act. In making additional high-band spectrum available, 
the FCC should emphasize large contiguous blocks of exclusive, licensed 
spectrum.
    Spectrum Pipeline. We appreciate this Committee's continued 
attention to the spectrum pipeline and the need to identify additional 
spectrum bands that can meet the ever-increasing demands for mobile 
broadband services. The process of bringing spectrum to market is time 
consuming--it takes on average 13 years to reallocate spectrum for 
wireless use. The AWS-3 band, for example, was a 13-year journey to 
free up 65 megahertz of spectrum that culminated in a 2015 auction 
resulting in more than $40 billion in revenues to the U.S. Treasury. 
This underscores the urgency of beginning this process today, as the 
ability of the United States to remain a global leader in wireless 
depends on the ability of policymakers to identify sufficient licensed 
spectrum.
    We need a clear plan for additional licensed spectrum across a wide 
and diverse range of frequencies to meet tomorrow's needs. As part of 
this process, government should continue to review spectrum currently 
allocated for Federal use and consider ways to incentivize Federal 
agencies to use their spectrum resources more efficiently and 
effectively. The direct impact of new spectrum cannot be 
underestimated. For every 10 megahertz of licensed spectrum made 
available, the U.S. GDP increases by more than $3.1 billion and U.S. 
employment increases by at least 105,000 jobs.
    Modernizing Infrastructure Siting Policies. Lastly, we must move 
forward with modernizing infrastructure siting policies so that 
spectrum can be fully utilized and wireless networks can be rapidly and 
efficiently deployed. Wireless carriers invest billions of dollars 
building cell sites to provide faster broadband wireless networks that 
will enable new products and services. Unfortunately, current federal, 
state, local, and tribal siting laws and policies were designed to 
review large cell towers one by one, but not to process small cells 
that are far less intrusive, more numerous, and leverage existing 
structures. As a nation, we need to update those laws and policies to 
remove barriers to efficient deployment of small cells and 5G services. 
These outdated policies are slowing wireless providers' significant 
investment and must be addressed.
    To speed deployment of broadband services, Congress and the FCC 
should address burdensome local permitting processes; modernize right-
of-way access and pole attachment policies; and streamline and clarify 
the historic preservation and environmental review processes. We would 
suggest reasonable shot clocks for new site and collocation permit 
applications and broader application of existing deemed granted 
remedies. Additionally, permit fees and other charges for wireless 
siting should be reduced to reflect small cells' minimal impact and be 
limited to the actual, incremental costs to localities for processing 
these applications.
    Federal agencies should also adopt streamlined policies to enable 
small cell deployment on Federal lands, properties, and buildings. In 
particular, streamlined processes for siting on Federal lands in rural 
and remote areas would greatly improve the ability of the wireless 
industry to serve these hard to reach customers.
    By promoting sound infrastructure policies at the federal, state, 
local, and tribal levels, we will enable wireless providers to invest 
resources more quickly--expediting connectivity, adding jobs, and 
advancing 5G leadership.
                                 * * *
    CTIA appreciates the opportunity to work with the Subcommittee, 
Congress, and other interested parties to ensure that we have spectrum 
policies that allow the wireless industry to meet growing consumer 
demands and support U.S. economic growth to its fullest extent. We look 
forward to engaging with you to accomplish these objectives.
    Thank you for the opportunity to testify today. If CTIA can provide 
any additional information you would find helpful, please let us know.

    Senator Wicker. Thank you very much.
    At this point, our Ranking Member of the Full Committee has 
a unanimous consent request.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. To insert my comments into the record on 
this extremely important subject, and thank you, Mr. Chairman 
and Ranking Member of the Subcommittee, for holding this 
hearing.
    Senator Wicker. Without objection, the remarks will be 
inserted at the appropriate place in the record.
    Thank you, Senator.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    I want to welcome all of our witnesses for joining us and thank 
Subcommittee Chairman Wicker and Ranking Member Schatz for holding this 
hearing on the value of spectrum to the U.S. economy.
    The wireless sector contributes billions of dollars yearly to the 
U.S. economy.
    Frankly, very few of us today can imagine a world without our 
smartphones and tablets, and even fewer businesses could imagine 
running their operations efficiently and effectively without robust 
wireless technologies.
    And the integration of wireless connectivity into every facet of 
the U.S. economy increases every day. In fact, according to some, the 
day is not far away where the total number of wireless devices and 
equipment will double or triple the number of humans living on the 
globe.
    Similarly, our Nation's broadcasters serve as pillars of the local 
communities in which they serve. Free over-the-air broadcasting remains 
an important and valuable use of spectrum. And the satellite industry 
uses its spectrum to provide service and support to important Federal 
Government customers. Satellite services can also reach customers in 
even the most rural areas and provide important connectivity to so many 
other spectrum-based services.
    As I have said before, the Nation must have a balanced spectrum 
policy to continue to support wireless technologies as an engine of 
innovation for the Nation. That means we need additional licensed 
spectrum, but also we have to make more spectrum available for 
unlicensed services. The reality of spectrum utilization today is that 
both licensed and unlicensed commercial wireless services will need to 
share spectrum with other operators. As I have said before, we should 
relocate spectrum when we can, and fully embrace spectrum sharing when 
we cannot.
    But in all of this talk of the value of spectrum to the economy, we 
cannot forget the need to make sure that the Federal Government, and in 
particular our national security and homeland security agencies, have 
enough spectrum today and into the future for their mission-critical 
operations. That's not to say that we should not have cooperative 
conversations with those agencies to determine where there are 
opportunities to make available additional spectrum to commercial 
services. But those efforts should not hamper mission critical Federal 
operations.
    But this is not just a public safety and national security concern. 
These same Federal spectrum operations make their own contribution to 
the economic success of the Nation. The weather monitoring performed by 
NOAA and NASA, along with the use of spectrum for satellites and other 
sensors, provides essential information for transportation, shipping, 
and environmental protection.
    NASA's use of spectrum for near-Earth and deep space exploration 
may lead the Nation into its next wave of technological innovation, 
just as the lunar program did many years ago. And the spectrum that 
powers the defense and intelligence community's wireless operations 
translates into thousands of private-sector jobs in terms of the 
government contractors upon whom those agencies rely.
    Spectrum is a finite resource, and it is essential for Congress to 
collaborate with the private sector and the public sector to make sure 
adequate spectrum is available for all of these services. And as I am 
sure we will hear from the witnesses today, the 5G revolution that is 
coming quickly will need more spectrum and more infrastructure to reach 
its full economic potential. I am glad this committee came together to 
pass the MOBILE NOW bill earlier this year to help foster this 5G 
revolution--a bill developed through that collaborative process. And I 
know we will continue to work together to address additional spectrum 
issues, including those being raised by our witnesses today.

    Senator Wicker. Our next witness is Mr. Roger Entner.
    Sir, you are recognized.

              STATEMENT OF ROGER ENTNER, FOUNDER, 
                      RECON ANALYTICS LLC

    Mr. Entner. Good morning, Chairman Wicker, Ranking Member 
Schatz, and members of the Subcommittee. Thank you for giving 
me the opportunity to testify this morning. My name is Roger 
Entner. I am the founder of Recon Analytics, a telecom research 
and consulting firm with a focus on wireless. Today, I'm here 
to discuss my research into the effect that the U.S. mobile 
industry has on the U.S. economy and to highlight the 
importance of Federal Government continuing to free up 
additional spectrum to support 5G and future network 
evolutions.
    First, a quick overview of the U.S. mobile industry. In 
2015, Americans spent 2.9 trillion minutes talking on their 
mobile phones, sent 1.9 trillion text messages, 218 billion 
pictures, and used 9.6 trillion megabytes of data. U.S. 
wireless network operators have constructed over 307,000 cell 
sites. From 2000 to 2015, U.S. network operators have spent 
$77.8 billion to buy spectrum and have invested $423 billion to 
build out and expand the capacity and speed of the networks.
    Competition in the U.S. mobile industry is intense. Two 
weeks ago, Verizon re-introduced its unlimited plan with HD 
video. In less than 4 days, competitors matched and tried to 
beat the offer. Just today, AT&T launched another new pricing 
plan. Ninety-seven point nine percent of Americans can choose 
from three network-based operators, and 93.4 percent can choose 
from four operators plus more than a dozen virtual operators. 
The mobile industry is equivalent of over-the-top competitors.
    How does this relate into jobs? The mobile industry 
directly and indirectly supports 7 million jobs in the United 
States. These jobs are a function of the amount of investment 
the companies spend to build the networks, operate the 
networks, advertise their networks and services, and otherwise 
work with a wide variety of vendors and others to create and 
sustain what we know as the American mobile consumer experience 
and the U.S. wireless industry. As a result, the mobile 
industry contributed $194.8 billion in GDP in 2014.
    The app and mobile content market is a $36 billion industry 
whose very existence is dependent on the ubiquitous vast mobile 
broadband network American companies have built. Companies like 
Uber, Lyft, and Airbnb would be unthinkable without the direct 
and immediate connections and data flows mobile networks give 
them and their customers. Together, these three companies alone 
are valued at $98 billion. To say that the U.S. mobile industry 
is one of the driving factors to create new jobs and businesses 
in a digital economy is an understatement. But there is no 
guarantee the industry will be able to support the kind of 
exponential demand for mobile networking that a fully connected 
network economy is expected to need.
    From 2008 to 2015, mobile data usage increased 643-fold and 
growth is expected to continue unabated. And today, the 
Internet of Things is the newest frontier for wireless, and it 
has implications for improvements in manufacturing, healthcare, 
transportation. There is not a sector in our U.S. economy that 
won't be improved by access to fast mobile broadband networks.
    Deploying new spectrum is the most effective and quickest 
way to provide more capacity ahead of this tsunami of demand 
and ensure the industry can continue to drive economic growth 
and new job creation. Consider every 10 megahertz of deployed 
licensed spectrum creates $3.1 billion in GDP and 100,000 new 
jobs. The MOBILE NOW Act is a great next step in the journey to 
clear more spectrum. But as demand for mobile services is 
increasing, the need for spectrum is increasing as well.
    My suggestions for policymakers are few but specific. 
First, licenses should be allocated in larger channel sizes. 5G 
deployments need at least 20 by 20 megahertz channels, ideally 
in low, medium, and high frequencies. Second, 5G deployments 
having access to cleared spectrum for which providers have 
exclusive use. Third is to help streamline the approval process 
for new and existing cell sites further.
    Thank you again for the opportunity to testify at this 
important hearing. I look forward to answering your questions.
    [The prepared statement of Mr. Entner follows:]

    Prepared Statement of Roger Entner, Founder, Recon Analytics LLC
Introduction
    Chairman Wicker, Ranking Member Schatz, and Members of the 
Subcommittee, thank you for giving me the opportunity to testify this 
morning. My name is Roger Entner and I am the Founder of Recon 
Analytics, a boutique research and consulting firm focused on the 
telecom industry, and, in particular, the wireless sector. For more 
than 20 years, I have been tracking and reporting on the business and 
technology evolutions occurring in the U.S. wireless industry.
    For more than a decade, I have been analyzing the impact that the 
mobile industry has had and can have across the U.S. economy, 
especially with regard to promoting job creation. Today, I am here to 
discuss this research and to highlight the importance of the Federal 
Government continuing to free up additional spectrum to support 5G and 
future network evolutions.
State of the U.S. Mobile Wireless Industry
    I'd like to begin with an overview of the U.S. mobile wireless 
industry:

  <bullet> There are more than 370 million mobile connections in the 
        U.S., of which 329 million are smartphones and regular phones.

  <bullet> In 2015, Americans spent 2.9 trillion minutes talking on 
        their mobile phones, sent 1.9 trillion text messages, 218 
        billion pictures and used 9.6 trillion MB of data. This 
        compares to 2.2 trillion minutes talking on their mobile 
        phones, 2 trillion text messages, 57 billion pictures and 388 
        billion MB only 5 years ago.

  <bullet> We have 307,626 cell sites in this country, compared to 
        183,689 ten years ago.

    Competition in the U.S. wireless industry remains intense. When 
Verizon reintroduced its unlimited plans with HD video it took its 
three nationwide competitors only four days to match its offer. 99.9 
percent of Americans have access to at least one wireless operator, 
99.7 percent have the choice between two operators, 97.9 percent 
between three operators, and 93.4 percent between four operators. In 
addition, Americans can choose from a variety of plans that fit their 
best needs with different amounts of data attached to them. Even the 
smallest service plans now include unlimited voice calling and texting.
    Other aspects of the industry also remain very competitive. 
Americans can choose from dozens of devices from their mobile operator 
or bring their own devices to use with their operator's service. 
Americans also have a wide variety of choices how they pay for mobile 
services.
U.S. Wireless Industry and Job Creation/Economic Growth
    The mobile industry, directly and indirectly, supports 7 million 
jobs in the United States. In 2014, wireless carriers spent more than 
$21 billion on network equipment and another $27.1 billion on 
professional services. The wireless industry contributed $194.8 billion 
in GDP in 2014, up from $146.2 billion three years' prior. As of 2014, 
mobile wireless services created a consumer surplus of $640.9 billion.
    The carriers themselves are not the only source of job creation and 
economic growth. The App and Mobile Content market--such as movies and 
TV shows consumed on wireless devices--is a $36 billion industry. New 
business models such as Uber, Lyft, and Airbnb that rely on fast, 
mobile broadband networks would be unthinkable without mobile 
connectivity. Together, these three companies alone are valued at $98 
billion.
Keeping the Pump Primed with Additional Allocations of Spectrum is the 
        Single Most Important Factor to Keeping the U.S. Mobile 
        Industry an Engine of Economic Growth for the U.S. Economy
    Over the last four decades, Congress and the FCC have provided the 
wireless industry with increasing amounts of spectrum to expand network 
reach and capacity. However, the allocations have consistently proven 
to be stop-gap measures because more capacity begets demand for more 
capacity. Initially, exploding demand for voice services was the big 
driver for spectrum, but by 2008, data took over as the big driver. 
From 2008 to 2015, data usage increased from 15 million MB to 9.6 
trillion MB, a 643x increase.
    Cisco and Ericsson are forecasting a 5-fold increase in data usage 
in the United States over the next six years. In order to increase 
capacity and download speeds to satisfy the demand for unlimited data, 
especially video, the United States needs at least ten times more 
spectrum allocated for commercial mobile use. While there are certainly 
tremendous innovations happening in the world of spectrum efficiency 
such as carrier aggregation technologies, increases in the efficiency 
of wireless networks can only do so much. Deploying new spectrum is the 
most effective and quickest way to provide more capacity and drive 
economic growth and new job creation.
    Deploying new spectrum has a direct impact on U.S. economic growth. 
Every 10 MHz of deployed spectrum creates $3.1 billion in GDP and 
200,000 new jobs.
The Internet of Things--The Next Frontier
    The Internet of Things (IoT) is the next frontier of wireless. 
Virtually every device benefits from being connected. Connected cars 
are rapidly becoming the industry standard. Trucking companies are 
tracking all their vehicles and the goods they transport at all times. 
The medical community is undergoing massive change by remotely 
connecting patients with doctors for tracking vitals and diagnosing 
illnesses.
    Video is also coming to IoT. Consumers and municipalities alike are 
placing more cameras in their homes and cities and connecting them to 
the web. Some are connected through unlicensed spectrum; some are 
connected through licensed spectrum. Smart cities in particular will 
rely on licensed spectrum to connect disparate assets.
Suggestions for Spectrum Policy in the 21st Century
    The Mobile Now Act is a great next step in the journey to clear 
more spectrum. But, as demand for mobile services is increasing, the 
need for spectrum is increasing as well. In addition to dedicating more 
spectrum for commercial mobile use, Congress and the FCC need to take 
additional steps to facilitate continued growth in wireless use, 
including for IoT.
    For example, licenses should be allocated in larger channel sizes. 
In the past channel sizes did not matter; now, they do. Fully realized 
5G deployment needs at least 20x20 MHz channels.
    Such deployments also need cleared spectrum for which providers 
have exclusive use. Such use is preferable to sharing, which creates a 
whole new set of challenges for licensees which could undermine 5G 
deployments. In addition, all spectrum users--commercial and 
governmental--need to use spectrum as efficiently as possible, which 
will make surplus spectrum available for new uses.
    While increasing the overall quantity of available spectrum is 
important, it is also now critical to ensure that spectrum with 
different propagation characteristics is made available for commerce 
mobile use. We need more spectrum in low, medium and high bands for 
specific usages. Low frequency spectrum is particularly useful to cover 
large swaths of land and to provide service inside buildings. Medium 
frequency spectrum provides coverage and capacity in many places. High 
frequency spectrum is ideal for small areas of high usage to deliver 
maximum capacity while minimizing interference with other cell sites.
    Further, regulatory actions impede the deployment of new networks 
and services. Local zoning regulations are often a roadblock to 
deployment, slowing down, if not preventing, the deployment of new 
equipment or even making modest changes to existing equipment. At a 
minimum, the Federal Government could accelerate the deployment of 
mobile services by streamlining the approval process for small cells, 
DAS and other equipment that do not require the construction of a new 
tower. In addition, Congress can provide regulatory certainty that 
establishes a reliable planning framework to deploy more wireless 
facilities by clarifying that broadband providers are not subject to 
Title II of the Communications Act.
Conclusion
    Thank you again for the opportunity to testify at this important 
hearing. The wireless industry has helped drive economic growth and job 
creation, even during the Great Recession, and can continue to do so as 
long as Congress and the FCC implement sound spectrum and regulatory 
policies. I look forward to answering your questions.

    Senator Wicker. Thank you very much.
    Mr. Heiner, you are recognized.

 STATEMENT OF DAVE HEINER, VICE PRESIDENT, REGULATORY AFFAIRS, 
                     MICROSOFT CORPORATION

    Mr. Heiner. Chairman Wicker, Ranking Member Schatz, and 
members of the Subcommittee, thank you for inviting me to 
testify. My name is Dave Heiner, and I am Microsoft's Vice 
President of Regulatory Affairs. I'm pleased to have the 
opportunity to speak with you today about the critical 
importance of unlicensed spectrum to the U.S. economy.
    We all use unlicensed spectrum every day without giving it 
much thought. If you unlocked your car with a key fob or opened 
your garage door with a remote this morning, if you make a 
hands-free call in your car, you're using unlicensed spectrum. 
If you have a fitness tracker, you're connecting to your phone 
with unlicensed spectrum. And, of course, we all use Wi-Fi 
every day. PCs, laptops, tablets, mobile phones, game consoles, 
smart TVs, thermostats, web cams, lighting systems, and 
countless other devices connect to the Internet and one another 
with unlicensed Wi-Fi spectrum.
    This success story is no accident. Congress and the FCC had 
great foresight decades ago in opening up spectrum to 
unlicensed use. Today, unlicensed spectrum is powering the 
nation's Internet economy. We can see it all around us. For 
example, most U.S. homes have a Wi-Fi connection. Away from 
home, there are 94 million public Wi-Fi hotspots around the 
world, and that is projected to grow to more than 500 million 
by 2021. People want Wi-Fi wherever they go, and they want it 
for all of their many devices. As of 2015, the industry had 
shipped more than 10 billion Wi-Fi enabled devices.
    All of this means, of course, that the unlicensed spectrum 
is very heavily utilized. In fact, according to a report from 
Cisco, in the United States, 55 percent of total Internet 
traffic is carried over a Wi-Fi network. By comparison, just 
3.4 percent of Internet traffic is carried by licensed mobile 
networks. This flood of traffic has translated into enormous 
economic growth. As detailed in my written testimony, a recent 
study estimated that by this year, unlicensed spectrum would 
contribute nearly $50 billion to the GDP and $547 billion in 
economic surplus annually.
    The public availability of unlicensed spectrum is important 
to Microsoft because our customers depend on connectivity to 
reach our services. Our business strategy is mobile first, 
cloud first. What that means is enabling customers to use any 
connected device to access Internet services running in massive 
data centers, which we call the cloud. Our products like 
Windows and Office used to be standalone programs, but no more. 
Today, they are always connected, enabling new features and 
being continuously updated with security and other 
improvements.
    In recent years, we have developed a new platform called 
Azure to enable anyone to build and deploy cloud services 
accessible via the Internet. Cloud computing is taking off 
because it offers tremendous economic efficiencies. But the 
cloud is wholly dependent upon connectivity, and the unlicensed 
bands are the workhorse that enable it. For example, our 
telemetry shows that 98 percent of Windows 10 devices are 
connected to Wi-Fi, and nearly half of all the data that comes 
onto and off those devices flows over the Wi-Fi connection.
    Of course, unlicensed spectrum is more than just Wi-Fi. The 
Bluetooth connections that we're all familiar with operate in 
unlicensed spectrum as well. The Internet of Things depends 
upon unlicensed spectrum, and TV white spaces technology, which 
carries the promise of bringing broadband to rural communities, 
depends upon unlicensed as well. The unlicensed bands have 
spurred these and so many other innovations because they 
provide immediate access to shared spectrum resources with low 
barriers to entry and light regulation.
    In closing, I would offer two suggestions to promote 
optimal use of spectrum. First, Congress should advance a 
balanced spectrum policy that includes both licensed and 
unlicensed spectrum as is done in the MOBILE NOW Act, which we 
support. Second, through this Act and others, policymakers 
should look for additional opportunities in the low, mid, and 
high-frequency unlicensed bands to help satisfy ever-growing 
demand.
    Thank you again for the opportunity to testify. At 
Microsoft, we look forward to working with you to promote 
optimal spectrum policy.
    Thank you.
    [The prepared statement of Mr. Heiner follows:]

Prepared Statement of Dave Heiner, Vice President, Regulatory Affairs, 
                         Microsoft Corporation
    Chairman Wicker, Ranking Member Schatz, and members of the 
Subcommittee, thank you for inviting me to testify. My name is Dave 
Heiner, and I am Microsoft's Vice President for Regulatory Affairs. I 
am pleased to speak with you today about the value of unlicensed 
spectrum to the U.S. economy.
    We all use unlicensed spectrum every day without giving it much 
thought. If you unlock your car with a key fob, open your garage door 
with a remote, make a hands-free call in the car, or buy a coffee with 
an Apple Pay tap, you are using unlicensed spectrum. If you are 
tracking your steps with a Fitbit, you are using unlicensed spectrum to 
communicate with your phone. And, of course, nearly everyone uses Wi-
Fi. In fact, more than half of all Internet traffic transits over a Wi-
Fi connection. PCs, laptops, tablets, game consoles, smart TVs, mobile 
phones, and other devices all routinely connect to the Internet via 
unlicensed Wi-Fi spectrum. Together, these technologies combine to 
create billions of dollars in economic value to the U.S. economy every 
year.
    Licensed spectrum is important too, and Microsoft is very much in 
favor of a balanced policy that aims to promote the availability and 
efficient use of both unlicensed and licensed spectrum. In developing 
optimal spectrum policy, we think it is important to bear in mind that 
unlicensed spectrum is carrying 16 times more Internet traffic than 
licensed spectrum. That is remarkable considering there is 
substantially more commercially viable licensed spectrum than 
unlicensed spectrum below 6 GHz, where the vast majority of broadband 
traffic resides. Wi-Fi traffic to the Internet is growing very 
rapidly--by 2015, Wi-Fi handled more than half of all global Internet 
traffic, wireless or wireline. That share of overall traffic continues 
to rise. And Wi-Fi is ubiquitous: most U.S. households have Wi-Fi and 
there are nearly 100 million public Wi-Fi access points around the 
world. Looking forward, forecasters expect the number of Wi-Fi access 
points to grow to well over 500 million by 2021.
    Wi-Fi is only one of many uses of unlicensed spectrum. The low 
barriers to entry and permission-less innovation enabled by easy access 
to this shared resource has enabled large companies and small companies 
alike to innovate in a wide range of wireless technologies and even 
enabled the emerging category of the ``Internet of Things'' (devices 
communicating with one another, and with users, via the internet).
Unlicensed spectrum is critical to innovation at Microsoft and the 
        technology sector
    All of this is very important for Microsoft and, of course, for the 
technology sector as a whole. Wireless connectivity is very much at the 
center of the ``mobile first, cloud first'' business strategy that 
Microsoft's CEO Satya Nadella is pursuing. From cloud computing to the 
Xbox platform to the Internet of Things, Microsoft's ability to invest 
and innovate depends on the availability of broadband spectrum governed 
by commercially reasonable rules--so our individual and enterprise 
customers have a great experience at home, at work, and on the go.
    When I started at Microsoft in 1994, our software was primarily 
delivered to customers via floppy disks or CD-ROMs. The software 
typically had little interaction with the internet. Those days are 
gone. All of Microsoft's major business lines are now dependent on 
continuous and reliable Internet connectivity for key features and 
continuous updating. Those businesses--Windows, Office, and our 
relatively new Azure ``cloud'' platform--make Microsoft the third most 
valuable company in the world. (The first two are Apple and Alphabet, 
and they are dependent on Internet connectivity too.) Microsoft is 
employing more than 70,000 people in the United States and investing 
close to $13 billion in R&D annually (88 percent of which is spent in 
the United States) to grow those businesses. The Microsoft cloud serves 
over 1 billion customers, generating over 1 trillion data points every 
day managed through more than 100 data centers around the world 
connected to the internet. Cloud is critical to consumers, enterprises 
of all sizes, and even governments--stimulating innovation and enabling 
economic growth.
    Our cloud services include Windows, Office 365, MSN, OneDrive, 
Skype, Azure, Outlook.com, and more. And all of these services depend 
upon consistent and ubiquitous Internet access for key features. For 
example, Windows enables customers to synchronize their files to the 
cloud and other devices and to ``roam'' settings and preferences from 
one device to another. Windows includes Cortana, the personal digital 
assistant that relies upon cloud processing to help people stay 
organized and get things done. Our Office 365 customers are continually 
getting new features, without having to wait years as in the past for 
major new versions to be released. For all of these efforts, last-mile 
connectivity is critical--and unlicensed spectrum is meeting that need 
for us and our customers.
    Microsoft's Azure cloud platform enables software developers to 
quickly and inexpensively build new cloud services. More than 90 
percent of Fortune 500 companies are using Azure today to efficiently 
deliver enterprise solutions. GE Healthcare is an example. Microsoft 
Azure powers mission-critical patient care applications for GE 
Healthcare, including solutions that streamline communication between 
clinicians, patients, and hospital administrators with secure, 
centralized, real-time access to the diagnostic scans and reports that 
physicians need to make decisions. And it is unlicensed spectrum--which 
links the data to tablets, smartphones, and a wide variety of connected 
devices--that makes all of this possible.
    Microsoft's cloud also supports our new ``mixed reality'' platform, 
HoloLens. Unlike virtual reality, ``mixed reality'' merges people, 
places, and objects from the physical and virtual worlds together, 
allowing users to interact with content and information in far more 
accessible and intuitive ways. Developers have created apps for 
HoloLens that range from games to art museum tours to simulated lab 
experiments. Enterprise users can benefit from HoloLens too, with 
architecture tools, power plant monitoring, and aircraft maintenance 
training. Microsoft's HoloLens headset relies on unlicensed spectrum to 
connect our customers to the worlds--physical and online--around them.
    Microsoft's Xbox game console is dependent on unlicensed spectrum 
too. Game consoles serve as central hubs not only for multi-player 
gaming, but also for making calls on Skype, watching TV on Netflix, and 
controlling home IoT devices. Advanced game consoles depend on Wi-Fi-
linked Internet access for all of these features, and they use 
unlicensed Wi-Fi and Bluetooth technologies to distribute data to 
different devices throughout our customers' homes, and to link game 
controllers--including guitars and steering wheels--to consoles.
    The businesses and consumers we serve expect every application to 
work both in the office and on the go, and they expect access to the 
same cloud applications on laptops, smartphones, tablets, and 
wearables.
    The unlicensed bands are the workhorses that make this happen. Our 
telemetry shows that ninety-eight percent of Windows 10 devices are 
connected to Wi-Fi and nearly half of all data flows over the Wi-Fi 
connection. This is the case because consumers and enterprises 
overwhelmingly use Wi-Fi to link to their fixed wireline broadband 
service, whether that service is delivered by cable or a telco.
Unlicensed spectrum fuels economic growth
    Of course, the importance of Wi-Fi is not limited to Microsoft, or 
even to Internet firms generally. Wi-Fi access points serve an ever-
growing ecosystem of devices, including not only laptops, smartphones, 
and tablets, but also doorbells, irrigation systems, thermostats, 
refrigerators, lighting systems, and wearables.
    Two relatively recent economic studies help to quantify the value 
of unlicensed spectrum.
    In 2014, Raul Katz, a professor at Columbia University, estimated 
that by this year unlicensed spectrum would contribute $547.22 billion 
in economic surplus annually and nearly $50 billion to the annual 
GDP.\1\ He arrived at that estimate by building on his historical 
assessment of unlicensed spectrum's economic value in 2013 ($222.4 
billion in total economic value and $6.7 billion contributed to the 
GDP)\2\ and analyzing two key drivers of growth in the area. First, 
Professor Katz analyzed growing adoption of then-widely deployed 
technologies and applications, including Wi-Fi-cellular off-loading, 
residential Wi-Fi, Wireless Internet Service Providers, Wi-Fi-only 
tablets, wireless personal areas networks, and radio-frequency 
identification devices. As Professor Katz explained, research from a 
wide variety of industry resources anticipated very rapid growth in 
adoption of those technologies. For example, Cisco estimated that 
between 2013 and 2017 the number of tablets in use in the United States 
would grow by more than 300 percent and the Internet traffic generated 
by each of those units would increase nearly five-fold. Dr. Katz also 
accounted for increased economic value generated by the ``deployment of 
emerging innovations, such as machine-to-machine communications and 
agricultural automation.'' Though his estimate attempted to account for 
those future developments, Dr. Katz underscored that ``estimates of 
economic value of future technologies are extremely conservative.''
---------------------------------------------------------------------------
    \1\ Telecom Advisory Services, LLC, Assessment of the Future 
Economic Value of Unlicensed Spectrum in the United States at 4 (Aug. 
2014), http://www.wififorward.org/wp-content/uploads/2014/01/Katz-
Future-Value-Unlicensed-Spectrum-final-version-1.pdf.
    \2\ Ibid.
---------------------------------------------------------------------------
    Also in 2014 Richard Thanki conducted a study for the Consumer 
Electronics Association focusing on retail sales attributable to 
products that depend upon unlicensed spectrum.\3\ To estimate the 
economic value generated by that spectrum, Thanki collected sales data 
for the wide variety of devices that use it--Wi-Fi devices, but also 
less obvious parts of the unlicensed ecosystem, such as broadcasting 
hardware, medical devices, and baby monitors. Thanki concluded that 
unlicensed spectrum generates more than $62 billion in ``incremental 
retail sales value,'' a number that he cautions is overly conservative 
because it focuses solely on ``the sale of devices using unlicensed 
spectrum to end-users'' and does not attempt to quantify ``indirect 
contributions in terms of savings, productivity, and utility'' that 
``greatly exceed'' the study's assessment of direct benefits.
---------------------------------------------------------------------------
    \3\ Consumer Electronics Association, Unlicensed Spectrum and the 
American Economy: Quantifying the Market Size and Diversity of 
Unlicensed Services at 2 (Aug. 4, 2014), https://ecfsapi.fcc.gov/file/
7521751149.pdf.
---------------------------------------------------------------------------
    These indirect benefits, including the innovation gains described 
above, should not be overlooked. In addition to its direct value in 
driving the adoption of new devices and technologies, unlicensed 
spectrum yields a wide range of indirect economic spillover benefits 
that prove more difficult to quantify. These indirect impacts 
reverberate throughout the economy in job growth, wage gains, and 
productivity.
Unlicensed spectrum fuels innovation
    Congress and the FCC had great foresight in enabling use of 
unlicensed spectrum decades ago, and, in particular, the release of the 
ISM band for unlicensed spread spectrum use in 1985. Today this 
spectrum is powering our cloud economy. The unlicensed bands produce 
the exceptional economic value discussed above because anyone can use 
them as long as they follow basic FCC rules on power limits and 
emission restrictions that are designed to protect other users from 
harmful interference. Today, innovators of all types--incumbents as 
well as start-ups--recognize this powerful combination of light 
regulations and low barriers to entry. And this advantage has helped 
make the Internet of Things a reality. But the growing number of IoT 
applications will require access to enough low-, mid-, and/or high-
frequency spectrum to succeed. A variety of protocols operating in 
unlicensed spectrum have been developed to enable IoT devices, 
including Wi-Fi, zigbee, Bluetooth, WirelessHART, and z-wave.
    Smart home technologies are already bringing unlicensed IoT 
technologies into millions of American homes through devices like Sonos 
connected speakers, which form their own mesh networks using the 2.4 
GHz and 5 GHz unlicensed bands. Many other IoT devices rely on radio-
frequency identification, commonly known as RFID. RFID tags most often 
use unlicensed spectrum to communicate with everything from container 
cars to lost luggage. These popular devices are already on their way to 
becoming ubiquitous. Ericsson has estimated that, by 2018, IoT devices 
will surpass mobile phones as the largest category of connected 
devices.
    As you can see, unlicensed spectrum is critical to a wide variety 
of technologies and applications, and the numbers tell the story of 
just how much value this creates:

  <bullet> Innovators have seized on the opportunities created by 
        unlicensed spectrum to develop a wide range of new devices. In 
        January 2015, the Wi-Fi Alliance announced that the industry 
        had shipped its 10 billionth Wi-Fi device.\4\
---------------------------------------------------------------------------
    \4\ WI-FI ALLIANCE, Total Wi-Fi device shipments to surpass ten 
billion this month (Jan. 5, 2015), http://www.wi-fi.org/news-events/
newsroom/total-wi-fi-device-shipments-to-surpass-ten-billion-this-
month.

  <bullet> Unlicensed frequency bands support more traffic than any 
        other band. In the United States 54.9 percent of total Internet 
        traffic transited a Wi-Fi network. (By comparison, just 3.4 
        percent of total Internet traffic transited a mobile network 
        using licensed spectrum.)\5\
---------------------------------------------------------------------------
    \5\ Cisco, VNI Forecast Highlights Tool: 2020 Forecast Highlights, 
http://www.cisco.com/c/m/en_us/solutions/service-provider/vni-forecast-
highlights.html, (accessed Feb. 23, 2017).

  <bullet> We've seen tremendous investment in unlicensed access 
        points. To carry the huge wave of data I've described, the 
        number of public Wi-Fi access points around the world will grow 
        six-fold from 2016 (94.0 million) to 2021 (541.6 million).\6\
---------------------------------------------------------------------------
    \6\ Cisco, Cisco Visual Networking Index: Global Mobile Data 
Traffic Forecast Update, 2016-2021 (Feb. 9, 2017), http://
www.cisco.com/c/en/us/solutions/collateral/service-provider/visual-
networking-index-vni/mobile-white-paper-c11-520862.html.

    In addition to delivering direct value to consumers and 
enterprises, unlicensed networks are also valuable because they sustain 
licensed networks. Mobile traffic is asymmetric: considerably more data 
(especially video) is downloaded than uploaded. Licensed network 
providers and device makers increasingly choose to offload downlink 
traffic from licensed networks to Wi-Fi, harnessing the power and 
pervasiveness of unlicensed access points. And, as data caps and speeds 
become more of a concern, smartphone users now take advantage of Wi-Fi 
as an option for their most data-intensive applications. By one 
estimate, 85 percent of the traffic generated by smartphone video apps 
goes over Wi-Fi--one of the reasons that ``although cellular data usage 
on smartphones is growing, Wi-Fi data growth is dramatically outpacing 
it.'' \7\ By 2021, 64 percent of the traffic from smartphones will be 
offloaded from mobile devices to fixed networks via Wi-Fi or small 
cells. For tablets, that number is projected to be 72 percent.\8\
---------------------------------------------------------------------------
    \7\ Ericsson, Ericsson Mobility Report: On the Pulse of the 
Networked Society at 25 (June 2016), https://www.ericsson.com/res/docs/
2016/ericsson-mobility-report-2016.pdf.
    \8\ Cisco, supra note 6.
---------------------------------------------------------------------------
    The flexibility in the FCC's unlicensed rules is also clearing the 
way for innovators to take advantage of underutilized spectrum, such as 
television white-spaces (TVWS). Certified TVWS devices allow consumers, 
Internet service providers, local governments, and others to access 
unassigned and unused spectrum that exists between television stations. 
At these frequencies, a signal can travel over much larger distances 
than conventional Wi-Fi, making it perfect for providing broadband 
access to unserved and underserved rural areas. There are many 
potential uses for such technology. As described in a recent article in 
the The Economist,\9\ Microsoft researchers are using TVWS to collect 
data from far-flung sensors on a farm in Washington state. The sensor 
data, once analyzed in the cloud, enables the farmer to engage in 
``precision farming,'' to minimize both irrigation and pesticide use. 
And because FCC rules ensure that white-spaces devices will protect 
over-the-air broadcasters and other licensed services from harmful 
interference, they will add economic value without causing any harmful 
interference.
---------------------------------------------------------------------------
    \9\ The Economist, TV Dinners: Unused TV Spectrum and Drones Could 
Help Make Smart Farms a Reality (Sept. 27, 2016), http://
www.economist.com/news/science-and-technology/21707242-unused-tv-
spectrum-and-drones-could-help-make-smart-farms-reality-tv-dinners.
---------------------------------------------------------------------------
    Microsoft has invested significantly in white-spaces technologies, 
and is committed to their success. Even though the Incentive Auction 
created uncertainty among white-spaces users and the developing 
ecosystem, Microsoft has continued to invest in white spaces to ensure 
that this technology lives up to its transformative potential once the 
auction and repack is concluded and the FCC's updated rules are 
finalized. We have spearheaded white-spaces projects in the United 
States and around the world.
    In southern Virginia, for example, Microsoft has partnered with 
Mid-Atlantic Broadband Communications and the Commonwealth of Virginia 
to use white spaces to bring high-speed Internet access into the homes 
of previously unconnected students. In these areas, as many as 50 
percent of school children lack access to high-speed Internet at home, 
making it hard for them to do their homework, and excluding them from 
the revolution in education that the Internet has brought for students 
in many wealthier areas. Using white spaces, we are able to leverage 
the fiber connections that run to these schools, allowing students in 
surrounding areas to access school networks wirelessly from home. With 
this single project, Microsoft and its partners will serve 7,500 
primary and secondary school students when the system is fully 
deployed. If deployed statewide, this approach could help to connect a 
quarter million unconnected students in Virginia alone.
    Microsoft has also worked to deploy white-spaces networks in 
previously unserved parts of rural Africa, proving that this technology 
will play an important role in U.S. and international communities where 
infrastructure challenges are even greater. In Kenya, Microsoft and its 
partners have used white spaces to deploy Internet access points in 
areas that do not even have access to an electrical grid. We have used 
white-spaces technologies to connect these rural access points to 
distant fiber connections, and used conventional Wi-Fi to bring these 
connections to individual devices. These access points are solar 
powered, allowing them to be completely isolated from any other 
physical infrastructure.
    These projects are just the beginning. We are committed to taking 
on more investments with partners around the United States this year, 
with a focus on supporting connectivity, skills, and local innovation 
in rural and underserved communities. We strongly support action at the 
FCC to ensure that enough TV white-spaces channels remain available for 
unlicensed use, and hope the FCC will finalize commercially reasonable 
white-spaces rules soon so we can move ahead.
Next steps toward meeting the growing demand for unlicensed spectrum
    As this Subcommittee has long recognized, radio spectrum is an 
essential input to economic growth and innovation. Under the 
Subcommittee's and full Committee's leadership, the United States has 
adopted a set of core spectrum policies that can guide effective 
decision-making by Federal agencies. Central among these are that 
agencies should find additional spectrum resources to support 
affordable broadband for all Americans and to meet the seemingly 
insatiable consumer and enterprise demand for wireless data services. 
Agencies should free new spectrum bands for commercial service and find 
ways to use underutilized spectrum bands more efficiently through 
sharing. And agencies should continue to advance a balanced spectrum 
policy that identifies potential spectrum bands for licensed and 
unlicensed use--in low, mid, and high frequency bands.
    While the unlicensed ecosystem has produced exceptional economic 
value and innovation to date, our existing unlicensed bands will not be 
able to support the continued growth of wireless data produced by 
consumers, enterprises, and the Internet of Things. Last month, the Wi-
Fi Alliance released the Wi-Fi Spectrum Needs Study. It concludes that 
an additional 500 MHz to 1 GHz of spectrum is required to satisfy 
expected growth in busy-hour demand for Wi-Fi through 2025.\10\ 
Importantly, the analysis also found that unlicensed spectrum should be 
``assigned with sufficient contiguity such that wide channels of 160 
MHz, or perhaps even wider in the future, can be constructed.'' \11\ 
Wider channels would enable greater throughput, which will result in 
faster downloads for users.
---------------------------------------------------------------------------
    \10\ Quotient Associates, Wi-Fi Spectrum Needs Study: Final Report 
(Feb. 2017), https://www.wi-fi.org/download.php?file=/sites/default/
files/private/Wi-Fi%20Spectrum%20Needs%20
Study.pdf.
    \11\ Id at 2.
---------------------------------------------------------------------------
    Based on our analysis of the Nation's spectrum bands, Microsoft 
believes that spectrum sharing will be required to meet the demand for 
unlicensed spectrum. Depending on the specific frequency range, sharing 
may involve Federal or non-federal spectrum users. So we are strong 
supporters of the MOBILE NOW Act, which would kick-start this process 
by initiating proceedings on sharing mid-band spectrum for licensed and 
unlicensed use.
    We close with three recommendations.
    First, the Subcommittee, both through MOBILE NOW and more broadly, 
should continue to promote a balanced spectrum policy that includes 
adequate unlicensed frequencies. Future spectrum needs will likely be 
met through heterogeneous networks where different spectrum bands--some 
licensed, some unlicensed--will be mixed and matched over the 
communications path to provide the necessary bandwidth for a given 
device at a given location at a given time. This means that Congress 
and the FCC should act to free up new licensed, unlicensed, and shared 
spectrum for wireless broadband at low, mid, and high frequencies. We 
therefore support the MOBILE NOW Act, reported out of the full 
Committee, and hope that the Committee will aggressively push agencies 
to free new bands for commercial licensed and unlicensed services.
    Second, the Subcommittee should oppose efforts to over-protect 
incumbents through onerous technical regulations when the FCC permits 
unlicensed users to access underutilized bands on a shared basis. Under 
the Commission's rules, unlicensed devices cannot cause harmful 
interference and cannot claim protection from interference. Yet some 
incumbents seek far more than this. They ask Congress and the FCC to 
impose technical rules that would hobble unlicensed technologies by 
making investment uneconomic and creating a perpetual state of 
regulatory uncertainty. Committee oversight of the FCC should therefore 
ensure that the Commission adopts only reasonable technical rules that 
support economically rational investment for growth in unlicensed 
bands.
    Third, the Subcommittee can lend its support to voluntary industry 
standard-setting efforts. Standards bodies such as the IEEE have been 
critical for decades in developing industry consensus standards for 
unlicensed devices. Engineers from Microsoft work hard with their peers 
at other companies to develop standardized techniques for sharing the 
unlicensed bands. Given all the demand for access to unlicensed 
spectrum, it is more important than ever that companies work together 
at IEEE and in other appropriate standards organizations to ensure new 
technologies share effectively and equitably with existing users. These 
consensus-driven efforts can often obviate the need for costly 
government regulation.
    Thank you for addressing these important issues today. As I've 
noted above, unlicensed spectrum plays a critical role in innovation 
and our economy. We look forward to finalization of the TV white-spaces 
rules, resolution of outstanding dockets relating to unlicensed 
spectrum, and successful passage of the MOBILE NOW Act. At Microsoft, 
we are committed to working with you to ensure that a balanced spectrum 
policy continues to produce value for the American economy, support 
innovation, and increase access to the internet.

    Senator Wicker. Thank you very much.
    Mr. LaPlatney?

        STATEMENT OF PAT LaPLATNEY, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, RAYCOM MEDIA ON BEHALF OF THE NATIONAL 
                  ASSOCIATION OF BROADCASTERS

    Mr. LaPlatney. Good morning, Chairman Wicker, Ranking 
Member Schatz, and members of the Subcommittee. My name is Pat 
LaPlatney, and I'm the President and CEO of Raycom Media, where 
I oversee 60 broadcast television stations stretching from 
Hattiesburg to Honolulu, as well as a number of production and 
digital media properties.
    I'm testifying today on behalf of the National Association 
of Broadcasters and its 1,300 full-power television stations 
that serve communities across the country with free, locally 
focused programming. I appreciate you inviting me here to speak 
about the upcoming voluntary upgrade that broadcasters across 
the country and in other parts of the world are making to the 
next generation television standard, ATSC 3.0.
    In a world where broadband access is an expectation on par 
with electricity and water and social media is ubiquitous, the 
importance of local broadcasting and the trusted news coverage 
it affords is paramount. Through Next Gen TV, broadcasters will 
deliver all of this, along with the most watched entertainment 
programming and sports, to your constituents in new and 
exciting ways.
    So what is Next Gen TV? Next Gen TV is a crystal clear, 
ultra high-def picture that enhances the broadcast viewing and 
listening experience. Next Gen TV has more effective emergency 
alerting capabilities that will save more lives. Next Gen TV 
integrates the best of broadcast and broadband to offer 
interactive content, such as dropdown menus of sports scores or 
movie information. Next Gen TV enables access to broadcast 
television through smart phones and tablets, ensuring that our 
local stations' content is available virtually anywhere, 
anytime, and through any platform that viewers desire.
    Finally, Next Gen TV is spectrally efficient, meaning it 
offers more channels for free with the same amount of spectrum. 
No expensive cable bill or data plan is required. Simply put, 
Next Gen TV will enhance the ability of local broadcasters to 
impact the communities we serve.
    The recent broadcast coverage of the tragic tornado in 
Hattiesburg, Mississippi, and the hurricanes in the Puna 
District on the Big Island of Hawaii provided ample evidence of 
the potential viewer benefits that Next Gen TV will afford. 
Through my stations' wall-to-wall coverage, Next Gen TV would 
have enabled more and better emergency services, including 
enhanced alerting, interactive menus of hyperlocal detail, and 
the potential for mobile access had cellular signals failed.
    A broad coalition, including public and commercial 
broadcasters, consumer electronics manufacturers, and public 
safety advocates, has petitioned the FCC to allow stations to 
conduct a voluntary market-driven transition to this new Next 
Gen TV standard. After several months, the FCC unanimously 
approved a Notice of Proposed Rule Making last week. 
Broadcasters stand willing and ready to make the necessary 
investments in our infrastructure to enable an upgrade to Next 
Gen TV. We simply need the FCC to quickly finalize these rules 
in order to move forward. We applaud the FCC for its work to 
date, and we encourage the Committee to stay engaged.
    Before I conclude, I want to highlight one issue currently 
before Congress that does pose challenges to viewers' ability 
to enjoy the benefits of Next Gen TV--successful completion of 
the broadcast incentive auction. As the auction winds its way 
to completion, one thing is certain. The broadcast industry 
will end up with less spectrum. So the ability of those 
nonparticipating stations to repack successfully into a smaller 
broadcast band without viewer disruption is critical.
    To that end, I want to thank the Committee leadership, 
Senators Moran and Schatz, as well as their co-sponsors, 
Senators Blumenthal, Blunt, Fischer, and Udall, for the work on 
draft legislation that ensures broadcasters will have adequate 
time and resources to successfully repack following the close 
of the incentive auction. Your legislation will make certain 
that no consumer will lose access to their broadcast service as 
a result of the repack. It is just this certainty that 
investment in Next Gen TV requires.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. LaPlatney follows:]

  Prepared Statement of Pat LaPlatney, President and Chief Executive 
    Officer, Raycom Media, on behalf of the National Association of 
                              Broadcasters
    Good morning, Chairman Wicker, Ranking Member Schatz and members of 
the subcommittee. Thank you for inviting me to testify today on behalf 
of the National Association of Broadcasters (NAB). My name is Pat 
LaPlatney, and I am the President and Chief Executive Officer of Raycom 
Media, where I oversee 60 broadcast television stations stretching from 
Hattiesburg to Honolulu, as well as a number of production and digital 
media properties.
    I am testifying today on behalf of the National Association of 
Broadcasters, where I serve as a member of the Television Board of 
Directors and represent more than 1,300 full-power local television 
stations. This includes stations owned by major networks like ABC, CBS, 
Univision, Fox and NBC; separately-owned network affiliate stations and 
independent broadcasters. Each of these stations serves its community 
with free over-the-air television that combines locally-focused 
content, including highly valued local news, with the most-watched 
entertainment programming in the media landscape.
    I appreciate you inviting me here today to speak about the 
upcoming, voluntary upgrade that broadcasters across the country, and 
throughout the world, for that matter, are planning to make to the Next 
Generation Television standard, ATSC 3.0. Next Gen TV will drastically 
improve and expand the experience of the large and growing population 
of over-the-air broadcast television viewers--and in a more spectrally 
efficient manner that requires no additional government funds. Next Gen 
TV is based on an Internet Protocol backbone, which supports a seamless 
blending of Internet and TV content. The result is a higher quality 
interactive viewing experience that combines the best of broadcast and 
broadband and that will enable innovative broadcasters to bring new 
services to viewers. In today's increasingly fragmented video space, 
Next Gen TV will improve the quality and features of the country's 
most-watched programming, allowing viewers the potential to consume it 
wherever and however they choose and permitting broadcasters to compete 
more effectively against other digital video providers.
    In a world where preteens have smartphones, broadband access is an 
expectation on par with electricity and water, and social media enable 
a wide range of viewpoints to spread around the globe instantly, 
locally-oriented broadcasting and local news coverage from trusted 
sources are more important than ever. Through Next Gen TV, broadcasters 
are able to deliver to our viewers--your constituents--sharp ultra HD 
images, in addition to interactive features, customizable content and 
multichannel immersive sound. Viewers can also look forward to more 
choices, more channels and more flexibility. Mobile devices and TV sets 
equipped with Next Gen receivers will make over-the-air TV available 
virtually anywhere. And it will provide even more effective alerting to 
the public in times of crisis.
    One need only look at the impact broadcasters have in their 
communities today to recognize the potential public safety benefits 
Next Gen TV affords local viewers. Earlier this year, near Hattiesburg, 
Mississippi, a tornado touched down shortly before dawn, leaving a 25-
mile wake of destruction and four casualties. Local broadcasters gave 
residents advanced warning of where to go, or not go, and provided a 
communications lifeline to emergency services. Or look at Hawaii News 
Now, which embedded news crews for an extended period of time in the 
Puna District on the Big Island while back-to-back hurricanes battered 
houses only to be followed by a threatening lava flow. Next Gen TV 
would have enabled more and better emergency services, including 
enhanced alerting, interactive menus with hyper-local detail and the 
potential for mobile access even when cellular signals fail. Moreover, 
Next Gen capabilities would enhance the recovery efforts of local 
broadcasters, such as our local NBC affiliate WDAM-TV in Hattiesburg, 
to publicize specific resources available to particular storm victims, 
instruct viewers on safe havens and conduct fundraising drives.
    Broadcasters live in the communities we serve. And regardless of 
where they reside, our broadcasters are committed to ensuring that 
local residents in communities across the country have the same 
opportunities as people in large cities to benefit from advances in 
technology. Next Gen TV is critical to affording these opportunities.
    Next Gen TV represents a unique partnership between the technology 
industry (CTA), first responders (AWARN) and commercial (NAB) and 
public (APTS) broadcasters. We petitioned the Federal Communications 
Commission (FCC) to allow stations to conduct a voluntary, market-
driven transition to this new standard, specifically outlining the many 
ways viewers will benefit from this standard while also ensuring no 
viewer disruption during the transition. To that end, any broadcast 
upgrade to Next Gen TV will be facilitated by channel-sharing 
arrangements that allow broadcasts to continue in the current standard 
as well. In response to our petition, the FCC released on February 24 a 
rulemaking notice proposing to authorize TV broadcasters to use the 
Next Gen standard.
    Some of my fellow panelists will outline the advancements they hope 
to accomplish either on their current spectrum or in newly designated 
spectrum bands over the years and decades to come. One thing they will 
not say, however, is that they are asking the FCC for permission to 
make investments to enable these innovations. In fact, broadcasters are 
the only licensees required to ask the FCC for permission to innovate. 
It's like having to ask the governor for permission to plant a garden 
in your own yard.
    Broadcasters are willing and ready to make the necessary 
investments in our infrastructure to provide what we believe will be 
truly groundbreaking improvements to free, over-the-air television for 
the benefit of viewers across the country. The new standard will allow 
us to transmit in Ultra High Definition with High Dynamic Range (HDR) 
and enhance viewer experiences through interactivity, as well as 
provide enhanced emergency and weather alerts to TVs, phones and 
tablets. Most importantly, the Next Gen TV standard is flexible enough 
to allow us to continue innovating within this new standard to adapt to 
the next--and as yet unknown--ways consumers will want to consume 
broadcast content in the future.
    Before I conclude, I do want to highlight one issue currently 
before Congress that poses challenges to viewers' ability to enjoy the 
benefits of Next Gen TV--the successful completion of the broadcast 
incentive auction. As the broadcast incentive auction winds its way to 
completion, one thing is certain: We will end up with less spectrum for 
broadcasting and fewer stations. In light of this, we will need to make 
the most of the broadcast spectrum that remains, and provide the most 
compelling services we can, to be competitive and continue serving our 
communities. Next Generation TV provides a vehicle for broadcasters to 
do just that.
    To that end, I want to thank Senators Moran and Schatz, as well as 
your cosponsors, including Senators Blumenthal, Fisher and Blunt, for 
your work on draft legislation that ensures broadcasters have adequate 
time and resources to successfully repack following the close of the 
incentive auction. Legislation that ensures no television or radio 
broadcaster will pay out of pocket to cover repack costs and that no 
broadcaster will be forced off the air due to circumstances beyond 
their control, provides the certainty that an investment in Next Gen TV 
requires.
    Thank you again for inviting me here today. I look forward to 
answering any questions.

    Senator Wicker. Thank you very much.
    Mr. Stroup, you're recognized.

              STATEMENT OF TOM STROUP, PRESIDENT, 
                 SATELLITE INDUSTRY ASSOCIATION

    Mr. Stroup. Chairman Wicker, Ranking Member Schatz, and 
members of the Subcommittee, I would like to thank you for the 
opportunity to appear before you today. I am Tom Stroup, 
President of the Satellite Industry Association.
    Since its creation over 20 years ago, SIA has been the 
unified voice of the U.S. industry on policy, regulatory, and 
legislative issues affecting the satellite business. Like the 
other industries represented on the panel today, the satellite 
industry supports hundreds of thousands of jobs and generates 
billions of dollars in revenue. Beyond strictly financial 
metrics, however, I would encourage the Subcommittee to 
consider that our very way of life depends on the benefits we 
receive from satellite-based services and applications.
    Satellites, providing truly ubiquitous coverage that 
enables communications; Earth observation; and position, 
navigation, and timing services, have transformed how we 
communicate; how we map, navigate, and see our world; how we 
produce food and energy; conduct banking; predict weather; 
perform disaster relief; ensure national security; and so much 
more. Of course, delivering these diverse services to a broad 
range of customers is only possible because of our ability to 
access spectrum.
    Satellites have long played a central role in distributing 
virtually all television content to American viewing audiences. 
In particular, live events, like breaking news and sports, 
depend on the point to multi-point coverage and high service 
quality that satellites provide. Communication satellites also 
provide connectivity to business networks, mobile platforms 
like commercial aircraft and maritime vessels, as well as 
direct to household consumers.
    Satellite broadband, a high-quality and cost-effective 
solution, is playing an increasingly important part in 
addressing the digital divide across the United States, 
including in the most rural and remote areas of the country 
where it remains uneconomical for terrestrial services to 
build. Today, the commercial satellite industry has 
approximately 2 million customers nationwide enjoying high-
quality broadband services, no matter where they are located. 
And with the addition of multiple high throughput, high speed 
broadband satellites this year, we expect the prevalence of 
broadband services by satellite to increase rapidly.
    It is also extremely important to mention the critical 
nature that satellites provide to our safety and national 
security. Satellites are often the only means of communicating 
after a natural or other disaster. Furthermore, they enable our 
military to project power in the air, on land, and at sea. To 
cite just one example, satellite communications enable agile 
connectivity and efficient mission control for remotely piloted 
aircraft carrying out critical missions abroad.
    Let me turn to innovation and growth. Even as demand for 
spectrum has increased, the satellite industry has developed 
ways to use this limited natural resource more efficiently. 
High throughput satellites, for example, rely on frequency re-
use and spot beam technology to produce increased output 
factors upwards of 20 times that of traditional satellites, 
meeting FCC benchmark broadband speeds. The industry has seen 
similar increases in the capacity of its systems.
    In another highly anticipated advancement in the industry, 
hundreds of new high throughput, non-geostationary satellites 
will soon provide additional high-speed capacity at low latency 
levels. Existing high throughput satellites already support the 
delivery of 3G and 4G services, and in the future, satellite 
fleets will be a part of the system architecture that delivers 
new 5G, IoT, and intelligent connected transportation services 
to consumers.
    Advances in commercial remote sensing satellites are also 
occurring at a rapid pace. SIA member companies are launching 
satellites that can view and sense the Earth across multiple 
spectral bands at unparalleled spatial resolutions and with 
unprecedented global coverage and re-visit rates. Data from the 
U.S. remote sensing operators are building new markets based on 
geospatial data from agriculture to business intelligence to 
weather prediction.
    Of course, all the breakthroughs we've seen because of 
satellite technology should not be taken for granted. They 
depend upon our industry's ability to access spectrum. In order 
for our industry to sustain and meet the growing demand for 
satellite services, we encourage regulators to continue to 
allocate sufficient spectrum for satellite use. Together, we 
have an opportunity to address the digital divide, meet the 
growing needs of U.S. consumers, ensure our country's safety 
and national security, and do so in a manner that utilizes 
spectrum most efficiently.
    I appreciate the opportunity to appear before you, and I'm 
happy to answer any questions.
    [The prepared statement of Mr. Stroup follows:]

             Prepared Statement of Tom Stroup, President, 
                     Satellite Industry Association
    Chairman Wicker, Ranking Member Schatz, and members of the 
Subcommittee, I would like to thank you for holding this important 
hearing and for the opportunity to appear before you today. I am Tom 
Stroup, President of the Satellite Industry Association (SIA)\1\. 
Before joining SIA in late 2014, I served as CEO of Shared Spectrum 
Company (SSC), a leading developer of spectrum intelligence 
technologies. For a little more than ten years, I also served as the 
President of the Personal Communications Industry Association (PCIA). I 
have also founded and run several companies in the technology industry, 
including Columbia Spectrum Management, P-Com Network Services, CSM 
Wireless, and SquareLoop.
---------------------------------------------------------------------------
    \1\ SIA Executive Members include: The Boeing Company; AT&T 
Services, Inc.; EchoStar Corporation; Intelsat S.A.; Iridium 
Communications Inc.; Kratos Defense & Security Solutions; Ligado 
Networks; Lockheed Martin Corporation; Northrop Grumman Corporation; 
OneWeb; SES Americom, Inc.; Space Exploration Technologies Corp.; SSL; 
and ViaSat, Inc. SIA Associate Members include: ABS U.S. Corp.; Artel, 
LLC; Blue Origin: DigitalGlobe Inc.; DRS Technologies, Inc.; Eutelsat 
America Corp.; Global Eagle Entertainment; Glowlink Communications 
Technology, Inc.; Hughes; Inmarsat, Inc.; Kymeta Corporation; L-3 
Electron Technologies, Inc.; O3b Limited; Panasonic Avionics 
Corporation; Planet; Semper Fortis Solutions; Spire Global Inc.; 
TeleCommunication Systems, Inc.; Telesat Canada; TrustComm, Inc.; 
Ultisat, Inc.; and XTAR, LLC.
---------------------------------------------------------------------------
    The Satellite Industry Association is a U.S.-based trade 
association representing the leading satellite operators, 
manufacturers, launch providers, and ground equipment suppliers who 
serve commercial, civil, and military markets. Since its creation 
almost twenty years ago, SIA has been the unified voice of the U.S. 
satellite industry on policy, regulatory, and legislative issues 
affecting the satellite business.
    Before I go any further into my remarks, let me first commend the 
Federal Communications Commission (FCC), who I know will be testifying 
here next week, and the National Telecommunications and Information 
Administration (NTIA) for decades of experience and for their foresight 
in allocating spectrum to useful technologies and applications, 
including satellite services. Their efforts have resulted in innovative 
government and commercial capabilities, which have benefited U.S. 
consumers and the Nation.
    Today, the satellite industry supports over 213,000 American jobs, 
many of which reside in the home states of several of this 
Subcommittee's members. This number includes tens of thousands of well-
paying manufacturing jobs. Just to mention one area of growth, more of 
these jobs will be added in states like Florida, where this week one of 
our members will be breaking ground on a new plant.
    The satellite industry's 2015 estimated revenue was $89 billion. 
These figures of course do not reflect revenues from businesses made 
possible by our services, services which, like satellites themselves, 
are not always apparent. But satellites are constantly operating in the 
background of space, enabling the American economy in ways consumers 
might not be aware, such as supporting smartphone app transactions, to 
use just one close at hand example. Beyond strictly financial metrics, 
I would encourage the Committee to consider that our very way of life 
depends on the benefits we receive from satellite-based services and 
applications. Satellites--communications, earth observation, and 
position, navigation, and timing--have transformed how we communicate, 
how we map, navigate, and see our world, how we produce food and 
energy, conduct banking, predict weather, perform disaster relief, 
ensure national security, and so much more. Of course, delivering these 
diverse services to a broad range of customers is only possible because 
of our ability to access spectrum in a number of frequency bands.
    I want to go into a little more detail on just a few of the 
qualitative benefits we receive from satellites because of their 
ubiquitous coverage, which enables cost-effective service even in rural 
and remote areas.
    Satellites have long played a central role in distributing 
virtually all television content to American viewing audiences. In 
particular, live events like breaking news and sports events such as 
the Super Bowl and the upcoming NCAA Tournament depend on the point-to-
multipoint coverage and high service quality that satellites provide. 
Communications satellites also provide connectivity--including 
broadband connectivity--to business networks, to mobile platforms like 
commercial aircraft and maritime vessels, as well as direct to 
household consumers.
    As you all know all too well, advances in information technology 
and communications continue to spur economic growth in the United 
States, but they also highlight a growing disparity between the haves 
and have-nots. Satellite broadband, a high-quality and cost-effective 
solution for broadband services, is playing an increasingly important 
part in addressing the digital divide across the United States, 
including in the most rural and remote areas of the country where it 
remains uneconomical for terrestrial services to build. Currently the 
commercial satellite industry has approximately 2 million customers 
nationwide enjoying high-quality broadband services at reasonable 
rates, no matter where they are located. This includes the 14 percent 
of consumers that currently are not served by terrestrial broadband. 
Commercial satellite operators, which have already invested billions of 
dollars in the construction and deployment of high-throughput 
satellites, offer service to those consumers today.
    With the addition of multiple high throughput, high speed broadband 
satellites this year, we expect the prevalence of broadband services by 
satellite to increase rapidly and the number of satellite broadband 
customers across the United States to continue to grow substantially. 
Further, given that most of these satellites and their ground equipment 
will be built in the United States, we should see the creation of 
additional domestic design and manufacturing jobs.
    It is also extremely important to mention the critical nature that 
satellites, and the use of spectrum, provide to our safety and national 
security. Satellite capabilities enable our military's ability to 
project power in the air, on land, at sea and in cooperation with 
allies. To list all of the ways satellites and spectrum are utilized by 
the U.S. military and Intelligence Community would take too long and 
quickly lead to classified discussions. So, I will mention just a few 
examples.

  <bullet> Satellite communications (SATCOM), both commercial and 
        military, provide agile connectivity and efficient mission 
        control capability to our forces and operations in the 
        continental U.S. (CONUS) and forward deployed locations, 
        including for remotely piloted aircraft or (RPA), other 
        advanced weapons systems like the F-35, and U.S. Navy warships. 
        Capacity demand for the bands supporting these needs routinely 
        outpaces supply and continues to grow rapidly.

  <bullet> Intelligence, surveillance and reconnaissance (ISR) 
        satellites and aerial platforms are essential to capabilities 
        that allow us to see global threats to our nation, including 
        from missiles, terrorism, as well as more traditional 
        activities of enemy combatants and potential adversaries, and 
        they demand dedicated high-capacity satellite links.

  <bullet> The Global Positioning System (GPS) provides position, 
        navigation, and timing services which are critical to every 
        phase of military operations, commercial networks, critical 
        infrastructure, and more.

    All of these satellite capabilities depend upon spectrum 
availability and heavily factor in the Department of Defense's 
decisions concerning future force structure and concepts of operation. 
From individual special operations teams to large scale theater-level 
air, land and sea operations, none of these would exist as we know them 
today without the command and control and delivery of data that 
satellites provide. In short, it is hard to overstate how integral 
satellites are to our Nation's ability to defend our interests in a 
conflict-filled world.
    In addition, satellites play a critical role when our national 
terrestrial communications infrastructure is unavailable because of a 
national disaster, electrical outage or, worse yet, terrorist attack. 
Unlike their terrestrial counterparts, satellite networks are not 
susceptible to damage from such disasters, because the primary 
repeaters are onboard the spacecraft and not part of the ground 
infrastructure. Hand-held terminals, portable Very Small Aperture 
Terminal (VSAT) antennas, and temporary fixed installations can all be 
introduced into a post-disaster environment to provide support relief 
and enhance recovery efforts. This is why the Department of Homeland 
Security has designated commercial satellite systems as critical 
infrastructure.
    Indeed, emergency preparedness networks are increasingly including 
satellite networks as part of their system design in order to ensure 
sufficient resiliency and cost-effectiveness. Government and 
intergovernmental agencies use satellite networks to provide seismic, 
flood-sensing, and other early warning data. Public Safety Answering 
Points (PSAPs) have begun incorporating satellite back-up into their 
next generation 911 systems to cost-effectively mitigate potential 
network outage risks caused by any ground-based or environmental 
disruptions.
    I alluded earlier to the fact that satellites have been relying on 
the use of spectrum for many years, but this should not lead anyone to 
conclude that the industry has been doing anything but driving 
technology forward in exciting ways. So, let me say a word on 
innovation and growth. The satellite industry is today investing tens 
of billions of dollars to innovate and increase connectivity in the 
U.S. and across the globe. Specifically, even as demand for spectrum 
has increased, the satellite industry has developed ways to use this 
limited natural resource more efficiently. High throughput satellites, 
for example, rely on frequency re-use and spot beam technology to 
produce increased output factors upward of 20 times that of traditional 
satellites, meeting FCC benchmark broadband speeds. The industry has 
seen similar increases in the capacity of its systems. The first 
broadband satellite began service in 2008 with a capacity of 10 
gigabits per second (Gbps) and today they have capacity of 180 Gbps or 
more.
    In another highly-anticipated advancement in the industry, hundreds 
of new high-throughput (non-geostationary) satellites will soon join 
existing operators in Low-Earth and Medium-Earth orbits to provide 
additional high speed capacity at low latency levels. Existing high 
throughput satellites already support the delivery of 3G and 4G 
services, and in the future satellite fleets will be a part of a system 
architecture that delivers new 5G, IoT, and intelligent, connected 
transportation services to consumers.
    To expand further on another area of growth, mentioned at the 
outset, advances in commercial remote sensing satellites are also 
occurring at a rapid pace. SIA Member companies are launching 
satellites that can view and sense the Earth across multiple spectral 
bands, at unparalleled spatial resolution and unprecedented global 
coverage and revisit rates. The U.S. industry's capacity to monitor, 
evaluate, and understand change is allowing for more frequent insights 
into the impacts and opportunities of human activity in all aspects of 
life and business, and enabling a data revolution from space. Data from 
U.S. remote sensing operators are building new markets in agriculture, 
mapping, business intelligence, and weather prediction; they are 
supporting global efforts for humanitarian assistance and disaster 
response; and they are providing unique information to the U.S. 
national security community that, by virtue of it being commercial and 
unclassified, can be shared at critical times with our allies and 
partners.
    One final, general note on innovation: the satellite industry also 
helps drive our exploration of frontiers in science and space, ensuring 
American technological leadership continues in these increasingly 
competitive areas.
    Of course, all of the breakthroughs we've seen because of satellite 
technologies should not be taken for granted. They depend upon our 
industry's ability to access spectrum. And here I would like to note 
that satellites can and often do operate in bands with other users. In 
most cases satellite networks have different--often higher--
requirements for sharing. In order for our industry to sustain and meet 
the growing demand for satellite services, we encourage regulators to 
continue to allocate sufficient spectrum for satellite use. In a 
similar vein, we also ask the Senate and this Subcommittee to consider 
how to pursue a balanced approach to making additional spectrum 
available for future growth, that you ensure that satellite is a part 
of that equation. Together we have an opportunity to address the 
digital divide, meet the growing needs of U.S. consumers, ensure our 
country's safety and national security, and do so in a manner that 
utilizes spectrum most efficiently.
    I appreciate the opportunity to appear before you and I am happy to 
answer any questions.

    Senator Wicker. Thank you, Mr. Stroup, and thank you all 
for your excellent testimony and for helping us by staying in 
the time. Now, as I explained earlier and I've gone over this 
also with consultation with Senator Schatz--I will now turn the 
gavel over to Senator Gardner, go vote, and immediately come 
back. At this point, I think it's probably best to recognize 
Senator Schatz for questions, and then we'll proceed along the 
list that has been prepared for us by our staff.
    Senator Schatz. Thank you, Chairman Wicker.
    My first question is for Mr. Heiner. The use of wireless 
devices in the unlicensed bands is so popular that the Wi-Fi 
Alliance predicts that we will need another 500 gigahertz of 
spectrum in the unlicensed bands to accommodate demands by 
2025. I'm going to ask you three questions just in the interest 
of time so you can knock them all out in a row.
    Which bands are the most important for unlicensed spectrum 
today? What are the industry's plans to identify more bands for 
unlicensed spectrum? And then do tech companies generally agree 
or differ greatly in terms of a strategy for the unlicensed 
bands?
    Mr. Heiner. Thank you for those questions, Senator Schatz. 
I'll answer the first two sort of together. We very much need 
to find and sort of utilize as efficiently as possible 
additional unlicensed spectrum in the low, mid, and high-
frequencies. At the low end, around the 600 megahertz, after 
the incentive auction, we have the possibility of really 
investing very heavily in TV white spaces technology. That's 
technology that enables signals to travel quite a long 
distance, four or five miles. It's only--think of, like, FM 
radio, 88 to 108 on the dial. Of course, an FM station can 
cover the whole city--600 megahertz not far off from that. So 
at very low power, we're able to serve an entire community. We 
have an example of this coming up in southern Virginia as a 
test pilot.
    At the mid frequencies, that's where most Wi-Fi is today, 
2.4 and 5 gigahertz, and that's very good spectrum for within a 
home. It can penetrate a couple of walls. As you know, your 
signal falls off outside the home. But we'd like more 
contiguous spectrum next to what we already have to build out 
more channels.
    And then at the high end, at the millimeter waves, the 
recent Spectrum Frontiers proceeding at the FCC has opened up 
new spectrum, which we're very enthused about. This spectrum 
can carry very heavy throughput, but only for short distances, 
so we're talking about line of sight. And there are great 
applications for that technology to be able, for example, to 
have your PC connect to a monitor with no cables to stream 
video within the home, for augmented reality scenarios where 
you're wearing a headset and devices in the room are actually 
communicating with the headset via these high millimeter waves.
    So we very much want to see it in all three bands.
    Senator Schatz. Mr. Heiner, in the interest of time, I'll 
take the last question for the record so I can get to my second 
and final question.
    This is for Mr. Bergmann and Mr. LaPlatney. We all want 
faster Internet service and better wireless service coverage 
that will result from the current incentive auction. But at the 
same time, a lot of us are concerned that consumers would lose 
access to their local broadcast news if channels are forced off 
the air in the repacking process. So the question for Mr. 
Bergmann and Mr. LaPlatney is: Isn't there a way to balance 
these concerns and make sure that member companies can deploy 
quickly after the auction while also protecting our 
constituents' access to local news?
    Mr. Bergmann first.
    Mr. Bergmann. Thank you, Senator. So we're absolutely 
committed to a smooth transition process. We do believe it's 
important to have timely access to that spectrum. We have 
confidence that the FCC will be able to stick to its 39-month 
schedule. The faster we get access to those bands, the faster 
we can invest, create jobs, and build out our 5G spectrum, and 
we're very confident that we'll be able to work collaboratively 
to get that done.
    Senator Schatz. Thank you very much.
    Mr. LaPlatney?
    Mr. LaPlatney. Thank you, Senator Schatz, again, for your 
question, and thank you for your leadership on a bill to help 
address these issues. We believe currently with the information 
we have that both the time and the financial resources are 
going to be inadequate, again, based on current information. 
Speaking for Raycom, we got our letter, our repack letter, 
about a month ago, and we will have 22 of our stations that 
will need to be repacked in markets from West Palm Beach, 
Florida, to Cape Girardeau, Missouri; Evansville, Indiana; and 
Hattiesburg--or, pardon me--Biloxi, Mississippi.
    It's a complicated process. For instance, a couple of our 
markets will have to move from Channel 12 to Channel 8, and 
that could involve--it will involve putting a new antenna 
that's going to weigh potentially thousands of pounds more on 
an existing tower. There's all kinds of issues surrounding 
that. We've begun engineering studies already in a number of 
these markets. So we're concerned about the timeline. We're 
concerned about the amount of money. But we will work 
collaboratively, and we'll work as quickly as we can to move 
through the repack, to be as efficient and effective as we can 
in working on this.
    Senator Schatz. I'd just like to indulge the Chairman, if I 
could have his indulgence for a minute.
    Mr. Bergmann, can we have your commitment, yes or no, to 
working out a solution that accommodates these very serious 
concerns?
    Mr. Bergmann. We're absolutely committed to working with 
you, with our partners in the broadcast industry. Thirty-nine 
months is an eternity in the wireless industry. As you can 
imagine, after spending $20 billion to purchase something 
that's essentially the value of T. Rowe Price or Hilton Hotels 
or Jet Blue two times over, we want to make sure to put that 
spectrum to good use. We'll absolutely work collaboratively 
with you all to make that happen.
    Senator Schatz. Thank you.
    Senator Gardner [presiding]. Thank you, Senator Schatz.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    Thank you to all of you. I love that the broadcasters are 
having issues with the microphones.
    [Laughter.]
    Senator Klobuchar. I think we all know how important this 
topic is. We have a very active broadband caucus, and, in fact, 
Senator Capito and I led a letter that was signed by 48 
Senators urging the President to include broadband in any kind 
of infrastructure package, because I think we could really have 
the potential of making something that's progressing even much 
bigger. We've also been working on the dig once legislation 
with Senator Gardner and Senator Daines to make it easier to 
deploy broadband. But I specifically wanted to focus on rural 
issues.
    First, Mr. Bergmann, part of the MOBILE NOW Act that I 
worked on with Senator Fischer would require the FCC to explore 
ways to provide incentives for wireless carriers to lease 
unused spectrum. How could leasing or disaggregating spectrum 
in rural areas improve wireless service for rural customers?
    Mr. Bergmann. Senator Klobuchar, thank you for the work 
that you and Senator Fischer have done on the Rural Spectrum 
Accessibility Act. We really think that's a creative tool that 
can help. We recognize that our members compete to expand their 
service maps. They want to serve the entire country. They took 
LTE coverage from zero to over 99 percent in 7 years. But we 
recognize that rural areas have particular challenges, 
geography, topography, fewer people, and we really need to 
think creatively about how to get there. The legislation that 
you've worked on is a big part of that.
    Getting access to that 600 megahertz spectrum will be 
really important as well, too. It has those propagation 
characteristics that enable us to provide service in rural 
areas. So making sure we have that smooth and timely process to 
get that spectrum put to use is really important.
    Senator Klobuchar. OK. Thank you.
    Mr. Stroup, I am Co-Chair of the 911 Caucus and Senator 
Nelson and I actually have announced new legislation, the Next 
Generation 911 Act of 2017, to provide more Federal funding 
through the existing 911 Grant Program. As you know, everything 
is changing. 911 people are now using--can have the ability for 
firefighters to get blueprints of buildings, and for people who 
get stranded in the woods of Minnesota, we could use location 
accuracy to find them. Can you explain how a satellite backup 
can improve the resiliency of Next Gen 911 systems?
    Mr. Stroup. The satellite networks today have ubiquitous 
coverage and the opportunity to provide backup communications, 
whether it's in time of an emergency or when people are lost. 
So it is the ubiquitous nature of the coverage that allows them 
to be able to enhance these services that are provided by 
terrestrial providers.
    Senator Klobuchar. Thank you.
    And then finally, Mr. LaPlatney, ensuring our 
communications networks can effectively support public safety 
includes natural disasters and emergency events--like we have 
flooding in North Dakota and Minnesota--and these kinds of 
things can destroy communications infrastructure. How can 
public safety be enhanced by a Next Generation TV standard?
    Mr. LaPlatney. So the Next Gen Television standard allows 
for better targeted alerts in emergencies, whether it's 
flooding or tornadoes or hurricanes. It also has the capability 
to awake dormant televisions and mobile devices.
    Senator Klobuchar. Did you just say awake dormant 
televisions?
    Mr. LaPlatney. Yes. Essentially----
    Senator Klobuchar. I couldn't just let that go. What does 
that mean?
    Mr. LaPlatney. That's OK. You're all over me today, 
Senator.
    [Laughter.]
    Mr. LaPlatney. So if you're asleep at 3 in the morning and 
there's a tornado bearing down on you, this technology has the 
capability to wake your phone up or wake your television up and 
say, ``You're in the path of a storm. Please take cover.''
    Senator Klobuchar. Wow. So it would turn it on without your 
control.
    Mr. LaPlatney. Essentially, turn it on, awake it.
    Senator Klobuchar. All right. So this idea with the new 
standards with the 911 and what we're working on here could 
help to make that more standard across the country?
    Mr. LaPlatney. Absolutely.
    Senator Klobuchar. Thank you very much. Thank you, all of 
you. We're excited about the possibilities on a bipartisan 
basis here to move forward on broadband as well as enhance 911 
services.
    Senator Gardner. Senator Cortez Masto?

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Gentlemen, thank you for joining us. As a new member, I'm 
excited to be working with you on this issue. First of all, let 
me just say thank you for the bipartisan willingness to work 
together.
    The broadcasters from Nevada--and I represent the great 
state of Nevada--have the same concerns that you just brought 
out today, and it's nice to hear, Mr. Bergmann, you're willing 
to work with them. So that's something I will be paying 
attention to.
    And then my colleague talked about rural areas. The 
challenge for us in Nevada is getting access to wireless 
broadband, you name it, in our rural areas for so many needs, 
where we can bring telemedicine, we can bring education, we can 
bring behavioral services through broadband wireless to those 
areas. Thank you for your comments.
    I'm curious if there are any other areas you can see that 
we should be looking toward to incentivize and bring additional 
services through wireless, through spectrum, that we should be 
looking at in those rural areas. I know you addressed it with 
access to 600 megahertz. Was there anything else that we should 
be looking to do to enhance the ability to bring those services 
to our rural areas?
    Mr. Bergmann. Thank you, Senator Cortez Masto. Reaching 
rural areas does require creativity, and as I mentioned, the 
wireless industry invested $32 billion last year to try to 
build out and improve its networks. And just to assure you that 
we continue to expand that coverage footprint, just over the 
last 2 years, we added 800,000 road miles to our coverage and 
over 500,000 citizens. So we continue to make that a priority.
    But you're right. We have to be creative, in addition to, 
you know, creating incentives to share spectrum, and that 
happens today in the marketplace. Verizon has a very successful 
LTE in Rural America program, where it shares spectrum with 
smaller companies that serve rural areas. Incentivizing that is 
incredibly helpful. Having a robust mobility fund is important. 
So we commend FCC for adopting a mobility fund at its last open 
meeting and we look forward to that implementation.
    I would say, particularly in western states, siting on 
Federal lands is a real opportunity, where today, it can take 2 
to 4 years to site on Federal lands. If we could speed that up, 
you reduce the cost, you make it easier to get out there and 
serve citizens who might be near areas with lots of Federal 
land. So those are just a couple of ideas.
    Senator Cortez Masto. That's very helpful. Thank you very 
much.
    Senator Wicker [presiding]. Thank you very much, Senator 
Cortez Masto.
    You know, I kind of felt like I would get a turn if we 
proceeded in this fashion.
    Let me start with you, Mr. Heiner. What's the takeaway in 
terms of Federal policy coming out of this committee with 
regard to the unlicensed spectrum? Do we need to leave it like 
it is? What do we need to do? What decisions do we need to make 
from a legislative standpoint or from a standpoint of giving 
advice to our regulatory friends?
    Mr. Heiner. Well, a couple of points I was mentioning a 
minute ago, and so I won't repeat it at length now. But we do 
need to encourage the FCC to enable unlicensed spectrum in the 
low bands, the mid bands, and the high bands. There are a 
couple of FCC proceedings that are open, and we look forward to 
their conclusion.
    In the incentive auction, for instance, which was a success 
in that 70 megahertz was made available for licensed use and 14 
megahertz for unlicensed use. We just need to finalize that and 
get the repacking of the broadcast stations done and try to do 
that in such a way that there are new unlicensed channels open 
that are open in every part of the country, including urban 
areas, so that the device manufacturers for TV white spaces 
devices will know that if they sell their device, it can be 
purchased and used any place. There are some open proceedings, 
I believe, also relating to 2.4 gig and 5 gig, and then also up 
in the millimeter bands. So we need to see all of them sort of 
concluded in ways that encourage the unlicensed use.
    The only other point I would make is, you know, it's 
important that we all work together in the unlicensed space to 
prevent interference to other users of the same frequencies, 
and it's important that regulation not be so onerous that the 
effect of it is actually to block people from using the 
unlicensed spectrum. So we just need to find the right balance 
there.
    Senator Wicker. OK. I may ask other members of the panel if 
they'd like to weigh in on that issue. First, let me talk about 
another aspect of your testimony, and that is the data centers 
that constitute the cloud. Where are these data centers 
located? I understand a lot of them are right outside of town 
here. How safe are they? How safe is their infrastructure? Then 
I'll ask other members of the panel to volunteer if they'd like 
to weigh in on either of these matters.
    Mr. Heiner. Well, thank you for that question. You know, we 
have----
    Senator Wicker. It's not up in the air somewhere, is it?
    Mr. Heiner. Yes, it's----
    Senator Wicker. It's a big building.
    Mr. Heiner. What happens is people used to go to the white 
board and say, like, you know, we're going to connect to a 
server someplace, and they would draw like an image of a cloud, 
and then it became--you know, that's the cloud. The data 
centers are on the ground. They are massive----
    Senator Wicker. This could be front page news tomorrow.
    [Laughter.]
    Mr. Heiner. They are massive, massive buildings with just 
racks and racks and racks of servers. You know, we have one in 
Washington State on the Columbia River, and the idea is to get 
hydroelectric power, you know, which is cheap and efficient. 
But we have about 100 data centers around the world. We try to 
have them close to--spread around the world to reduce latency, 
so that, you know, we have a very fast connection to customers 
wherever they are.
    These are highly, highly secure facilities. People 
sometimes worry about, ``Gee, if my data is in these 
facilities, are they safe? Is it safer if I keep the data at 
home?'' Our point of view is really that it's sort of like is 
your data safe--is your money safe in a bank, or is it safer 
under the mattress? And, actually, it's safer if it's 
professionally managed. So we put tremendous resources into 
ensuring that security of those systems.
    Senator Wicker. If somebody launches a rocket propelled 
grenade at my bank, I'm not going to lose my money. What if 
they attack the fibers that connect to these data centers? Also 
help me out--where are the bulk of them? You told me where 
yours are. If you could answer those two----
    Mr. Heiner. Well, they are spread around the world. In 
terms of the effect of an attack on any one data center, all 
the data is replicated and backed up in a professional way to 
many, many other locations, and so that shouldn't be a concern. 
In terms of where they're located, it really is all over the 
world. The leaders in running these data centers, of course, 
are Microsoft, Amazon, which has Amazon web services, and 
Google, and they all have their own policies on where they site 
them.
    Senator Wicker. OK. Is there any other member of the panel 
who would like to talk about either unlicensed spectrum or the 
data centers that comprise the cloud?
    Mr. Stroup, were you raising your hand?
    Mr. Stroup. Actually, I was. This is somewhat related to 
the question relating to the information in the cloud. One 
member on the panel whose members provide service above the 
cloud--one of the great advantages in times of emergency is 
that infrastructure is protected from the kinds of attacks that 
you mentioned or natural disasters. So that directly going to 
the point that you had raised in terms of data in the cloud. It 
does go to the security of the information in the 
communications networks.
    Senator Wicker. Yes, sir, Mr. Bergmann.
    Mr. Bergmann. Chairman Wicker, just to the question about 
providing both licensed and unlicensed spectrum, we believe 
that's important as well, too. The wireless industry relies on 
unlicensed spectrum and looks to launch new services in 
unlicensed bands. I would just encourage this committee to 
continue to focus on the needs for licensed spectrum as well, 
too, particularly as we look towards 5G.
    We're looking for high bands as an initial platform for 5G 
services, and so one of the things that we want to make sure of 
is that we have enough high band spectrum in large channels, 
large contiguous channels. So even after the FCC adopted its 
Spectrum Frontiers order last year, there are now 14 gigahertz 
of spectrum for unlicensed use in the high bands and just under 
four for licensed spectrum in the high bands.
    So we really want to make sure that we have enough spectrum 
there so that we can invest--again, the industry is looking to 
invest $250 billion over the next 7 years, creating 3 million 
jobs, really enabling us to take that 5G lead. So we just 
encourage you all to prioritize both of those.
    Senator Wicker. What, if any, recommendations do you have 
to the FCC in this regard?
    Mr. Bergmann. We would love it if the FCC would move 
forward with its further notice, where it's teed up 18 
additional gigahertz of high band spectrum that could be used 
for 5G services, and we really want to make sure that the FCC 
prioritizes licensed spectrum and make sure that we have enough 
to maintain that leadership as we move from 4G into 5G.
    Senator Wicker. Mr. LaPlatney, you emphasized Next 
Generation TV in your testimony. What needs to happen at the 
Federal level to help your goals become a reality?
    Mr. LaPlatney. Thank you for the question, Senator Wicker. 
There is an NPRM out there currently. I believe we're in a 
comment period. And I think the short answer to your question 
is just continued oversight by this committee. It would be the 
hope of the industry----
    Senator Wicker. That would be a Notice of Proposed Rule 
Making.
    Mr. LaPlatney. Correct. I'm sorry. Notice of Proposed Rule 
Making--thank you--at the FCC. We're in a comment period now. 
We expect that comment period to end sometime during the 
summer, and it would be our hope that the standard would be 
adopted sometime during the fall.
    Senator Wicker. Have you made recommendations? Have you 
responded to this notice with suggestions?
    Mr. LaPlatney. Yes, sir. I think a number of industry 
participants have.
    Senator Wicker. Anyone else?
    [No verbal response.]
    Senator Wicker. OK. Well, Mr. Bergmann, many industries are 
leveraging digital platforms for innovation and growth in 
healthcare. It's a very exciting area in which we are actually 
helping people lead longer and more meaningful lives. In 
Mississippi, there's a great example of this called the 
Diabetes Telehealth Network. It provides patients with remote 
care management, resulting in cost savings of over $300,000 for 
only 100 patients. Of course, we would like to write this 
large. If expanded, this program could save Medicaid $189 
million.
    How do we ensure that there's sufficient spectrum available 
to continue to fuel this innovation in tele-medicine and 
provide quality healthcare access to all Americans regardless 
of where they live?
    Mr. Bergmann. Thank you, Mr. Chairman. We certainly agree 
with you. mHealth is one of the most promising applications 
that 5G looks to bring. Whether we're talking about remote 
patient monitoring, chronic disease management, there are 
tremendous opportunities to cut costs, as you mentioned, but to 
also improve outcomes, to save lives and make sure that 
patients have a better quality of life. So just a couple of 
things that this committee can do, again, focusing on making 
spectrum available in low, mid, and high bands, making sure 
that we have licensed spectrum that enables us to provide those 
guarantees of performance, that reliability and security that 
we really want to have out of our health applications.
    And then maybe a sometimes overlooked aspect is 
infrastructure siting, particularly as we look to build out 
high band spectrum which will have that incredible capacity, 
five times the responsiveness, 10 times the speeds of what we 
have today. It's important that we have this new 5G 
infrastructure. So being able to site those small cells quickly 
and without unnecessary costs or delays is really important.
    Senator Wicker. Thank you. Anyone else want to talk about 
telehealth?
    Yes, sir, Mr. Heiner.
    Mr. Heiner. Just one additional comment, which is that the 
TV white spaces technology could also be very helpful for 
telemedicine, because it has the capability, as I mentioned 
earlier, of sending signals over long distances. And, in fact, 
Microsoft has a system up and running in Botswana, where 
circumstances can be difficult, specifically focused on 
telemedicine, and in this way, the doctors in the more urban 
areas are able to reach out to patients in rural areas.
    Senator Wicker. Now, the administration believes, and I 
support, certainly, in a general sense, the idea that 
regulations many times, though well intended, have stifled job 
creation, and that we need regulatory reform, not only from the 
standpoint of legislation, but also coming out of the 
administration. So would each of you five experts give us the 
benefit of some recommendations, two or three recommendations, 
that you might send to the administration for regulatory reform 
in the early months of this administration?
    Mr. Bergmann?
    Mr. Bergmann. Thank you, Mr. Chairman. So just a couple of 
thoughts. Certainly, two places where we would appreciate this 
committee's guidance are with respect to the privacy 
regulations and the open Internet regulations that the past FCC 
adopted; in the case of privacy, where the FCC departed from 
longstanding FTC precedent; in the case of Title II, where 
public utility regulation was applied to broadband services. 
Both of these areas are places where we believe the Committee 
can help guide the FCC.
    A third area, as we look forward toward things like the 
Internet of Things, making sure that we have consistent 
national framework to guide innovation in that space is very 
important for the future growth of those services.
    Senator Wicker. Let me make sure I understand what you're 
saying with regard to Title II. It's your view that the FCC 
made a mistake in that regard in recent years and that that 
should be turned around?
    Mr. Bergmann. Yes, Mr. Chairman. We're certainly very 
encouraged to hear Chairman Pai talk about reversing that 
decision and recognizing the competition and the innovation 
that's happening in the mobile broadband space.
    Senator Wicker. All right. Mr. Entner?
    Mr. Entner. Thank you, Chairman. In my opinion, the 
American people have benefited tremendously from a light touch 
regulatory approach to telecom and technology, in general, and 
the growth speaks for itself. I think we should return to light 
touch regulation and make it possible for companies across the 
whole competitive environment to compete with each other. 
Competition is really the lifeblood here of the industry, and 
Americans have benefited tremendously from it. I think that's 
the importance here, that the same rules apply to everybody the 
same way, no matter how they compete with each other with 
similar services.
    Senator Wicker. With regard to returning to light touch, 
would you agree with Mr. Bergmann on the Title II issue?
    Mr. Entner. I would.
    Senator Wicker. All right. Now, members of the public 
should know that the panel is a panel suggested by both the 
Republican and Democratic membership of this committee. It's 
not a one-sided show at all.
    Would anyone care to take issue with either Mr. Bergmann or 
Mr. Entner with regard to the Title II issue?
    [No verbal response.]
    Senator Wicker. All right. What suggestions do you have for 
policymakers, the administration, Congress, or the regulators 
with regard to regulatory reform?
    Mr. Heiner. So I would just focus on unlicensed spectrum, 
which is already a success story in terms of the very low 
regulation that those bands entail. That low regulation means 
that barriers to entry for innovators are incredibly low. 
Anybody can, you know, dream up some device and transmit on the 
frequencies with almost no regulation. So I would just urge the 
Congress and the FCC to continue to maintain that approach, 
which is a proven success, and expand to the extent possible 
the amount of bandwidth available to unlicensed spectrum.
    On the net neutrality point, I would just say that 
Microsoft very much supports the core principles of net 
neutrality, would like to see it enshrined, however that's 
done. The specifics around Title II is not something that's at 
all important to us.
    Senator Wicker. Mr. LaPlatney, do you have anything to add?
    Mr. LaPlatney. Yes, Senator Wicker. The broadcast industry 
is highly regulated, and we would love to see the FCC take up 
local ownership rules, the local media ownership rules. We 
think there's--whether it's the newspaper or broadcast press 
ownership or the local duopoly rule, we think that those 
rules--it's time for those rules to be revisited. So that would 
be our suggestion.
    Senator Wicker. Mr. Stroup?
    Mr. Stroup. Yes. First, I'd like to commend the FCC for 
many of the modifications they made to the Part 25 rules last 
year, working with the industry. However, we would like to see 
them make some modifications to the restrictions on the 
industry that were adopted in the Spectrum Frontiers proceeding 
on where we can locate our Earth stations, and, of course, 
going to the core of this proceeding, ensuring that there is 
sufficient spectrum made available for the growth of the 
industry.
    Another area that we would recommend relates to export 
reform. Fortunately, a number of the ITAR restrictions were 
removed, allowing manufacturers of satellites to export and 
compete in the market on a worldwide basis. But there were some 
restrictions that remain with respect to Earth imaging, and we 
would request that that be revisited.
    Senator Wicker. Thank you very much.
    Ranking Member Schatz, I've tried my best to stir up a 
disagreement among these panelists, and I'm having an awful 
time doing it. So I'll yield to you for a few questions.
    Senator Schatz. Thank you, Mr. Chairman. If you need 
disagreement, I think I can provide it for you.
    My additional question is for Mr. Bergmann. The U.S. has 
been a global leader in the development of mobile technology, 
and there has been a lot of anticipation for the implementation 
of 5G. In fact, the Committee passed MOBILE NOW in January, 
which will make additional spectrum available for 5G networks.
    My question for you, Mr. Bergmann, is can you put this in a 
global context in terms of how we are viewed in the highly 
competitive world of international technology companies and why 
it's so important for the United States to lead on 5G?
    Mr. Bergmann. Thank you, Senator Schatz. We are clearly 
recognized as the world's leader in 4G LTE. We invested first, 
innovated first, and that's paid dividends over the last 7 
years. If you look at the mobile ecosystem, the two largest 
operating systems are both based here in the U.S. A stunning 76 
percent of apps developers are located here in the U.S. So we 
think it's paid tremendous dividends in terms of innovation. We 
believe that 5G has seen more greater opportunities as we look 
at these services that have much greater capacity to impact 
industries across the economy and our consumers' lives.
    So there truly is a global race. I mentioned some of the 
other countries around the world that are taking steps to make 
large swaths of spectrum available and to streamline the way 
that they site that infrastructure and architecture. So it's 
really critical that we do the same here in the U.S.
    Senator Schatz. Can you flesh out what those new 
opportunities are as opposed to the last generation?
    Mr. Bergmann. Sure. So, you know, if we look at healthcare, 
you look at the opportunity to have remote patient monitoring 
or chronic disease management, or, as you look at the ability 
to use high band spectrum, we have the opportunity to have 
ultra HD, so you might have remote surgery and be able to 
extend the reach of expert doctors beyond urban centers into 
rural areas.
    Similarly, in the education space, where you might have 
virtual reality applications that allow students in Hawaii to, 
in the blink of an eye, be in the center of the Roman Coliseum. 
There are tremendous opportunities in transportation and energy 
as well, too, where we have the ability to cut traffic times, 
reduce fatalities, cut emissions. There are tremendous 
opportunities associated with that.
    Senator Schatz. So could you give me a status report? Where 
are we? Who are our greatest competitors? Who is on top of 
this? Are we already behind? Just tell me where we are.
    Mr. Bergmann. I think we're really poised to lead. The 
FCC's actions to make that high band spectrum available have 
led to over two dozen trials here in the U.S. Companies have 
already invested in R&D. So we're out ahead of the standards 
process. One of our member companies announced just earlier 
this week a pilot program to offer 5G services in 11 different 
markets. So I think we're very much poised to lead. But it is a 
race, and it will be important that we make the right policy 
decisions here.
    Senator Schatz. Who are we in a race with?
    Mr. Bergmann. Japan, the EU, South Korea, China.
    Senator Schatz. Thank you. Anyone else care to comment on 
that?
    Mr. Entner?
    Mr. Entner. Thank you, Senator. I want to highlight the 
importance of configuring the spectrum in large channel 
configurations, because think of these channels as like water 
pipes, and the bigger the pipe, the faster the speed. In the 
United States, spectrum is typically allocated in 5 by 5 or 10 
by 10 megahertz channels. Overseas, it is in 20 by 20 megahertz 
channels very frequently.
    And, inherently, how you can provide for speed is you have 
now carrier aggregation, where you essentially can glue three 
of these pipes together, three of these channels, and if you 
glue together three 5 by 5s, it gives you 15 megahertz of 
spectrum as one channel. Or if you glue together three 20 by 
20s, that's 60. Inherently, whoever has the 20 by 20s will be 
four times faster, and that is a really important consideration 
to keep the U.S. competitive with the rest of the world.
    Senator Schatz. And is one of our unique challenges the 
spectrum currently allocated, I think, appropriately, to 
national security and other needs, that maybe not every country 
has quite that obligation and quite that same public policy?
    Mr. Entner. It is within the existing spectrum, not 
necessarily about different and new spectrum. It's just like 
when we have spectrum, how do we divide up that spectrum?
    Senator Schatz. Oh, this is within the bands that are 
allocated.
    Mr. Entner. Correct.
    Senator Schatz. Is that an FCC decision that has to be 
made, or are these technical changes that can be made at the 
operating level?
    Mr. Entner. Initially, it's an FCC decision of how they are 
allocating the spectrum. If through pure happenstance, a 
company wins several licenses in the market, and they lie next 
to each other, they can create this. But that doesn't happen 
very often. So through regulatory foresight, this problem can 
be alleviated.
    Senator Schatz. OK. Thank you very much.
    A question for Mr. LaPlatney. I want to talk to you about 
the Next Gen TV. You know, I understand the transition that was 
made from analog to digital and the consumer benefits, the 
economic benefits, and the need to sort of subsidize that 
transition. As a television watcher, I can understand the 
desire for better and better TV, more and more cross platform 
utility, and sharper and sharper resolution.
    But I'm not yet persuaded that this is as fundamental of a 
shift as the analog to digital shift was, and I want to be 
persuaded of how revolutionary this technology is, because I'm 
not there yet. So give me your best shot.
    Mr. LaPlatney. Well, so I think the best way to explain it, 
you know, is the points we talked about earlier. So there's the 
ability in this standard to better target emergency warnings, 
including turning on devices, which I think is so far removed 
from what we can do today. I think that's a much larger step 
than the analog to digital. I think also the standard, because 
of the hybrid IP broadcast architecture----
    Senator Wicker. Can I just interrupt there?
    Senator Schatz. What's that?
    Senator Wicker. Let me just interrupt there. So what you're 
saying is I've got a device on my night stand, and suddenly 
there's a tornado. So what happens?
    Mr. LaPlatney. So we could alert your phone.
    Senator Wicker. So it turns my phone----
    Mr. LaPlatney. On. If it has power, it would turn your 
phone on, and there would be an alert that would come up and 
say, ``You are in the path of a storm'' or ``You're in imminent 
danger. Take cover immediately.'' In fact, you know, the 
tornadoes that went through Hattiesburg back on the twenty-
first of January--if we would have had that technology, I 
believe we could have saved some lives.
    Senator Wicker. Nobody has that technology now?
    Mr. LaPlatney. That technology is--we can alert, but this 
technology allows us to target much more effectively. So, as an 
example, today's alerts sometimes conform to county lines, and 
as a tornado moves through geography, it doesn't conform to 
county lines. So you could alert just those consumers in the 
path of the storm, the polygon in front of the storm, as 
opposed to Montgomery County and Prince George's County. It's a 
much more targeted alert that would be more effective.
    Senator Wicker. Thank you, Senator Schatz, for letting me 
interject there.
    Senator Schatz. So I want to understand--when you talk 
about Next Gen TV, it sounds like a platform that's integrating 
several different kinds of new technology, because this ability 
to turn on your device for civil defense, this preparedness 
purpose, is not the--I mean, that's not the central technology 
that I was thinking of when I hear about the Next Gen TV.
    Mr. LaPlatney. Again, it's a hybrid broadcast standard, so 
it allows better, more relevant advertising for our viewers and 
users, and that, I think, is important to the broadcast 
industry, because, currently, our targeting capabilities are 
way behind our friends over on the mobile side or the cable 
folks or Facebook or Google. And, you know, in a given market 
today, Facebook or Google could take 40 percent, 50 percent, 60 
percent of the advertising revenue to market. So there's that 
capability.
    It also offers the ability for a user to have a more Hulu 
or Netflix type of experience. So you have a dropdown menu, and 
you want to know what the score is of some game other than the 
one you're watching, or you want to know who that actor is. It 
allows that type of interaction. And then it also--you know, it 
can transmit to suitably equipped mobile devices, which I think 
for our industry is almost a game changer. As you know, the 
growth----
    Senator Schatz. It can transmit from the TV to----
    Mr. LaPlatney. Tower.
    Senator Schatz. Oh, from the tower to any platform, a 
tablet or whatever it may be.
    Mr. LaPlatney. Right, if it has a 3.0 chip in it. So it 
would have to have a----
    Senator Schatz. Aren't there other ways to do that right 
now?
    Mr. LaPlatney. There are ways to get a signal----
    Senator Schatz. To get TV on your tablet, right?
    Mr. LaPlatney. You can, but it's over IP, essentially. So 
this is broadcast, and I think the key there is that if you--
and having four boys, I can tell you that we have data cap 
issues in our house. And, you know, if somebody wants to watch 
movies over 3.0, it's not going to hit their data cap. So if 
they're consuming a lot of video----
    Senator Schatz. Having one boy, I like it when we hit our 
cap.
    [Laughter.]
    Mr. LaPlatney. So there are a number of different 
capabilities, and it really is a--it's a game changer for the 
industry.
    Senator Schatz. Thank you very much.
    Senator Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Senator Schatz.
    Senator Hassan?

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Senator Fischer, and thank you 
to all of the panelists. I, too, apologize for us being in and 
out on this morning of votes.
    Mr. Heiner, I wanted to follow up a little bit on your 
testimony where you advocated for a balanced, all-of-the-above 
approach to spectrum policy, and I can't agree more. I think 
Granite Staters and folks around the country benefit most when 
we have both licensed and unlicensed spectrum available to 
them. You know, you talked about the example, I think, of the 
wireless phone industry. I know that data from Cisco shows that 
60 percent of wireless traffic was offloaded onto Wi-Fi 
networks last year, which helped create a positive consumer 
experience where network traffic was alleviated, and the 
industry all around thrived as a result.
    So can you elaborate a little bit more specifically on how 
a balanced, all-of-the-above approach to national spectrum 
policy that includes both licensed and unlicensed spectrum will 
benefit rural communities, specifically?
    Mr. Heiner. Yes, I'd be happy to, and thank you very much 
for the question. Mr. Bergmann was describing just a few 
minutes ago the possibilities of greater access for rural 
communities through 5G and new spectrum, and what I would focus 
on as well, then, is the possibility of using TV white spaces 
technology.
    So this is in the 600 megahertz band, where some new 
spectrum was made available as a result of the incentive 
auction, and this band has propagation characteristics such 
that--at very low power and so, you know, low cost. A 
transmitter can serve quite a large community.
    So, for instance, we have this trial running--we're getting 
it running--in southern Virginia, where the school has fixed 
broadband access, so a wired connection. The students are 
dispersed around that rural area, and through just a series of 
just a handful of transmitters, we will be able to reach 7,200 
kids and thereby address the homework gap. So in that region, 
half the kids do have broadband at home and half the kids 
don't.
    So the concept is you give each of those--the kids who 
don't--this little device that will only cost about $50, and it 
picks up the TV white spaces signal and basically turns it into 
a Wi-Fi signal. So in this manner, we can help to address the 
homework gap.
    Senator Hassan. That's fabulous. And I expect that there 
would be telehealth applications as well?
    Mr. Heiner. There would be. I mean, we were just actually 
discussing that a minute ago. We have a trial in Botswana, 
actually, specifically focused on telemedicine, and we're 
bringing doctors, you know, in the urban areas to patients in 
the rural areas through this technology.
    Senator Hassan. Thank you very much.
    I wanted to follow up, too, with Mr. LaPlatney, because I 
am strongly supportive of the recent spectrum auction. I think 
it holds great promise for innovation and our economy, and I'm 
pleased to see it moving forward. You've talked this morning 
about some of the challenges that broadcast stations face as 
they need to move to different frequencies and to what I'm 
learning as an industry term, repack. I've been talking with 
broadcasters in New Hampshire and across the country, and I 
know we all want to make sure we're prepared.
    I wanted to just focus a little bit on the issue for radio 
stations--I know we've talked about television broadcasting--
but, in particular, those that share towers with television 
stations. I'm concerned that they could be negatively impacted 
or temporarily go off the air. If so, are there any resources 
or recourse available, or is there more that needs to be done 
to address the issue for radio, in particular?
    Mr. LaPlatney. Thanks for your question. There are a number 
of towers, television towers, that have radio occupants 
throughout the country. During the repack process, when we have 
tower riggers climbing up and down towers, there will be times 
where those radio antennas will be powered down or shut off. So 
it's a real issue. It could be for hours at a time or for days 
at a time.
    So I do think something needs to be done. I really think it 
just underscores the need for the FCC to take up a rational 
approach to the repack, and I know that the members of the NAB 
are currently in conversation with folks at the FCC around--
talking about this issue and trying to come up with some 
answers.
    Senator Hassan. Thank you very much.
    Senator Gardner [presiding]. I see the Chairman of the Full 
Committee, Senator Thune, has arrived.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Mr. Chairman, and I appreciate the 
Subcommittee having this hearing and putting together such an 
excellent panel.
    I just want to say how much I appreciate the work that you 
all do connecting people across the country from remote rural 
areas to cities to each other and the world and providing 
education, entertainment, and public safety services, which 
contributes greatly to the economy and to the quality of life 
of every American. You all drive the innovation and investment 
that's made the United States a leader in advanced wireless 
technology. Our job in Congress is to make sure that, 
consistent with our national security and public welfare 
obligations, the market has access to spectrum and that 
industry is not unduly burdened when getting the spectrum into 
service.
    This committee reported out a bill here recently called the 
MOBILE NOW Act, and that makes a down payment on that 
obligation. It would make available 255 megahertz of prime 
spectrum, both licensed and unlicensed, in the next three 
years, but that really is just the beginning. To meet America's 
demand for mobile broadband, it's estimated that the wireless 
industry will need more than 350 megahertz of new licensed 
spectrum by 2019.
    The MOBILE NOW Act would direct the FCC and NTIA to study 
the potential for commercial service in a number of additional 
spectrum bands, but having access to spectrum is only part of 
the challenge. It can take years and tremendous investment to 
deploy new wireless services, and so the bill also streamlines 
the process of applying for easements, rights-of-way, and 
leases for federally managed property and establishes a shot-
clock for review of those applications, which we think is 
something that's essential.
    MOBILE NOW would also establish a national broadband 
facilities asset database listing Federal property that could 
be used by private entities for the purpose of building or 
operating communications facilities. I'm hoping we can get the 
bill passed. I look forward to the full Senate acting on that 
in the coming weeks and I'm very much focused on working with 
our colleagues on this committee and the entire Senate and the 
House in making the next payment toward America's wireless 
leadership.
    I just have one quick question I want to ask, and I want to 
direct this to Mr. Bergmann. The widespread deployment of small 
cells is a massive undertaking for companies and also for state 
and local officials. Are there opportunities for companies and 
government officials to work collaboratively and to streamline 
the approval process so that it focuses only on sitings that 
raise significant deployment issues?
    Mr. Bergmann. So, thank you, Chairman Thune, and we 
certainly commend you and Ranking Member Nelson and the 
Committee for the work on MOBILE NOW, and that focus on 
infrastructure is tremendously important as we look to lead in 
that race to 5G, and, certainly, small cell deployment is an 
absolutely critical part of that equation. Our companies are 
looking to deploy hundreds of thousands of small cells to 
deliver that high-capacity service, and being able to move 
quickly is something that will reduce costs and enable us to 
move faster.
    Right now, today, there are challenges both with the local 
zoning process and, as you mentioned, with Federal agencies. So 
we would certainly appreciate this committee's attention to 
finding opportunities to right-size that process so that we 
exclude small cells, where appropriate, that are the size of a 
pizza box or a lunch box. I don't think anyone thinks that the 
process that applies to a 200-foot tower should apply when 
you're putting a lunch box on top of an existing building.
    So we would love to work with you to try to find 
opportunities to speed those deployments. In the end, what it 
will mean is $275 billion of investment and 3 million jobs. So 
it's a real priority.
    The Chairman. All right. We appreciate that.
    Mr. Chairman, thank you, and thanks again for the 
opportunity to speak at this hearing.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Thune.
    I'm going to go ahead and take my questions now, and then 
Senator Udall is after this.
    Mr. Entner, recently, in my home state of Colorado, a 
company announced that they would be pursuing a launch of a 5G 
pilot project in Denver, bringing us closer to the next 
generation of wireless 5G. Of course, companies have to 
evaluate or reevaluate their spectrum holdings to determine how 
best to play a role in this wireless innovation. As you talk 
about in your testimony, high, mid, and low band spectrum will 
all be critical to building the next generation of wireless 
service.
    What are some of the specific bands you believe could help 
advance this effort? I know Mr. Heiner was asked a similar 
question. But could you elaborate a little bit further?
    Mr. Entner. Thank you. We could certainly use more spectrum 
below 1 gigahertz, as it is ideal to penetrate walls and cover 
rural areas. Adjacent to the current bands would be most 
appropriate. When we look at mid spectrum again here, bands 
that are currently idle or largely idle would be appropriate 
around navigation, for example, and then the large swaths in 
the millimeter band that are actually unused at this time 
should also be brought in, and the FCC has several proposals 
here on this space.
    I just want to bring to the attention of the Committee--you 
know, over the last few weeks, all the wireless carriers have 
reintroduced unlimited plans so that people like the fellow 
witnesses here no longer have the problem with data caps. I 
think it is unappreciated what impact it will have, actually, 
on spectrum.
    When we look at LTE, we currently are getting faster speeds 
from our mobile networks than we get from Wi-Fi. And when 
unlimited is now back, the whole incentive of using Wi-Fi has 
been diminished significantly, because there is no cost 
advantage anymore to shifting over to Wi-Fi. That will drive, 
really, the demand for licensed spectrum further, and that's 
why we need more spectrum.
    Senator Gardner. Thank you, Mr. Entner.
    Mr. Bergmann, while the United States is a global leader, 
as we've discussed today, in wireless service, other nations 
are quickly catching up and trying to exceed advances in this 
space, particularly nations like South Korea and Japan. It's 
important that we retain our competitive advantage by being 
number one in the world, and wireless technologies rely on 
spectrum to operate. That's going to mean we need even more 
spectrum than currently available for commercial and nonfederal 
users, and that's why I support freeing up more Federal 
Government spectrum for such uses.
    What do you think the impact on American competitiveness 
would be if we don't have adequate spectrum in the pipeline?
    Mr. Bergmann. Thank you, Senator Gardner. What we're seeing 
is more wireless being integrated into every major sector of 
the economy. We talked a little bit earlier about energy, 
transportation, and healthcare. These are places where our 
leadership in 4G gave us tremendous advantages. An apps economy 
that didn't exist 7 years ago now employs over 1.6 million 
people. So we want to make sure that in that race to 5G with 
even more capabilities, we're out in front, and that we keep 
innovation here in the U.S. That's why the work that you all 
are doing on spectrum, on infrastructure siting is really 
critical.
    Senator Wicker [presiding]. Thank you.
    Next is Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman, thank you very much.
    Thank you all for being here. Let me start with Mr. 
Bergmann, and I apologize for my absence for your testimony and 
also most of the questioning, so you may be repeating in 
answering me something that's already been asked. We've paid a 
lot of attention to spectrum issues and want to make sure that 
good things are happening.
    Last summer, the FCC identified several high bands in their 
Spectrum Frontier proceedings. Did the FCC do enough, or is 
there a need for additional high band spectrum above 24 
gigahertz for terrestrial mobile systems? What else can be done 
to ensure?
    Mr. Bergmann. Thank you, Senator Moran. The FCC's action in 
the Spectrum Frontiers proceeding to make that high band 
spectrum available is really important. That's going to be the 
initial platform where 5G services are tested and launched. So 
that's an important step. I really commend this committee for 
your focus on additional bands, and at the FCC, the leadership 
of Chairman Pai, Commissioner O'Rielly, Commissioner Clyburn, 
all of whom have talked about the importance of high band 
spectrum. They have a proceeding now where they've proposed to 
make 18 additional gigahertz of high band spectrum available, 
and that's spectrum that will deliver speeds that are 10 times 
what we have today, services that are five times more 
responsive--and when you think about applications like self-
driving cars, you want to make sure that you have responsive 
services--and the ability to connect 100 times the devices that 
we have today.
    So as we think about the Internet of Things and what that 
will open up in terms of opportunities for savings in the 
energy sector, there's tremendous potential from that high band 
spectrum. Making sure that we get that to market quickly, that 
we have large contiguous channels, as my co-panelists have 
said, and that we have an emphasis on licensed spectrum that 
will allow us to provide that performance, provide that 
reliability, and that security that we expect out of those 
kinds of healthcare and other services is really critical.
    Senator Moran. Let me turn to Mr. Heiner in regard to 
unlicensed spectrum. Senator Schatz and I have worked on trying 
to encourage a balanced approach to licensed and unlicensed 
spectrum. Let me ask you about the continued demand for 
unlicensed spectrum, I assume growing at exponential rates. 
Where do we look? What bands might we find?
    Mr. Heiner. Well, the demand is growing, you know, very, 
very rapidly. We do need to look across all three bands: low, 
middle, and high. Low, I've explained a little bit. It gives us 
the opportunity for TV white-spaces technology to serve rural 
areas, and it can work in urban areas as well. In the mid-
range, that's where we have the existing technology at 2.4 and 
5 gig, and there are opportunities there to expand those bands.
    And then in the millimeter bands, you know, we're very 
enthused by the Spectrum Frontiers proceeding where spectrum 
was opened up between 57 and, I think, 72 gigahertz. And as Mr. 
Entner was saying, with that much spectrum, there's the 
possibility of setting up wider channels. Those wider channels 
have more throughput, and so it's a very efficient use of 
technology.
    A new standard has been developed. This is the industry 
coming together on a consensus basis through a standard setting 
body and creating a standard beyond Wi-Fi called WiGig, and the 
Gig is for very high throughput. And I believe that standard 
requires the 160 megahertz channels, which the millimeter bands 
can afford. So we're very enthused about that.
    Senator Moran. Keep looking is your answer, and look 
everywhere.
    Mr. Heiner. And keep--that's right.
    Senator Moran. Let me turn to Mr. LaPlatney. Although I 
didn't hear your testimony, I'm astute enough to know that you 
mentioned my name, so thank you. Senator Schatz and I have been 
working on an issue of importance. I come from a place in which 
getting broadband opportunities to rural America is 
significantly important. Spectrum matters to us, but so does 
community broadcasting.
    I want to indicate that we want to be in a position to make 
certain that good things happen in this repack process. What's 
going on that has a consequence on next-generation technologies 
in your world?
    Mr. LaPlatney. Well, so we are in the early stages of the 
repack. We talked a little earlier about, you know, 
broadcasters now doing engineering studies, and it appears, 
based on current data, that there will be 1,000 to 1,100 
stations repacked, which is a pretty significant number. So we, 
as of today, believe that the amount of time we have to 
complete the repack and the amount of money we have is 
insufficient. So we will appreciate your continued oversight, 
and as we get more information, we will certainly pass that 
along, but we have some concerns today. That said, we will do 
everything we can to make sure that if there's a way to do it 
in 39 months, we're going to do it.
    Senator Moran. I appreciate that. I think I would back the 
idea that there's any desire to slow this process down. We all 
want it to work very quickly for the benefit of all.
    Mr. LaPlatney. Absolutely.
    Senator Moran. Mr. Chairman, thank you very much.
    Senator Wicker. Thank you, Senator Moran.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Chairman Wicker, thank you so much.
    This has been a fascinating panel, I think, with a lot of 
excellent testimony. So thank you for bearing with us in the 
middle of the vote and continuing here.
    As you all know, today, there are more wireless devices 
than there are people in the United States, and with so many 
new wireless devices connecting to the Internet, we could face 
a spectrum crunch that could hinder the next Internet 
revolution. That's why I'm pleased that my Spectrum Challenge 
Prize Act has been approved by this committee. This contest 
would provide a significant monetary award to the first person 
who finds a way to make spectrum use vastly more efficient. 
This approach helps incentivize more innovators and researchers 
to focus on the problem and will help use American ingenuity to 
solve it.
    Chairman Wicker, I'm also pleased that Mr. LaPlatney is 
here to give a broadcaster's perspective. We tend to forget 
that broadcasting is our first wireless technology and is still 
relevant today.
    Mr. Bergmann, my first question is for you. Senator Moran 
and I worked in 2015 to reform the Spectrum Relocation Fund. 
This multimillion dollar fund pays the cost of relocating 
Federal users when a particular spectrum band is auctioned for 
commercial use. The Spectrum Pipeline Act made $500 million of 
existing money available for R&D and pilot projects that could 
lead to more efficient Federal use of spectrum. Last year, OMB 
issued guidance to agencies for proposing plans to use these 
funds.
    Mr. Bergmann, do you agree that the OMB should continue to 
make Spectrum Reallocation Fund resources available to Federal 
agencies that are exploring how to use spectrum more 
efficiently?
    Mr. Bergmann. Senator Udall, we truly appreciate the work 
that you and Senator Moran have done to improve the Spectrum 
Relocation Fund. That's a really important tool for making sure 
that there are the right incentives and opportunities for win-
win solutions to put spectrum to efficient use. We know that 
Federal agencies have exclusive or primary access to somewhere 
between 60 percent to 70 percent of the spectrum below 3 
gigahertz. So trying to make sure that we're using that 
spectrum efficiently and trying to identify opportunities to 
make that available for commercial use is a really important 
goal, and that tool is a very strong one.
    We believe that there truly are opportunities for win-wins. 
The AWS-3 auction was an opportunity for government users to 
upgrade their systems and resulted in making available 65 
megahertz of spectrum that went on to produce the world's 
largest--or the U.S. largest spectrum auction. So we certainly 
appreciate your work on that.
    Senator Udall. Thank you, and I appreciate that answer.
    Mr. Heiner, your testimony briefly discusses cloud 
computing. This is a topic of keen interest to me, and Senator 
Moran and I have worked together for several years now on 
Federal IT reform legislation and oversight to increase cloud 
adoption. I believe replacing so-called legacy IT systems with 
modern solutions can save the Federal Government billions of 
dollars and improve cyber security.
    Can you share more about why Microsoft and other companies 
are increasingly leveraging the cloud and what that means for 
future broadband connectivity needs?
    Mr. Heiner. Yes, and thank you for the question. You know, 
every 15 years or so, there's a major shift in the computing 
landscape. We had the mainframe era in the 1960s; then the 
revolution of personal computing; then the shift to client 
server computing, so these were PCs and then servers running, 
you know, in the back end at enterprises; and today, it's cloud 
computing.
    The basic concept is that it's incredibly economically 
efficient to run servers in central locations, these data 
centers, rather than at each individual company. The analogy 
someone offered is to energy, where in the 1880s, it was a 
revolution that you could have electric power, and each factory 
had its own generator. And someone dreamt up, ``You know, I'll 
make power for the whole city,'' and then we had Con Ed, and 
that was much more efficient.
    Well, it's similar with the cloud as well. So, you know, we 
really believe--and we're seeing it in the marketplace--that 
enterprises around the world will be more efficient and will 
have better access to data analytics and even artificial 
intelligence techniques if they are delivered via the cloud. 
The same is true for the Federal Government, and, obviously, 
it's a big lift to move legacy systems over to that new 
approach, and it will take a long time. But we believe that 
ought to be done as well.
    Now, the cloud is operating its data centers in remote 
locations, and so people need connectivity to reach those data 
centers. It's just as simple as that. It's an absolute, you 
know, sine qua non for the cloud computing to have first-rate 
connectivity, and that's whether it's licensed or unlicensed.
    Senator Udall. Thank you very much
    And thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Udall.
    Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And thanks to each of our panelists today for your 
testimony on a very important subject.
    Mr. Heiner, I have a question for you in some area that I 
find particularly fascinating, and that's what's being done by 
American manufacturers that are using the white space spectrum. 
I was particularly intrigued by some of the work that Microsoft 
is doing in Virginia to help the homework gap by using white 
spaces to leverage the fiber connections that run through these 
schools and allows students in the surrounding areas to access 
their school's network wirelessly from home, which is 
incredibly important for education today.
    In your estimation, what must be done at the FCC to ensure 
that we have enough TV white space channels available so that 
we can have this kind of unlicensed use that can be so 
beneficial?
    Mr. Heiner. Well, we just need to conclude the incentive 
auction process and the so-called ``repacking'' of the TV 
channels in such a way that there's as much spectrum available 
for TV white spaces as possible. And, in particular, there's 
this possibility of having vacant channels in some areas where 
there are not enough TV stations to fill up all the available 
spectrum, and we'd like to see as many vacant channels as 
possible that we can leverage for TV white spaces and also have 
a system where, from coast to coast in both rural and urban 
areas, certain channels are just set aside for TV white spaces. 
In that way, the device manufacturers will know that they can 
build a device and it can be deployed any place in the country.
    Senator Peters. Do you see any other challenges in 
expanding school connectivity, which I think is so important, 
or things that we should be working on?
    Mr. Heiner. Well, it's a question of setting up incentives 
for investment. You know, nothing is free. But the technology 
is very efficient. We can have low-power transmitters that are 
relatively inexpensive, and the devices in the students' homes 
are relatively inexpensive as well. We do have a petition 
pending at the FCC to try to clarify that the E-rate program 
should cover TV white spaces as well as the other means of 
access to the Internet, and we hope that moves forward.
    Senator Peters. Mr. Entner, I know you addressed this next 
topic in your written testimony. I don't think you addressed it 
before us here as a panel. But this is really to all of you. I 
think it's an important question for us to think about. We know 
that the advances in technology that we're seeing are all 
accelerating at an exponential rate, and that curve seems to 
get steeper and steeper every year as we go forward.
    Then on our side, when it comes to public policy, we know 
the rate of progress from us moves at a pretty consistent rate, 
which is called the ``snail's pace,'' as it goes forward, which 
means that it is tough for some of our regulatory agencies to 
keep up, particularly if they're underfunded, lack personnel, 
lack expertise. They probably need all those things, but we 
also know that that's a difficult sell in this current fiscal 
environment. So we have to look for opportunities to 
collaborate with academia, standard setting bodies, industry, 
to come up with some voluntary standards to deal with all of 
these various technologies to kind of find a unified approach.
    Mr. Entner, you mentioned this in your written, but if you 
want to expand on that--and I would certainly encourage the 
other witnesses if you have some thoughts as to how we put 
together these kinds of partnerships to make sure that we're 
allowing the technology to flourish and innovation to flourish, 
but also dealing with some of the regulatory challenges 
associated with it.
    Mr. Heiner. Well, I would just touch on the benefits of 
collaborative industry standard setting. The Blue Tooth 
technology that we're all using every day--that was a voluntary 
industry standard. Wi-Fi is a standard, and WiGig, which I 
referred to earlier. Certain issues can arise in terms of 
avoiding interference when you have shared spectrum with other 
users in that spectrum or in adjacent channels, and sometimes 
it seems as if the FCC regulation may get a little heavier than 
is needed to really address those concerns, and we would 
encourage that wherever possible the industry work together, 
again, through standard setting bodies to achieve that.
    More broadly, I think we need to work with the 
International Telecommunications Union, and Microsoft, for its 
part--we are sort of part of the government delegation to the 
worldwide spectrum discussions that are going on through the 
ITU, and we very much support the efforts of working with 
academics as well.
    Mr. LaPlatney. Thank you for your question, Senator Peters. 
I would suggest that the ATSC 3.0 has been a tremendously 
collaborative and very quickly moving process relative to past 
standard changes, and I think the last time we changed the TV 
standard, it took 19 years. This particular transition, or this 
standard development, is moving at a much quicker pace, so 
we're encouraged by that, and encouraged by the current FCC 
that's helping us to move that along. So thank you.
    Mr. Stroup. I think we saw the beginning of that 
opportunity in some discussions between the wireless industry 
and the satellite industry in the Spectrum Frontiers 
proceeding, something that becomes more important as we look at 
the millimeter wave bands, because despite all of the 
discussion that's taken place, many of those bands have been 
identified for the growth of the satellite industry. And the 
topic of service to world areas came up several times during 
the course of the discussions today. That's been an area where 
the satellite industry has been providing service, including 
telemedicine services, for decades.
    I noted in my testimony the growth of the industry, the new 
high throughput satellites that are being launched--already 
have been launched and providing FCC broadband speeds, and the 
continued growth with all Earth orbit satellites. So being able 
to access that spectrum and, in some cases, on a shared basis 
continues to be very important, and, hopefully, it will be done 
through voluntary discussions.
    Senator Peters. Great.
    Mr. Bergmann. Thank you, Senator Peters. I would say the 
wireless industry participates in a variety of different 
standard setting bodies, both for unlicensed spectrum and for 
licensed spectrum. It's a tremendously important tool for the 
industry in terms of being able to develop and bring new 
products to market. Certainly, one reason why we like a mix of 
both unlicensed and licensed spectrum is with licensed 
spectrum, we're able to bring new services to market quicker 
sometimes, because we can launch services before standards are 
developed.
    To your point about collaborative processes, I think that's 
another great one. That's certainly a model that we in the 
wireless industry have embraced, whether it's wireless 
emergency alerts or 911 location accuracy. We've found a 
successful ability to partner in those two cases with public 
safety, but in other cases as well, too, to try to advance 
public policy goals in a flexible and nimble way.
    Senator Peters. Right. Thank you.
    Mr. Entner. Thank you, Senator. I think one of the things 
that--as you mentioned, technology is progressing 
exponentially, whereas government policy not always is 
following the pace. I think it just needs more foresight so 
that we are using more ambitious goals in what we are clearing 
and making available to industry.
    I think, overall, the technology and telecom industry has 
worked very well together. One notable example is, for example, 
LTE-U and license assist access. So I think we should encourage 
these types of voluntary processes with a light touch 
regulatory environment.
    Senator Peters. Thank you.
    Senator Wicker. Thank you, Senator Peters.
    Senator Inhofe?

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I guess the panel 
knows that we're simultaneously meeting with other committees, 
so I have to reprogram my Senate Armed Services concerns here, 
and so I don't know really what you've already gone over.
    Mr. Bergmann, deployment of the next generation of 
telecommunications technology will allow faster Internet 
speeds, which will require a substantial infrastructure 
investment. Now, have you really discussed what we can do? This 
is Congress. We're your partner, and we want to help. What 
should we be doing?
    Mr. Bergmann. So, Senator Inhofe, you're right. We're 
facing a great opportunity and a great challenge. As we look to 
lead in 5G, we recognize that it's a whole new network, built 
not just around tall towers, but also around hundreds of 
thousands of small cells that are the size of pizza boxes or 
lunch boxes that will enable us to have these much faster and 
much higher capacity services.
    A couple of things this committee can do is to work with us 
to make sure that local permitting processes are not overly 
burdensome, to make sure that we have access to rights-of-way 
and poles on a timely basis and at fees that are reasonable and 
cost-based, to make sure that Federal agencies move quickly and 
have deadlines. So, particularly, as we look to parts of the 
country that have large areas of Federal lands or Federal 
buildings, the delays today can be on the order of 2 to 4 years 
and sometimes much longer than that. So if we can start to 
shorten some of that siting, we'll be able to get that 
infrastructure out there more quickly and more cheaply.
    Senator Inhofe. I spent 30 years on that side of the table. 
The problem I had with the Federal Government very often was 
predictability and knowing in advance what's going to happen. 
You mentioned the towers. You have to know well in advance 
before huge expenditures are made and what the rules are going 
to be when you finally get to the point where you're going to 
try to make it happen. I assume that would be one of your 
concerns.
    I understand that consumer demand for wireless has more 
than doubled in 2015 alone. I didn't know this. I'm the newest 
one on this committee. To meet this, you have to rely on 
licensed spectrum, which you exclusively own, and unlicensed 
spectrum, which anyone can use. Could you share with the 
Committee why it's important to use both licensed and 
unlicensed spectrum to meet the growing consumer demand, which 
has doubled in the last year alone?
    Mr. Bergmann. Sure, Senator. Both licensed and unlicensed 
are really important parts of the wireless industry's ability 
to serve. We offload traffic to unlicensed spectrum. We're 
looking to launch new LTE-based services in unlicensed 
spectrum. Licensed remains the foundation of mobile networks, 
and that's a place that enables us to build in highly reliable, 
highly secure services. So as we look to 5G and the kinds of 
things like self-driving cars or remote surgery, where we want 
to have a really high level--a high quality of service, 
licensed will be a critically important part of that overall 
equation.
    Senator Inhofe. Yes. And, Mr. Heiner, Microsoft has been a 
leading innovator in the use of unlicensed spectrum. Congress 
and the FCC have directed more spectrum be made available, 
balancing between licensed and unlicensed spectrum. Do you 
believe there is an appropriate balance between the two, 
licensed and unlicensed?
    Mr. Heiner. Well, I think a theme coming out of the hearing 
today is everyone on this side of the table would like to see 
as much spectrum as possible allocated to both licensed and 
unlicensed use. We speak very much in terms of a balanced 
spectrum policy. That doesn't necessarily mean, like, 1 
megahertz for unlicensed and 1 megahertz for licensed. At 
different bands, it may make more sense to allocate more to 
licensed or more to unlicensed in a particular circumstance.
    We are enthused about the extra bandwidth that opened up in 
the 600 megahertz band as a result of the incentive auction, 
and we're enthused about the Spectrum Frontiers proceeding, 
where new spectrum has opened up as well.
    Just to your point about predictability, of course, that is 
important, too, because you need to know ,sort of, years ahead 
in order to plan and develop standards and then build devices. 
It's been a little bit of a challenge in the TV white spaces 
area over the past 10 years, where the rules have been a little 
bit in flux. We really feel like we need to move forward with 
investing in that technology now, and we're, sort of, 
redoubling our efforts, and we feel like the rules are sort of 
almost done, and so we're ready to move forward.
    Senator Inhofe. Yes, I like to bring that up because that's 
true with any issue we could be talking about right now. It 
seems like government doesn't have the understanding that they 
really need to know what's going to be expected of them next 
year or 10 years from now because the investment sometimes has 
to be made way in advance.
    I'm sure you covered quite a few things. I apologize for 
those of us on Armed Services not being here.
    That's all I have, Mr. Chairman.
    Senator Wicker. Thank you, Senator Inhofe.
    Well, this has been a very interesting and enlightening two 
hours. I think this was an important hearing with a very 
talented and knowledgeable panel. We've been interrupted by 
votes and other committee meetings, so it may be that you did 
have to reiterate a few themes, but that's helpful to us also. 
Thank you very, very much.
    We'll stand adjourned and express our appreciation on 
behalf of the entire Subcommittee.
    Without objection, the record will stay open for two weeks. 
Thank you.
    [Whereupon, at 11:28 a.m., the hearing was adjourned.]

                            A P P E N D I X

                      Prepared Statement of ViaSat
                    Satellite Broadband White Paper
        Exploring the Value of Spectrum to the U.S. Economy to explore 
        the future spectrum policy and how wireless technology benefits 
        consumers and the economy.

    ViaSat, as a leading provider of satellite and terrestrial 
broadband communications solutions would like to thank the Committee 
for holding this important hearing on the future of spectrum policy and 
for providing an opportunity to submit input for the record.
    Spectrum is the life blood of wireless technology, both terrestrial 
and satellite, and our industries collectively need to be good stewards 
of its use, work together to enable spectrum sharing where feasible, 
and continue our efforts to increase spectrum efficiency for the 
benefit of consumers, emergency response teams, enterprise users, 
government/military users, and for the benefit of the American economy.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    ViaSat uses a wide variety of technologies, both terrestrial and 
satellite, to provide spectrum-based broadband service to about 700,000 
residences and small business, and about 1,000 aircraft, including 
United Airlines, American Airlines, JetBlue, Virgin American, and the 
United States government's senior executive service fleet.
    We also deliver broadband service on unlicensed frequencies to over 
10 million Wi-Fi access points worldwide.
    ViaSat's advanced satellite broadband network technology has 
revolutionized the efficient use of spectrum, increasing the total 
network capacity provided by the spacecraft and associated ground 
infrastructure. Typical spacecraft systems dedicated to satellite 
communications have historically delivered a mere 2-3 Gbps of capacity. 
Ten years ago, the top speed provided was 1.5 Mbps.
    Today, ViaSat has surpassed all satellite providers in capacity 
with advanced spectrum use and reuse techniques implemented in ViaSat-1 
in November 2011 with its 140 Gbps of capacity--fifty to seventy times 
more total capacity that what previously was in place. We're now 
offering 25/3 Mbps service in many parts of the Nation over ViaSat-1.
    ViaSat is continuing this revolutionary efficient reuse of 
spectrum, with the launch of ViaSat-2, scheduled in April 2017, which 
will deliver over 280 Gbps of capacity (twice the amount on ViaSat-1). 
ViaSat-2 will have seven times the coverage of ViaSat-1, and will be 
able to support 25/3 Mbps service.
    ViaSat's global fleet of third-generation (ViaSat-3) satellites 
begin launching in 2019. Each of the ViaSat-3 spacecraft efficiently 
use spectrum to deliver over 1000 Gbps of capacity, more capacity than 
of all of the existing satellite communication spacecraft on-orbit 
combined. That is seven times what we have on ViaSat-1 today. And 
ViaSat-3 will support even faster speeds.
    In a decade, ViaSat has achieved nearly three orders-of-magnitude, 
1000-fold, improvement in spectrum efficiency. We have significantly 
increased the number of broadband users we can support, we are 
providing faster and faster speeds, we're on a path to provide 
virtually unlimited data allowances, and we're winning customers from 
terrestrial alternatives. In other words, we're providing a fully 
competitive broadband alternative, and are reaching consumers in urban, 
suburban, and rural locations and also serving users in the airborne, 
maritime, and land mobile environments.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These developments have made possible by new spectrum sharing 
techniques--advanced methods of spectrum reuse that do not affect other 
spectrum users.
    By increasing spectrum efficiency through reuse and sharing 
techniques, ViaSat has been able to reduce the ``cost per bit'' of 
delivering broadband service. Achieving this result was critical to 
developing a high-quality broadband product and affording millions of 
Americans an effective competitive alternative to wired and wireless 
terrestrial services.
    ViaSat's broadband customers include individual consumers, small 
and large businesses, emergency response teams, government and military 
users, and major airlines such as United, JetBlue, Virgin, and now 
American. The locations of ViaSat's Ka-band broadband network customers 
at fixed locations are shown in figure 1. Figure 2 shows typical flight 
routes of the many commercial aircraft that have Wi-Fi powered by our 
satellite broadband service.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In fact in America, over 2 Million Personal Electronic Devices 
(PEDs) connect every day to these broadband Internet networks, with 
over 1 Million PEDS operating on commercial aircraft Wi-Fi service each 
month.
    ViaSat also provides these satellite broadband services to 
emergency response organizations, like the Red Cross, businesses, 
schools, medical facilities, and government and military users for 
their essential missions and communications needs.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    ``Service providers around the world share concerns about running 
out of bandwidth. Business challenges surrounding continued bandwidth 
growth, linked to video, mobility, and cloud applications, are 
significant. Service providers also report declining revenue from a 
cost-per-bit perspective, so not only does the network need to grow, it 
also needs to grow more cost effectively.'' \1\
---------------------------------------------------------------------------
    \1\ Cisco, Connect-World, the information and communication 
technology (ICT) decision makers' magazine, 18 Jan 2015
---------------------------------------------------------------------------
    ViaSat's satellite broadband service currently relies primarily on 
a fleet of three spacecraft and associated ground segment:

   (i)  Ka-band payload on Anik F2

  (ii)  WildBlue-1, and

  (iii)  ViaSat-1, it's first-generation, high-capacity satellite.

    To continue to acquire customers and to expand the infrastructure 
to deliver broadband service competitive with terrestrial alternatives, 
ViaSat's network of earth stations will continue to expand. To 
illustrate as shown in Figure 4, ViaSat-1 with capacity of 140 Gbps 
uses 20 earth stations to connect to the Internet backbone. ViaSat's 
second-generation ViaSat-2 doubles this capability, and requires more 
than 40 earth stations to to connect to the Internet. With the planned 
deployment of multiple third-generation ViaSat-3 high-capacity 
satellites, each of which will provide over 1 Terabit per second (over 
1,000 Gbps) of throughput and support even higher customer speeds, 
hundreds of earth stations to connect to the Internet are required.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These earth stations are distributed across the United States--they 
are not primarily located in remote or rural areas. To the contrary, 
they are located close to the customers and connections to the Internet 
backbone, which are often in more populated areas as seen in Figure 1.
    These revolutionary advances in efficient use of spectrum leading 
to higher capacity have been made possible by incorporating greater 
bandwidth into satellites, facilitated by the FCC's decision to 
allocate 2.5 Ghz of the Ka-Band for satellite services (in each 
direction) after: (i) wisely predicting the increased demand for 
satellite-based services that exists today; \2\ and (ii) correctly 
recognizing that satellite operations might not be able to be ``fully 
and economically accommodated in the only frequency bands [then] 
available.'' \3\ Specifically, ViaSat's newest spacecraft are designed 
to operate across a wide range of the Ka band. ViaSat-1 was the first 
commercial spacecraft to operate across that range. ViaSat-2 and 
ViaSat's third-generation, ViaSat-3 spacecraft under construction will 
employ even more of this satellite spectrum to provide increased 
capacity.
---------------------------------------------------------------------------
    \2\ See Proposed Frequency Allocations and Radio Treaty Matters, 37 
Fed. Reg. No. 151, 15714-717, 15733 (Aug. 4, 1972); corrected at 37 
Fed. Reg. 25175 (Nov 28, 1972); Frequency Allocations and Radio Treaty 
Matters, 38 Fed. Reg. No. 40, 5565, 5595-7 (Mar. 1, 1973).
    \3\ Establishment of Domestic Communication-Satellite Facilities, 
Further Notice of Inquiry and Notice of Proposed Rulemaking, 25 FCC 2d 
718, at  2 (1970) (citing Establishment of Domestic Communication-
Satellite Facilities, Report and Order, 22 FCC 2d 86, at  11 (1970)).
---------------------------------------------------------------------------
    Large parts of this segment currently is used by the earth stations 
that aggregate and interconnect to the Internet backbone, and in a 
manner that is compatible with existing terrestrial uses of same 
spectrum. In fact, these types of earth stations have successfully 
shared spectrum with authorized terrestrial users without any reported 
cases of interference. ViaSat also obtained authority to reuse this 
spectrum to serve aircraft above 10,000 feet, likewise in a manner that 
is compatible with existing terrestrial uses.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    ViaSat's focus is on providing efficient and cost-effective 
broadband solutions, regardless of technology, and it works with and 
employs terrestrial-based communications to meet the communications 
needs of its customers.
    By way of example, ViaSat recently acquired NetNearU Corp., a 
wireless network systems provider that delivers managed Wi-Fi Internet 
access services on unlicensed frequencies to over 10 million Wi-Fi 
access points worldwide.
    Leveraging the management platform acquired in that transaction, 
ViaSat now provides wireless network systems that deliver broadband 
service to consumers, businesses, and government customers, in 
buildings and through outdoor hotspots.
    Our experience as a leading provider and innovator of 
communications technologies, including those that rely on shared 
spectrum, and as a provider of both satellite and terrestrial wireless 
services, is depicted in Figure 5; more bandwidth and higher data 
allowances leads to increased customer satisfaction.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    ViaSat is uniquely positioned to offer insights in this Committee 
supporting solutions for making the most efficient use of spectrum 
while enabling flexibility for the development and operation of a wide 
range of technologies and services.
    In conclusion, ViaSat, like other wireless broadband providers, 
requires access to additional spectrum to meet the insatiable demand 
for higher speeds and data requirements. ViaSat will continue to 
innovate and develop mechanisms for sharing the valuable spectrum 
resources to facilitate state-of-the-art broadband service delivery.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                             Scott Bergmann
    Question 1. Mr. Bergmann, as you know, estimates suggest that as 
many as 50 billion devices may be connected to the Internet by 2020. 
The advancement of the Internet of Things has the potential to 
stimulate economic growth and enable consumer benefits through the 
sharing of data from device to device. However, it will also increase 
the demand for spectrum. What can we do to ensure there is adequate 
spectrum available to meet the needs of the growing Internet of Things?
    Answer. CTIA appreciates your leadership on this issue and supports 
the bipartisan DIGIT Act you introduced with your colleagues to 
encourage the growth of the Internet of Things. There is broad 
consensus among policymakers, CTIA's members, and other stakeholders 
that more spectrum needs to be made available in order to supply the 
capacity needed to meet the public's insatiable demand for wireless 
services--demand that will further accelerate with the next generation 
of wireless networks, 5G, and the Internet of Things. With the recent 
close of the FCC's Incentive Auction, for the first time in several 
years there are no other auctions scheduled. Identifying substantial 
amounts of spectrum across a variety of bands, with a clear, defined 
timeline, should be a national priority. The MOBILE NOW legislation 
takes important steps toward achieving that objective, and should be 
part of a comprehensive, ongoing plan to designate low-, mid-, and 
high-band frequency to meet the public's growing reliance on wireless 
connectivity. Given that it takes on average 13 years to reallocate 
spectrum for wireless broadband use, we encourage Congress to provide a 
clear plan for additional licensed spectrum across a wide and diverse 
range of frequencies to meet tomorrow's needs.

    Question 2. Mr. Bergmann, a recent study by Deloitte observed that 
to realize the full potential of 5G networks, it is imperative for 
governments at all levels to make the permitting and regulatory process 
more efficient. As we work here in Congress and with the FCC to develop 
a process for the deployment of small cell technologies, where should 
we focus our efforts?
    Answer. Unlocking the promise of 5G networks requires modernized 
permitting and regulatory processes that will enable wireless providers 
to deploy the infrastructure needed to support those networks. Small 
cells are already being deployed across the country to create greater 
capacity to accommodate the ever-increasing demand for 4G LTE services. 
And 5G will require initial deployment of as many as 300,000 new small 
cells around the country in just the next few years--roughly as many 
cell sites as have been built over the last 35 years.
    States and localities across the country are beginning to 
understand the importance of small cell technologies. They are working 
to update their permitting processes to reflect this evolution and 
position their communities to be the connected, smart cities of the 
future. The Nebraska legislature is currently considering the Small 
Wireless Facilities Act (LB 389), supported by CTIA, which will remove 
barriers to efficient deployment of small cell wireless infrastructure. 
But in many localities across the nation, siting and zoning regulations 
create barriers that impede wireless infrastructure deployments, 
including small cells. These barriers take several forms. First, some 
localities prohibit new wireless infrastructure altogether, or impose 
restrictions that have the effect of prohibiting it. For example, some 
have enacted moratoria on all new wireless deployments, prohibiting any 
facilities in downtown or residential areas, and/or imposed design and 
operating requirements that make deployment technically and 
economically infeasible. Second, some localities take very long times 
to approve new deployments, as long as eighteen to twenty-four months, 
despite the urgent need for the facilities to accommodate ever-growing 
consumer demand. Third, some localities impose excessive fees for 
access to local rights of way that far exceed any costs they may incur 
from reviewing permit applications and managing deployments along 
public rights of way. And wireless providers often face annual fees for 
each small cell that can reach thousands of dollars or more per 
facility, which can make deployment cost-prohibitive and divert 
resources away from new investment, particularly in rural areas. 
Congress and the FCC can address these barriers, while maintaining 
localities' traditional role in permitting new facilities, by 
prohibiting unreasonable restrictions that impede investment, putting 
time limits on review periods, and curbing excessive and discriminatory 
fees.
    In addition, modernizing the review process for wireless 
infrastructure deployments on Federal lands and Federal properties 
would also facilitate additional network investment to advance wireless 
coverage and 5G capabilities for the public and the Federal Government. 
MOBILE NOW includes much-needed Federal siting reforms. But the lack of 
a uniform practice across agencies for conducting siting reviews, the 
failure to use a standard siting agreement, and delays in those reviews 
have impeded new infrastructure. Additional Congressional oversight 
over agencies administering Federal lands to address these issues, and 
agencies' adoption of standardized processes and deadlines for action, 
would do much to advance needed new infrastructure on the nearly 30 
percent of lands across the Nation that are owned by the Federal 
Government, including lands and properties in hard-to-serve rural and 
remote areas.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Scott Bergmann
    Question 1. In your written testimony you state: ``We would suggest 
reasonable shot clocks for new site and collocation permit applications 
and broader application of existing deemed granted remedies. 
Additionally, permit fees and other charges for wireless siting should 
be reduced to reflect small cells' minimal impact and be limited to the 
actual, incremental costs to localities for processing these 
applications.'' Is CTIA advocating broad preemption of state and local 
siting laws and regulations?
    Answer. CTIA is not advocating broad preemption. However, the 
Federal Government has long played a role in promoting communications 
networks and providing guiderails for state and local authority where 
necessary to achieve deployment goals. In 1993, for instance, Congress 
took action to prohibit state and local governments from regulating 
rates for personal wireless services and from restricting access to the 
marketplace for new entrants. Again, in 1996, Congress acted to limit 
state and local government authority over tower siting by mandating 
that they consider requests to site wireless facilities within a 
reasonable period of time. In 2009, the FCC interpreted that language 
to create specific timelines for acting on collocation and other 
applications and, in 2014, further updated its rules to implement 
provisions of the 2012 Spectrum Act that further recognized the 
evolution of wireless technologies. Now, consistent with these past 
legislative and regulatory efforts, we are seeking to further modernize 
the Federal approach to reflect the challenges of today's and 
tomorrow's networks. States and localities have legitimate interests in 
managing the siting of wireless facilities. We are asking only that the 
FCC to interpret the Communications Act to ensure localities issue 
permits for wireless facilities within reasonable times, without 
unreasonable requirements or discriminatory policies, and with fees 
that fully recover their costs to process those permits. In particular, 
many local laws and regulations governing the placement of small 
cells--including where they can go, how long it takes to review their 
applications, and how much it costs--are the same for the requirements 
that govern traditional macrocell deployments. Yet, small cells are 
much smaller facilities, usually no more than a few feet in any 
dimension, and are typically placed on poles along local streets or on 
existing structures such as rooftops, water towers, and the sides of 
buildings. They have far less potential for visual and other impacts 
than the traditional macrocell towers that existing state and local 
procedures were designed to address. Streamlining permitting procedures 
for these smaller facilities will account for their limited impact and 
will greatly speed deployment of critical facilities needed to support 
the public's exploding demand for broadband.

    Question 2. If CTIA is not advocating Federal preemption of state 
and local law, is CTIA willing to partner and coordinate with groups 
that represent state and local governments and Tribes in order to come 
up with an outreach and capacity building game plan that includes 
things like: education about small cell and 5G services, model 
applications, best practices in handling applications, concerns about 
fee gouging, discussions of legitimate public interests and concerns of 
local communities?
    Answer. CTIA and our members work closely with state and local 
organizations and remain committed to continuing that dialogue. Our 
members have worked successfully with state and local governments to 
develop state laws and ordinances. For example, in Arizona and Colorado 
legislation to streamline siting of small cells was recently adopted. 
These bills were the result of discussions with organizations 
representing many jurisdictions across the state. CTIA and our members 
will continue to engage with state and local organizations on similar 
legislation as well as on other efforts to improve wireless siting 
processes in other states while ensuring that actions to modernize our 
Nation's infrastructure policies are not delayed. The FCC's recently 
created Broadband Deployment Advisory Committee is an ideal forum for 
such discussions, as it is designed to provide timely, informative 
feedback to the FCC on ways to improve the state and local permitting 
processes. CTIA also has worked with tribal representatives for many 
years regarding ways to modernize the process while protecting tribal 
interests. CTIA has participated in several meetings and working 
sessions toward those ends, and looks forward to working with Congress, 
the FCC, and the tribal representatives to update these processes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Scott Bergmann
    Question 1. Mr. Bergmann, in your testimony you mentioned a number 
of sectors that benefit from the wireless industry. I was interested in 
you elaborating about innovations on the public safety and 
transportation side. Could you give me some specific examples and where 
we're going in the future?
    Answer. Today's Fourth Generation (``4G'') wireless services are 
delivering innovations that directly benefit public safety and 
transportation. Fifth Generation (``5G'') wireless services, with their 
higher speeds and more robust capabilities, promise even more 
innovations in these sectors.
    On public safety, the improvements in data speeds, capacity and 
latency that 4G and 5G offer over previous wireless technologies can 
provide first responders with on-the-scene access to building 
information, traffic flows, improved E911 network capabilities, and 
other critical information. And rescue services will be able to 
transmit more extensive data about patients to the hospitals that will 
receive them, improving emergency medical care. The January 2017 
Accenture report on 5G that I referenced in my testimony identified 
other public safety benefits such as more robust, integrated video 
surveillance, wireless sensors to identify the use of firearms, and 
flood sensors to provide motorists with route guidance to steer them 
away from flooded roads. Likewise, the January 2017 Deloitte study that 
I mentioned found that a 60-second improvement in first-responder 
response due to improved wireless connectivity translates to a 
reduction of eight percent in mortality.
    4G and 5G can deliver similar benefits to the Nation's 
transportation systems. As I noted in my testimony, these technologies 
are essential for wireless-powered self-driving cars, which could 
reduce vehicle emissions by 40-90 percent, cut travel times, and save 
tens of thousands of lives. The Accenture report explained how 5G will 
help communities to enhance public transportation, reduce traffic 
congestion, and generate revenues from more efficient public parking 
systems. The various public safety and transportation innovations, 
coupled with the use of smart electrical grids, 5G-enabled smart cities 
can see $160 billion in benefits and savings.

    Question 2. Also, since you addressed this in your testimony, are 
there specific telecom infrastructure siting stories or issues with 
places like public lands, that make up 84 percent of my state, or 
tribal lands, that you can share and you've seen that we should be 
addressing? Also please include your specific ideas on how we alleviate 
them. Lastly, please elaborate on examples of the kinds of local siting 
and zoning rules that have become the most challenging to your members.
    Answer. The wireless industry's ability to build facilities on 
Federal lands is important in all states but is particularly critical 
in Nevada because of the vast expanse of Federal lands there. CTIA 
members have worked with the multiple Federal agencies that manage 
those lands. While facilities have been constructed, many more are 
needed to ensure that Federal employees who work on those lands, and 
the public that lives on or visits them, can benefit from 4G and 5G 
wireless connectivity. But the lack of a uniform practices across 
agencies for conducting siting reviews, the failure to use a standard 
siting agreement, and delays in those reviews have impeded new 
infrastructure. Additional Congressional oversight over agencies 
administering Federal lands to address these issues, and agencies' 
adoption of standardized processes and deadlines for action, would 
materially promote needed new infrastructure in Federal lands across 
Nevada and elsewhere.
    CTIA members also work closely with tribes when seeking to site 
wireless facilities on tribal lands. In addition, however, tribes play 
a role in reviewing the siting of wireless facilities on non-tribal 
lands--and it is this review of non-tribal land siting that was the 
focus of my testimony. CTIA supports the dual goals of protecting sites 
of historic, religious, and cultural significance to Indian tribes, and 
delivering nationwide communications services to all Americans. The 
tribal review process for siting on non-tribal land, which is a 
consultative role, can nonetheless take an extremely long time and fees 
can be costly. The Federal Government can provide some guidance to 
streamline the review process while ensuring sites of historic, 
religious, and cultural significance are protected.
    Finally, local siting and zoning rules are extremely challenging 
for CTIA's members because they block needed wireless investment. These 
local obstacles take several forms. First, some localities prohibit new 
infrastructure altogether, or impose restrictions that have the effect 
of prohibiting it. For example, some have enacted moratoria on all new 
deployment, prohibit any facilities in downtown or residential areas, 
and/or impose design and operating requirements that make deployment 
technically and economically infeasible. Second, some localities that 
do not prohibit new deployments often take very long times to approve 
them, often six months or longer and even over a year, despite the 
urgent need for new facilities to accommodate ever-growing customer 
demand. Third, some localities impose excessive fees for access to 
local rights of way which far exceed any costs they may incur from 
reviewing permit applications and managing deployments along local 
streets. CTIA's members face annual fees for each small cell of 
typically thousands of dollars or more, which make deployment cost-
prohibitive and thus block new investment. CTIA is working with 
Congress, the FCC, and states and localities to modernize the state and 
local siting and zoning rules and ensure that fees for use of public 
properties and rights of way are based on the actual, direct costs to 
the communities for reviewing those applications and managing the 
public rights of way.

    Question 3. With the barrier of siting broadband projects on 
Federal public and tribal lands, would you favor an interagency working 
group that coordinates agencies like the Federal Communications 
Commission, the Bureau of Land Management, Bureau of Indian Affairs, 
and National Telecommunications & Information Administration to come up 
with streamlined solutions to barriers denying rural Nevadans quality 
online access? Who are the other stakeholders or Federal agencies that 
would need to be represented in these discussions to ensure we close 
the digital divide?
    Answer. Yes, CTIA supports the creation of such an interagency 
working group with the goal of identifying ways to improve and 
streamline procedures for siting wireless facilities on Federal and 
tribal lands. To effectively develop modernized policies that reflect 
the evolution of wireless infrastructure, the working group must 
include other Federal agencies with substantial Federal land holdings, 
including NTIA; Department of Defense; the Department of Agriculture, 
including the U.S. Forestry Service; the Department of the Interior, 
including the National Park Service, the Bureau of Land Management, and 
the Bureau of Indian Affairs; and the Department of Transportation; 
among others. It should also include the General Services 
Administration (``GSA'') because of GSA's responsibilities to manage 
Federal buildings and properties, which can serve as sites for new 
infrastructure. Such a working group should consider the benefits of 
shot clocks and standardized processes and fees for siting wireless 
facilities on Federal lands. Adoption of these changes could help 
alleviate the delays currently experienced by the industry in locating 
facilities on the nearly 30 percent of lands in this country that are 
owned by the Federal Government.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                              Dave Heiner
    Question. Mr. Heiner, as you know, estimates suggest that as many 
as 50 billion devices may be connected to the Internet by 2020. The 
advancement of the Internet of Things has the potential to stimulate 
economic growth and enable consumer benefits through the sharing of 
data from device to device. However, it will also increase the demand 
for spectrum. What can we do to ensure there is adequate spectrum 
available to meet the needs of the growing Internet of Things?
    Answer. Senator Fischer, Microsoft appreciates your leadership on 
advancing policies that support the growth of the Internet of Things 
(IoT). Microsoft is a provider of the hardware, software, and cloud 
services that power IoT. We help our customers connect, monitor, and 
manage millions of devices and related assets, and we provide the cloud 
services that help organizations unlock the value of new business 
models that are possible only through the combination of connected 
devices, machine learning, and big data analytics that power IoT.
    Today, the majority of IoT traffic is carried over unlicensed 
spectrum. The specifics of a given IoT application determine its 
spectrum requirements such as frequency, size of the channel required 
for the IoT data (bandwidth), and how often the IoT data needs to be 
sent. It is still early, but it may turn out that applications such as 
IoT in agriculture can most cost-effectively be delivered using 
periodic transmissions over narrowband low-frequency spectrum, while 
other IoT applications, such as remote operation of devices or 
equipment, may require high-bandwidth, high-frequency, almost 
continuous transmissions, with a guaranteed high quality-of-service.
    Microsoft expects over time that there will be a continuum of 
spectrum requirements across different IoT applications and use cases. 
Microsoft agrees with your assessment that the growth of IoT traffic 
will increase demand for spectrum. At present, Microsoft does not 
believe additional spectrum bands be should allocated specifically for 
IoT use. With some exception, IoT-enabled devices and equipment will be 
either at a fixed or part of or attached to something that is moving. 
For this reason, Microsoft suggests that the Congress authorize the 
Commission to identify low-, mid-, and high-band spectrum currently 
allocated to either mobile and/or fixed wireless services and inquire 
about the corresponding changes to the technical and services rules 
required to enable a full range of IoT devices to share the band 
without causing harmful interference to incumbents.
    We believe that it makes sense for latency-sensitive IoT 
applications or those that require an assurance of high Quality of 
Service to require licensed spectrum. For this reason, a mobile 
operator should be able to use its existing licensed spectrum for IoT 
applications. With respect to unlicensed spectrum, Microsoft envisions 
that, in some bands, unlicensed IoT devices will be able to share 
spectrum with incumbent services under the Commission's Part 15 
regulatory framework.
    For example, Microsoft is pioneering the application of cloud-based 
IoT and analytics using the unassigned and unoccupied spectrum in the 
broadcast television bands, known as the TV White Spaces (TVWS). 
Signals in the TV bands travel much further and pass through more 
obstacles than signals at higher frequencies for the same radiated 
power level. Therefore, TVWS frequencies are particularly well-suited 
for IoT for agriculture applications.
    Last September, an article in The Economist \2\ documented our work 
on cloud-powered IoT solutions for agriculture. The goal of this work 
is to leverage cloud-services, connectivity, and sensors to improve 
agricultural yields on small farms. This work is happening under an 
experimental license obtained from the FCC. We have found that while 
unlicensed IoT devices can access the TVWS as long as they meet the 
FCC's technical and operational rules, these rules were created with 
wide channels for broadband communication in mind and do not adequately 
accommodate narrowband IoT applications. To be clear, Microsoft 
strongly supports last-mile broadband service delivered over the TVWS. 
The company has been engaged in the policy and regulatory discussions 
regarding TVWS for more than a decade, and only in recent years has 
begun exploring the potential of the UHF and VHF bands for IoT use in 
addition to broadband.
---------------------------------------------------------------------------
    \2\ http://www.economist.com/news/science-and-technology/21707242-
unused-tv-spectrum-and-drones-could-help-make-smart-farms-reality-tv-
dinners
---------------------------------------------------------------------------
    Microsoft believes that the FCC's technical rules for TVWS access 
can be modified to accommodate both wideband and narrowband 
applications. Microsoft, therefore, in principle would support 
complementary changes to the FCC's technical rules for TVWS devices 
that will accommodate a full range of narrowband IoT applications, 
including in the agricultural domain.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Dave Heiner
    Question 1. We need to think creatively about how to promote 
broadband buildout in rural America and in a way, that takes advantage 
of advances in technology and leverages existing infrastructure. This 
will both speed deployment and make sure we are spending our precious 
broadband dollars efficiently.
    In rural Washington, there are Public Utility Districts and Port 
Districts that have deployed fiber to run their own operations. Often, 
these fiber networks have excess capacity. We should be figuring out 
ways to leverage these kinds of existing infrastructure to extend 
broadband into unserved areas.
    In your written testimony, you talked about the ability of 
unlicensed spectrum to meet the need for last mile connectivity. 
Microsoft has had success with TV White spaces technology in rural 
areas around the globe.
    Based on your experience, what are the key features that make these 
projects work? Specifically, what type of partners are you working 
with? What type of broadband infrastructure are you leveraging and what 
type of legal or regulatory environment is best to permit this type of 
innovation?
    Answer. Senator Cantwell, under Microsoft's Affordable Access 
Initiative, we develop partnerships with local Internet access 
providers and other local entrepreneurs to deploy new last-mile access 
technologies, cloud-based services and applications, and business 
models that reduce the cost of Internet access and help more people 
affordably get online.
    Microsoft's participation is intended to reduce the technical, 
business, and (in some countries) regulatory risk associated with 
launching such efforts in hard-to-reach and often economically 
distressed areas around the world, where the first hurdle is often 
convincing potential Internet access providers that such a business is 
viable. Our comprehensive approach means addressing all potential 
barriers and, depending on where the project is located, may include 
suitable consumption models and payment methods, relevant applications 
and services, reliable Internet access, access to power, and access to 
capital. It also means that we must leverage the existing local 
infrastructure to the greatest extent possible to increase 
affordability. Over time, Microsoft's role in each project winds down, 
because we have absolutely no interest in becoming an Internet service 
provider.
    One last-mile access technology featured in many of our Affordable 
Access Initiative projects are devices that can access the TV white 
spaces (TVWS). Radio waves in the TVWS (unused UHF and VHF channels) 
travel further and can penetrate common building materials better than 
radio waves operating at higher frequencies for a given transmitted 
power level. The UHF and VHF TV bands are global spectrum bands, 
potentially leading to economies of scale for TVWS devices. Access to 
the TVWS is authorized today on an unlicensed (i.e., free and open 
access) basis in the U.S., Canada, UK, South Korea, and Singapore. 
Other countries have initiated consultations regarding access to the 
TVWS under a variety of proposed rules. In countries where there are no 
applicable laws or rules in effect, Affordable Access Initiative 
projects using TVWS spectrum obtain temporary authorizations from the 
relevant National Regulatory Agency. The challenge is that where there 
are no rules in place there is regulatory uncertainty, which weighs 
heavily on investment decisions.

    Question 2. As we are thinking about broadband infrastructure, does 
a focus on technology neutrality make sense to support unlicensed 
spectrum use or should we be focusing on fiber?
    Answer. Senator Cantwell, I agree that we need to think creatively 
about ways to promote broadband buildout and affordable access across 
rural America. Microsoft believes that regardless of where someone 
chooses to live in the United States, they should be able to access the 
Internet at broadband speeds. It is equally essential that the 
broadband access be available at a price point that is affordable to 
rural consumers, but also is profitable to the service provider. Fiber 
is a great long-term goal. However, given the distances often involved 
in reaching rural and remote areas, challenging geography such as 
mountains, limitations of specific technologies, cost considerations, 
etc., most of these last mile broadband networks will consequently be 
wireless, heterogeneous, and all backhauled to the nearest Internet 
point-of-presence, which will most likely be a fiber-optic cable 
connected to the Internet backbone. We also see fixed broadband 
delivered over satellites as being a viable option in certain 
circumstances.
    Our experience with a number of overseas Affordable Access 
Initiative projects in remote areas is that the last-mile TVWS network 
is really only a segment of a larger broadband network. TVWS radios can 
operate point-to-point and point-to-multipoint, the latter of which is 
similar to how Wi-Fi operates. At a given power level, there is a 
tradeoff between the size of the coverage area of a fixed TVWS radio 
and the amount of data in megabits per second a network can carry. We 
have found that fixed TVWS transmitters can operate at data rates 
providing robust broadband access at distances greater than 10 
kilometers. This means that other wireless network technologies must be 
used in conjunction to connect the TVWS network to the Internet point-
of-presence. Depending on the distances and the terrain involved, the 
wireless signal may have to bounce off multiple point-to-point 
microwave dishes to cover the span.
    For this reason, Microsoft views unlicensed access to the TVWS as a 
tool for network designers to use when and where appropriate in the 
design of communications networks. It is a tool, though, that requires 
regulatory authorization, because it must not cause harmful 
interference to other users of the spectrum bands. The simple answer 
here is that unlicensed access to the TVWS is complementary to optical 
fiber with respect to enabling affordable broadband access in rural 
America. The Committee can and should support policies that allow 
optical fiber to be cost-effectively deployed further out in less 
densely populated areas and support policies that ensure a sufficient 
amount of unlicensed spectrum is available in rural markets for 
incorporation into last-mile broadband access networks.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                              Dave Heiner
    Question. Do tech companies generally agree or differ greatly in 
terms of a strategy for unlicensed bands?
    Answer. Most tech companies that prioritize unlicensed spectrum are 
generally in agreement that more unlicensed spectrum in needed. When 
advocating for specific low, mid, and high frequency bands, companies 
sometimes have varying business-specific interests. As I mentioned in 
my testimony, Wi-Fi is an important use case of unlicensed spectrum. 
The Wi-Fi Alliance, which is a not-for profit organization consisting 
of the worldwide network of companies including Microsoft that form the 
Wi-Fi ecosystem, has identified the frequency range 5950-7250 MHz (`6 
GHz band') as a spectrum band that warrants consideration for its 
potential to support unlicensed gigabit-speed Wi-Fi.
    Increasingly, as consumers access the broadband Internet wirelessly 
over their portable devices, the critical metric is becoming the speed 
to the device rather than the speed to the home or to the curb. As 
broadband service providers in more densely populated areas are now 
beginning to offer gigabit broadband access to the home and office, Wi-
Fi congestion could become a bottleneck that keeps individual consumers 
from experiencing gigabit speeds on their devices.
    In densely populated areas, during busy times of the day, most 
users can only access channels in the 2.4 GHz Wi-Fi band that are 20 
MHz wide. In addition to the individual channel size being too small to 
support gigabit Wi-Fi, the 2.4 GHz band as a whole often suffers from 
congestion due to its comparatively small size and the enormous 
quantity of applications (Bluetooth devices, microwave ovens, baby 
monitors, etc.) that use the band in addition to Wi-Fi. This congestion 
is most noticeable during the busiest hours and in the busiest places, 
and degrades the mobile experience for all Wi-Fi users.
    Segments of the 5 GHz band are being used for Wi-Fi. Some of these 
sub-band segments requires Wi-Fi devices to use a technique called 
Dynamic Frequency Selection to ensure that the device does not cause 
harmful interference to military and other radar systems.
    IEEE 802.11n protocol allows for 20- and 40-MHz wide channels in 
the 5 GHz band. A newer standard, IEEE 801.11ac protocol allows for 40-
, 80-, and 160-MHz wide channels in the 5 GHz band. Wi-Fi devices 
accessing 160-MHz wide channels can attain gigabit speeds. The vision 
for 5 GHz band (5150-5850 MHz) gigabit Wi-Fi established several years 
back assumed that it would concurrently support multiple contiguous 
160-MHz channels. Last fall, NTIA reported its conclusion that it would 
not be possible for unlicensed Wi-Fi devices to share spectrum with 
Federal and other license holders in the 5350-5470 MHz band. That 
decision means that a maximum of two 160 MHz channels can operate in 
the 5 GHz band at the same time.
    The Wi-Fi Alliance commissioned a study \1\ on spectrum needs for 
future Wi-Fi use. The study determined the amount of spectrum required 
to support Wi-Fi traffic by taking into consideration existing and 
future device capabilities and projected deployment needs for business, 
residential, and public locations under two different growth scenarios. 
Four key findings on the report released in February 2017 are:
---------------------------------------------------------------------------
    \1\ http://www.wi-fi.org/beacon/alex-roytblat/wi-fi-study-reveals-
need-for-additional-unlicensed-spectrum

  <bullet> The ever-growing number and diversity of Wi-Fi devices along 
        with increased connection speeds and data traffic volumes will 
        exceed the capacity of spectrum currently available in the 5 
---------------------------------------------------------------------------
        GHz band by 2020;

  <bullet> Between 500 MHz and 1 GHz of additional spectrum in various 
        world regions may be needed to support expected growth in Wi-Fi 
        by 2020;

  <bullet> If demand for Wi-Fi exceeds expected growth, then between 
        1.3 GHz and 1.8 GHz more spectrum may be required by 2025; and

  <bullet> Wi-Fi spectrum needs to be sufficiently contiguous to 
        support 160 MHz wide channels, which are required to support a 
        growing number of bandwidth-intensive applications and to allow 
        maximum Wi-Fi benefits to be attained.

    The Wi-Fi Alliance initiated a process to identify potential 
spectrum bands to address the Report's findings. Based on criteria such 
as the availability of large contiguous blocks of spectrum to support 
multiple 80- and 160-MHz channels, a Wi-Fi signal's ability to 
penetrate two walls across the frequency range, limitations in the 
power of the client device (e.g., game system, handset, tablet, laptop) 
across the frequency range, a current allocation for mobile services, 
etc., the focus was narrowed to sub-10 GHz spectrum.
    The experience of several Wi-Fi Alliance members, including 
Microsoft, in the unsuccessful multi-year effort to examine sharing the 
5350-5470 MHz band with Federal and other users led the organization to 
look at spectrum bands where there was little or no Federal usage. In 
the 6 GHz band, Federal usage begins at 7025 MHz and continues at 
higher frequencies, with some breaks. Discussions with several Wi-Fi 
radio manufacturers indicated that current 5 GHz radios can be rapidly 
modified for 6 GHz operation. Review of the types of communication 
services operating in the band indicate that it would not be a good 
candidate for licensed use. The Wi-Fi Alliance also noted complementary 
efforts in Europe to begin study of the 5925-6425 MHz band for 
potential Wi-Fi use on a shared basis.
    Separately, several Wi-Fi Alliance members, including Microsoft, 
have banded together to support an independent measurement, modeling, 
and mitigation effort to determine whether Wi-Fi devices can share 
spectrum with the other users of the 6 GHz band without causing harmful 
interference.
    Microsoft is under no illusion about the magnitude of the challenge 
ahead to develop mitigation strategies and techniques enabling 
unlicensed devices to share access with incumbent 6 GHz band license 
holders. However, the consensus of the Wi-Fi community is that all-in-
all, the 6 GHz band is the most promising and practical place to look 
to address its future spectrum needs. Our starting point is examining 
whether a Wi-Fi access point operating both indoors and outdoors with a 
maximum radiated power of 4 Watts EIRP can share the 6 GHz band 
successfully with incumbents. Measurement data and modeling will guide 
mitigation efforts and overall direction.
    Microsoft requests that, in future spectrum legislation, the 
Committee include language directing the FCC to begin the process for 
amending the technical and service rules necessary for Wi-Fi to share 
the 6 GHz band with incumbent users. Additionally, we ask the Committee 
to consider authorizing NTIA's Institute for Telecommunication Sciences 
in Boulder, Colorado to perform measurements and provide other 
technical support of industry as it relates to the 6 GHz efforts. If 
nothing else, an authorization provides a signal to help focus the 
organization's priorities.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Dave Heiner
    Question 1. Microsoft's website describes using TV ``white space,'' 
the unused bandwidth between television channels, ``to bring broadband 
connectivity to some of the 4 billion global citizens who are not 
currently online'' (see https://www.mi
crosoft.com/empowering-countries/en-us/decent-work-and-economic-growth/
tv-white-space/). Do similar opportunities exist within the United 
States to deploy broadband to unserved and underserved areas?
    Answer. Senator Udall, under Microsoft's Affordable Access 
Initiative, we develop partnerships with local Internet access 
providers and other local entrepreneurs to deploy new last-mile access 
technologies, cloud-based services and applications, and business 
models that reduce the cost of Internet access and help more people 
affordably get online. The Initiative supports both domestic and 
overseas projects. The `homework gap' project in southern Virginia is 
an example of the type of collaborative project supported under the 
Initiative.
    Unlicensed TV White Spaces (TVWS) devices is one such new last-mile 
access technology that can serve as an important tool for the designer 
of broadband networks connecting rural communities. Microsoft views 
high-power fixed-wireless TVWS devices as part of a heterogeneous 
network that can provide last mile connectivity between the nearest 
Internet point of presence and unserved and underserved areas within 
the United States. TVWS radios can operate point-to-point for wireless 
backhaul and operate point-to-multipoint, similar to Wi-Fi.
    The reason we refer to TVWS as a network element is that there is a 
design tradeoff between range and the megabits per second that can be 
delivered. Based on our experience, under the current technical rules, 
the sweet spot for a TVWS radio's range is somewhere over 10 kilometers 
for commercially attractive data transfer rates. For communities within 
10 kilometers of the nearest Internet point-of-presence, a single TVWS 
network can provide connectivity. Communities located considerably 
beyond 10 kilometers from the Internet point-of-presence may require 
the broadband network to combine multiple wireless technologies (and 
frequencies) to cover the distance. To increase the affordability of 
the resulting broadband service, the Initiative looks to leverage the 
existing local infrastructure to the greatest extent possible.

    Question 2. Many school children in New Mexico and across the 
country face a particularly cruel aspect of the digital divide: the 
homework gap. Teachers increasingly assign homework that requires an 
Internet connection. This makes just getting assignments done a real 
challenge for the nearly one-third of New Mexico kids without access to 
the Internet at home. When former FCC Commissioner Jessica Rosenworcel 
and I visited Hatch Valley High School, we heard from students, 
teachers, parents and school administrators about the need to ensure 
all kids have access to broadband. Students told us how they go to the 
school parking lot or local Pick Qwik store to access free Wi-Fi and 
complete their homework. Could you share more about how Microsoft is 
developing new approaches to help close the homework gap?
    Answer. Microsoft and its partners are extending the E-rate-covered 
broadband Internet access service of 18 participating schools to the 
homes of eligible students that live in Charlotte County and Halifax 
County, Virginia via wireless transmission using TV White Spaces 
technology over unlicensed spectrum--at no additional cost to the E-
rate fund and for no charge to the students. This pilot project will 
assist in closing the homework gap for thousands of eligible students 
in the participating school districts. They will obtain authenticated 
access to their school Internet service, subject to the same rules and 
restrictions applicable to their Internet connectivity in school, so 
that the students can conduct research, do their homework, collaborate 
on projects with other students online, and pursue other educational 
opportunities from the safety and convenience of their homes. In the 
longer run, ISPs--in conjunction with the schools they serve in other 
areas--could use this technology to close the connectivity gap for the 
millions of other students across the United States who either cannot 
afford or do not have access to the Internet at home. Microsoft and its 
partners submitted a petition to the FCC asking it to clarify that this 
is permitted under the existing E-rate rules and, if not, to issue a 
waiver for the project. The petition is pending.

    Question 3. I am interested in learning your thoughts about how to 
craft spectrum policy that is ``future proof.'' The United States 
Frequency Allocation Chart (available at https://www.ntia.doc.gov/
files/ntia/publications/january_2016_spectrum
_wall_chart.pdf) indicates that essentially all available spectrum has 
already been allocated. So the challenge today seems to be finding 
efficiencies and repurposing spectrum when new uses become important. 
How do we ensure that allocations made today do not unintentionally 
prevent us from meeting spectrum needs in the future?
    Answer. Senator Udall, a fundamental challenge in developing laws 
and regulations regarding information and communications technology 
policy is that the technology (and market opportunities) moves much 
faster than Congress and the Federal Communications Commission (FCC) 
can react. Spectrum policy is no different. What makes spectrum policy 
even more challenging is that, as you rightly point out, essentially 
all spectrum considered for some form of wireless communications has 
already been allocated to one or more commercial radio communication 
services or for Federal use. It means spectrum policy is often a hard-
fought zero-sum game where there are clear winners and losers, which 
makes it an even more challenging process. It usually takes many years 
between when a spectrum band is identified for repurposing at a policy 
level and when the repurposing of the band has been completed and the 
new service is up and running.
    Microsoft believes that the continued demand for spectrum can be 
met more rapidly by increasing spectrum utilization through static and 
dynamic spectrum sharing between and among different radio 
communications services, and, where possible, with unlicensed devices 
as well. The potential for spectrum sharing will be different for every 
spectrum band based on the radio service(s) operating in the band, how 
they are deployed, the protection requirements, mitigation techniques 
available, etc. This detailed technical work is best left to the expert 
agency, the FCC. If Federal spectrum use is involved, the FCC needs to 
consult with NTIA.
    Nonetheless, Congress can play a significant role in defining the 
objectives of our spectrum policy. For example, Congress can make clear 
that the Commission:

  <bullet> should identify and examine for shared use more low-, mid-, 
        and high-frequency spectrum bands:

  <bullet> should ensure that a balance of licensed and unlicensed 
        spectrum is available:

  <bullet> should signal that the technical and service rules for 
        accessing shared spectrum are fair and economically feasible; 
        and

  <bullet> should take steps to discourage spectrum warehousing, which 
        can create an artificial shortage.

    Ultimately, spectrum policy should support long-term competition in 
broadband services and be technology-neutral to the greatest extent 
possible.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Pat LaPlatney
    Question 1. Mr. LaPlatney, your testimony states that you oversee 
Raycom Media's 60 broadcast television stations stretching from 
Hattiesburg to Honolulu. This includes ABC, CBS, and NBC affiliate 
stations. President Trump declared via Twitter on February 17th that 
``FAKE NEWS media'' including ``NBCNews, ABC, CBS'' and others are 
``the enemy of the American People!'' (see https://twitter.com/
realDonaldTrump/status/832708293516632065). President Trump reportedly 
later told a gathering of conservatives in Washington, D.C., that ``A 
few days ago I called the fake news the enemy of the people, and they 
are--they are the enemy of the people'' (see Jackson, David. ``Trump 
again calls media `enemy of the people' '' (see Jackson, David. ``Trump 
again calls media `enemy of the people'.'' USA Today. Feb. 24, 2017. 
available at http://www.usatoday.com/story/news/politics/2017/02/24/
donald-trump-cpac-media-enemy-of-the-people/98347970/). Do you agree 
with President Trump that ABC, CBS, or NBC News are enemies of the 
American people?
    Answer. Senator Udall, we take great pride in the fact that Raycom 
Media is a trusted source of emergency information and news in every 
community we serve. Respectfully, we disagree with that 
characterization of the media.

    Question 2. Could you share your views on the importance of the 
First Amendment protection of press freedom and the role of a free 
press in our democracy?
    Answer. The right to speak freely without fear of incrimination and 
the right of the press to challenge the government and root out 
corruption remains one of the most important rights our founders 
enshrined in the Constitution. Broadcasters have been, and continue to 
be, proud stewards of these ideals in the modern media age. It is a 
mission we hold dear to our hearts. We shine a light on injustice and 
empower citizens to take action. In this digital world, it is very easy 
for the average American to find information that confirms their 
beliefs rather than challenges them. This is where local broadcasters 
play such an important role in our democracy. We present the public 
with facts, provide information about issues that matter to people 
where they live and remind viewers about the incredible acts of service 
taking place in our communities. As newspapers continue to struggle, 
broadcasters have been carrying the mantle for locally focused 
investigative reporting. In fact, Raycom Media launched a new national 
investigative unit in late March which will produce high impact, 
interesting and informative series of national importance with a core 
focus on localism. The national unit will work closely with local 
investigative units across Raycom media properties placing a spotlight 
on subject areas of importance to your constituents.

    Question 3. I appreciate the availability of free, over-the-air 
television. Although broadcasting is one of our first ``wireless'' 
technologies, it still provides a lot of value for many Americans, 
particularly during severe weather events or other emergencies. So I am 
excited about continued innovation and upgrades to TV broadcast 
technology. Your testimony describes new and enhanced services 
broadcasters will be able to offer TV viewers thanks to the ATSC 3.0 
standard. Will these ``Next Gen TV'' features be available in rural 
areas that still lack reliable broadband service?
    Answer. Senator, we are grateful for your appreciation of free, 
over-the-air (OTA) broadcasting and your support for ATSC 3.0. The 
renaissance of local TV is playing out in New Mexico and across the 
country as over 17 percent of U.S. TV households now rely exclusively 
on OTA signals (according to Gfk market research) for television 
viewing. While ATSC 3.0 deployment will be a station-by-station 
determination, we expect that deployment to be national in scope across 
a range of markets--urban and rural. One important factor that is 
essential to the successful deployment of ATSC 3.0 is a successful 
completion of the voluntary incentive auction repack. As we work 
through the extremely complicated repack as quickly as possible, we 
look forward to working with you on ensuring that New Mexican's that 
receive a TV signal today, will be able to do so after the auction. 
This will allow your constituents that live in more remote portions of 
the state to benefit from these new innovative services and help close 
the digital divide.

    Question 4. I am concerned about reports that there is no intention 
of making the new ATSC 3.0 standard ``backward compatible'' with older 
television sets. Will viewers with older TVs still be able watch their 
favorite over-the-air channels after broadcasters switch to ATSC 3.0?
    Answer. Next Gen TV is not backwards compatible with the current 
standard, meaning that current television sets cannot receive Next Gen 
TV signals without additional equipment. That is why broadcasters have 
proposed to protect consumers during the Next Gen TV deployment by 
partnering with other stations in their market to continue to transmit 
their programming in the current standard as well. This will ensure 
that every viewer maintains access to broadcast programming whether it 
through the current signal, or an ATSC 3.0 signal. Serving viewers is 
our business, and we have no interest in leaving viewers behind.

    Question 5. The transition from analog to digital TV transmission 
forced consumers to either buy a digitally-compatible TV or a digital 
converter box to continue to watch over-the-air channels. The Digital 
Television Transition and Public Safety Act of 2005 (PL 109-171) 
authorized a TV Converter Box Coupon Program that provided up to two 
coupons worth $40 each to eligible households that wanted to continue 
to watch broadcast channels without buying a new TV. My understanding 
is that this $40 coupon covered the full cost of purchasing a converter 
box. Will there be an equivalent to a digital converter box available 
to TV viewers who have older TV sets that are not compatible with ATSC 
3.0? If so, how much will it cost?
    Answer. We anticipate that consumers interested in receiving Next 
Gen TV signals will have several options. These could include 
purchasing a new television set, a gateway device that will receive 
Next Gen TV signals over-the-air and transmit them on a consumer's home 
wireless network, or a small device that a consumer could plug into 
their existing television set. Consumers will also have the option to 
continue receiving broadcast programming through the current standard. 
At this point, it is too soon to predict pricing points for any of 
these options, and NAB is not advocating for a government subsidy to 
cover these costs.

    Question 6. I am interested in learning your thoughts about how to 
craft spectrum policy that is ``future proof.'' The United States 
Frequency Allocation Chart (available at https://www.ntia.doc.gov/
files/ntia/publications/january_2016_spectrum
_wall_chart.pdf) indicates that essentially all available spectrum has 
already been allocated. So the challenge today seems to be finding 
efficiencies and repurposing spectrum when new uses become important. 
How do we ensure that allocations made today do not unintentionally 
prevent us from meeting spectrum needs in the future?
    Answer. Broadcasters operate in only one spectrum band, and our 
innovation strategy contemplates doing more within that current 
capacity. While our competitors continue to seek more and more spectrum 
allocations in multiple bands, broadcaster innovations will enable the 
ability to do more with less. Next Gen TV allows broadcasters to make 
even more efficient use of their existing spectrum, providing customers 
with better service using the same 6 MHz channels stations use today. 
Encouraging this kind of innovation, without making overly prescriptive 
regulatory requirements a condition of permission to innovate, is the 
best way to future proof spectrum policy.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                               Tom Stroup
    Question 1. Do you have any suggestions for universal service 
reforms or other policy changes that would help expand broadband access 
in rural and remote areas where satellite providers can offer Internet 
access more affordably than cable, wireline and wireless providers?
    Answer.
Satellite Industry Association \1\<SUP>,</SUP>\2\
---------------------------------------------------------------------------
    \1\ SIA Executive Members include: The Boeing Company; AT&T 
Services, Inc.; EchoStar Corporation; Intelsat S.A.; Iridium 
Communications Inc.; Kratos Defense & Security Solutions; Ligado 
Networks; Lockheed Martin Corporation; Northrop Grumman Corporation; 
OneWeb; SES Americom, Inc.; Space Exploration Technologies Corp.; SSL; 
and ViaSat, Inc. SIA Associate Members include: ABS U.S. Corp.; Artel, 
LLC; Blue Origin: DigitalGlobe Inc.; DataPath Inc.; DRS Technologies, 
Inc.; Eutelsat America Corp.; Global Eagle Entertainment; Glowlink 
Communications Technology, Inc.; Hughes; Inmarsat, Inc.; Kymeta 
Corporation; L-3 Electron Technologies, Inc.; O3b Limited; Panasonic 
Avionics Corporation; Planet; Semper Fortis Solutions; Spire Global 
Inc.; TeleCommunication Systems, Inc.; Telesat Canada; TrustComm, Inc.; 
Ultisat, Inc.; and XTAR, LLC.
    \2\ These proposals are supported by all SIA members except for 
AT&T, which abstains from participation.
---------------------------------------------------------------------------
Broadband Definition \3\<SUP>,</SUP>\4\
---------------------------------------------------------------------------
    \3\ 47 CFR 8.2 (a) ``Broadband Internet access service. A mass-
market retail service by wire or radio that provides the capability to 
transmit data to and receive data from all or substantially all 
Internet endpoints, including any capabilities that are incidental to 
and enable the operation of the communications service, but excluding 
dial-up Internet access service. This term also encompasses any service 
that the Commission finds to be providing a functional equivalent of 
the service described in the previous sentence, or that is used to 
evade the protections set forth in this part.''
    \4\ FCC 2016 Broadband Progress Report, FCC 16-6. Speed benchmarks 
are 25 Mbps download/3 Mbps upload (25 Mbps/3 Mbps) for fixed services 
and the report states that ``the current record is insufficient to set 
an appropriate speed benchmark for mobile service.''
---------------------------------------------------------------------------
    To begin, there are no real limitations on what broadband can 
become, and therefore, it is better to avoid rigid definitions at the 
early phase of deployment. Rather, it is more appropriate to define 
broadband in terms of evolving performance characteristics, based on 
the technologies and applications that consumers want and use, not 
fixed ``top down'' performance definitions. In the past, there has been 
a singular focus on ``speed'' as the sole factor that should define 
broadband (e.g., Gigabit service). While this may be important for some 
applications, it may not be necessary at arbitrary levels for all 
essential applications or on all devices. Different speeds may be more 
suitable to different types of applications. Furthermore, the 
government should ensure that reforms or changes encourage the 
provision of enterprise broadband as well as consumer broadband. 
Enterprise broadband is heavily relied upon by U.S. businesses--
including small business in rural and remote areas--that fuel the U.S. 
economy and provide a multitude of products and services available to 
U.S. consumers.
    Other factors such as differentiated service or pricing models, 
data caps, service availability, jitter, bursting, symmetry, latency, 
mobility and portability may emerge to play a role in consumer 
broadband choice and requirements. Given a competitive market, those 
solutions that are most responsive to consumer needs and preferences 
should succeed, while those that do not respond to such needs and 
preferences are likely to fail. Universal service policies should 
reflect these preferences by embracing consumer choice not government 
preferences and should be structured to be technology neutral
Technology Neutrality \5\
---------------------------------------------------------------------------
    \5\ Maxwell, Winston J. and Bourreau, Marc. ``Technology Neutrality 
in Internet, Telecoms and Data Protection Regulation'' Computer and 
Telecommunications Law Review, Issue 1, 2015. According to Maxwell and 
Bourreau, technology neutrality refers to a) where ``technical 
standards designed to limit negative externalities (e.g., radio 
interference, pollution, safety) should describe the result to be 
achieved, but should leave companies free to adopt whatever technology 
is most appropriate to achieve the result''; b) that ``the same 
regulatory principles should apply regardless of the technology 
used.''; and c) that ``regulators should refrain from using regulations 
as a means to push the market toward a particular structure that the 
regulators consider optimal.''
---------------------------------------------------------------------------
    Technology neutral funding is also important. Government funding 
decisions that favor one technology over another interfere with market 
forces, including investment and deployment decisions by the private 
sector. On the other hand, for areas that are truly difficult for the 
market to serve, the government should offer funding for the broadband 
providers that offer the best value for universal service dollars. This 
ensures that the American Universal Service Fund (USF) contributor gets 
the ``most bang for the USF buck'' and that broadband service reaches 
the most subscribers with the limited budget.
USF Portability
    Another idea that has been around for a while is ``portable 
consumer subsidies.'' Under this proposal, existing USF subsidies would 
belong to the consumer who would have the option of transferring to 
other broadband service providers and taking their subsidy with them. 
This would be similar to number portability for telephone service. This 
would introduce consumer choice in the process and open up competition 
for USF dollars, allowing the consumer to choose the service that is 
best suited for his or her needs rather than government mandated 
technologies.

    Question 2. Could you address concerns that satellite Internet 
service providers do not currently offer fast download speeds with low 
latency that can match the offerings of wireline and wireless Internet 
service providers? Do you expect newer generations of satellites and 
other innovations to make satellite broadband more competitive with 
other types of ISPs?
    Answer.
Today's Advanced High-Speed Satellite Broadband Networks
    To borrow a phrase from a recent commercial campaign, today's 
satellite broadband service is not ``your father's satellite 
broadband.'' Just as satellite TV and satellite radio took time to 
develop and become significant competitors in the video distribution 
and audio markets a decade ago, satellite broadband is becoming 
competitive in the broadband market. With base speeds on new high 
throughput broadband satellites reaching 25/3 Mbps and beyond for 
residential, aviation wi-fi, maritime and enterprise customers, to name 
a few, we are now seeing customers turn to satellite broadband as an 
alternative to DSL, cable, and, in some cases fiber, in urban and 
suburban markets as well as rural and remote areas. Up to one-third of 
satellite broadband customers are former cable or DSL subscribers.
    The newer high throughput broadband satellite designs are allowing 
higher speeds and data volumes, as well as supporting more subscribers 
for both voice and data services. Keeping up with the trends of 
Internet traffic, today most of the demand (80 percent and growing) is 
for over-the-top video downloading (e.g., Netflix, Hulu, YouTube). Very 
limited amounts of Internet traffic are latency-sensitive. Therefore, 
satellite broadband, that connects consumers directly into enterprise-
level fiber, is often a better solution than existing terrestrial 
networks. In fact, experience shows that many consumers prefer 
satellite broadband over terrestrial solutions because of price, 
service, and the type of applications that they routinely use.
Future LEO/MEO Satellite Broadband Networks
    In addition to today's advanced geostationary broadband satellite 
networks, there are new low earth orbit (LEO) and medium earth orbit 
(MEO) satellite systems under design and anticipated for launch and 
operation the next few years. Many of these systems will be able to 
offer low latency broadband that competes directly with terrestrial 
networks. They could also complement high throughput geostationary 
satellite networks, all making satellite broadband a viable alternative 
for consumers.
Appropriate Policy Choices Are Critical
    In order to facilitate the full use of these advanced satellite 
broadband networks, policymakers need to make the right choices by 
allocating sufficient spectrum resources and not put the regulatory 
finger on the spectrum scale in favor of purely terrestrial wireless 
technology. Technology neutrality is also critical in the context of 
making subsidy choices where the government must encourage competition 
among platforms. This will allow satellite broadband to flourish as a 
competitor to incumbent technologies, reducing the need for regulation, 
and increasing choices for American consumers, wherever they may choose 
to live and work.

    Question 3. I am interested in learning your thoughts about how to 
craft spectrum policy that is ``future proof.'' The United States 
Frequency Allocation Chart (available at https://www.ntia.doc.gov/
files/ntia/publications/january_2016_spectrum
_wall_chart.pdf) indicates that essentially all available spectrum has 
already been allocated. So the challenge today seems to be finding 
efficiencies and repurposing spectrum when new uses become important. 
How do we ensure that allocations made today do not unintentionally 
prevent us from meeting spectrum needs in the future?
    Answer. It is critical that any spectrum policy adopted by the 
United States not favor one technology over another--either explicitly 
through one policy or implicitly through technical rules that by 
application advantage one over the other. There needs to be competition 
among competing platforms. Given the enormous investment costs of 
providing communications services--particularly satellite services--the 
expansion of one service should not come at the expense of another.
    Today, in many cases, spectrum is shared among different, but 
compatible services and is being used efficiently by the satellite 
industry. The satellite industry has been sharing spectrum successfully 
for many decades--both in the context of coordinated use among 
satellite operators, but also with a number of non-satellite services, 
e.g., fixed backhaul.
    It is also critical to remember that there is a wide variety of 
spectrum needs for communications services other than those that meet 
individual consumer demand. For example, enterprise broadband, is 
relied on by small, medium, and large U.S. businesses through the 50 
states, fuels the U.S. economic growth and provides a multitude of 
products/services available to U.S. consumers. Banking transactions 
rely on satellite communications services, as does the distribution of 
almost all video programming throughout the United States. Our military 
and first responders utilize commercial satellite broadband 
technologies for mission critical applications. As policy makers make 
spectrum allocations and licensing decisions, the broader needs of the 
country must also be considered and the impact of these decisions must 
be appropriately weighed.
    Finally, it is critical to understand that spectrum ``need'' can 
also be met by innovation rather than solely by additional allocations. 
Because of changes in technology, the same amount of spectrum is often 
able to be used much more efficiently today than it was even a decade 
ago--enabling demand to be met through innovation.
    While it may not be possible to future proof all allocation 
decisions, creating a regulatory environment that incentivizes and 
rewards innovation in spectrum compatibility with incumbent users and 
maintaining a technology neutral approach to the delivery of services 
in the United States will go a long way to ensuring that the U.S. leads 
both at home and abroad in technology and services.

                                  <all>
</pre></body></html>
